<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, MAY 24, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Stevens, Mikulski, Leahy, Kohl, 
Murray, Harkin and Dorgan.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ALBERTO R. GONZALES, ATTORNEY GENERAL
    Senator Shelby. The subcommittee will come to order.
    I want to welcome Attorney General Alberto Gonzales and the 
Director of the Federal Bureau of Investigation (FBI), Robert 
Mueller. Thank you both for appearing before the subcommittee 
this morning. This is your first appearance before the newly 
created Subcommittee on Commerce, Justice, Science, and Related 
Agencies. Previously in my capacity as the chairman of the 
Senate Select Committee on Intelligence we had the opportunity 
to work together, and I hope to continue that relationship with 
you.
    I look forward to hearing from each of you about your 
vision of the Justice Department and the FBI respectively, and 
the challenges each of you see in the coming fiscal year. In 
particular I want to take this opportunity to thank the men and 
women who work at the Justice Department and all they do to 
keep America safe.
    Based on my review of your budget request and the 
constraints of the subcommittee, I believe it will take your 
leadership to make the tough choices regarding the allocation 
of resources given the budget constraints we are facing.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The fiscal year 2006 budget request for the Department of 
Justice is $20.3 billion and represents an increase of 1 
percent over the 2005 enacted funding level. While the budget 
proposes increases for the FBI, the United States Attorneys, 
the United States Marshals Service, and the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF), this budget proposes 
severe cuts to other important programs. In particular it 
proposes to cut $1.4 billion to State and local law enforcement 
programs. It rescinds $314 million in funds for the 
construction of new prisons, and proposes $123 million in new 
fees to fund base operations for critical law enforcement 
activities. This budget also proposes to rescind $1.3 billion 
held in trust for victims of crime to offset costs elsewhere. 
With that proposed offset, the Justice Department's request is 
actually $19.1 billion and represents a 5 percent decrease from 
the 2005 level.
    I find these cuts to be unacceptable and perhaps 
irresponsible, particularly as they relate to the rescission of 
important funds and the proposal of new fees.
    I want to be supportive of this request, but these 
reductions and the budget maneuvers concern me and will concern 
others on the subcommittee. For example, the budget proposes to 
increase a fee on the explosives industry to generate revenue 
of $120 million in offsetting collections in 2006. I want to 
point out that even if Congress passed this proposal today I am 
told it would take the Department 2 years to even begin 
collecting the fee. If that is true, I do not understand how 
the Department of Justice proposes to use the receipts from 
this fee to offset fiscal year 2006 law enforcement operations. 
This $120 million hole is just one example of many contained in 
this request. These shortfalls will force the committee to make 
some extremely difficult choices.
    Another offset that concerns me is the proposal to rescind 
funding previously provided by this subcommittee for new prison 
construction. Not only are we facing significant overcrowding 
at Federal prison facilities, but you are projecting the 
addition of approximately 8,000 new prisoners each year to 
those already crowded facilities. The budget proposes to 
rescind $314 million for funding already provided to build two 
medium security facilities. Without construction and activation 
of these two facilities, projected medium security crowding, 
which is already 50 percent over capacity, will be 10 percent 
higher by 2009.
    As for increases, Mr. Attorney General, your budget request 
proposes that $2.7 billion be spent on information technology, 
also, I expect there to be some direct oversight by you of the 
systems being developed by the Department and in its bureaus. 
The fact that the Department's CIO has control of less than 10 
percent of the information technology (IT) resources and the 
employees who build, run and maintain these systems, explains 
why there is no universal plan for systems development in the 
Department. But given the current budgetary constraints there 
are not sufficient resources to continue building these 
stovepipe systems that fail to deliver the results promised to 
the taxpayers and to the users.
    I am especially interested in hearing what specific 
oversight the Department is conducting with respect to the 
FBI's Virtual Case File (VCF). I was extremely disappointed to 
learn of VCF's failure and the significant loss of funds 
associated with it. While I wholeheartedly support bringing the 
FBI into the 21st century and realize the importance of 
information technology to the FBI's mission, we cannot support 
unlimited and unchecked resources, and will not tolerate broken 
promises for results that are never realized or delivered. I 
believe, given one failed attempt, it is imperative that you 
proceed with caution to ensure that we do not make the same 
mistakes twice. We expect results and will do everything we can 
to ensure that there is congressional oversight for this 
program. Someone must be accountable for the success or failure 
of VCF and all of the Department's programs.
    There are many other issues that we anticipate discussing 
during this hearing, including the FBI's use of resources on 
priority missions, the relationship of the FBI Director and the 
new Director of National Intelligence, and the funding 
implications of that relationship, and the critical human 
resources issues the FBI is now confronting.
    Attorney General Gonzales and Director Mueller, I look 
forward to hearing your thoughts on the Justice Department's 
budget request and will look forward to working with you on 
other important issues facing this country.

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman, and 
good morning to the subcommittee and to the Attorney General 
and to Director Mueller.
    This is our first hearing of the Senate Appropriations 
newly constituted Commerce, Justice, Science Subcommittee, and 
as I said, I look forward to working with Senator Shelby. This 
is a great subcommittee due to Senator Shelby's long experience 
and involvement in this, and also because we both were on the 
Intelligence Committee together. As Senator Shelby said, we 
look forward to really working with you in both unclassified 
and classified situations. And we have Senator Leahy, the 
ranking member on Judiciary, which hopefully means we will be 
able to combine sound policy with a good budget.
    We also note that as of this morning the Justice Department 
and the White House have sent forth a name for the U.S. 
Attorney in the State of Maryland. We have met with him and we 
feel confident that he will make a good one, and I assure you 
that I will do all that I can to move his nomination 
expeditiously.
    As we look at what the Justice Department is facing, it is 
one of the most critical agencies in our country. It must join 
together to fight the global war against terrorism, and yet 
protect us against other threats of organized crime, white-
collar crime and the rising gang violence. Its agencies are 
some of the most important that serve our Nation. In addition 
to the overall Justice framework, there is the FBI, the Drug 
Enforcement Administration, ATF, and our Marshals Service, 
often overlooked.
    In serving in this subcommittee we look forward to working 
with you to build a safer and stronger country. And like 
Senator Shelby, I too am very concerned about this budget. 
Particular concerns to me are the drastic cuts to local law 
enforcement programs which have to be the hallmark of law 
enforcement in our community, and law enforcement, when it is 
coordinated, really serves the national interest.
    Also, I am deeply concerned about the irresponsible $1.3 
billion rescission in the Crime Victims Fund. My job is to make 
sure the Department stands sentry on protecting America and our 
country and to make sure that we are the safer and stronger 
country.
    In order for our law enforcement strategy to work, we need 
to really focus on local law enforcement, and I have been 
concerned about programmatic cuts in the community oriented 
policing services (COPS), the Byrne program and others at the 
local level.
    I just would like to commend you, Mr. Attorney General, and 
then also to thank Director Mueller. We had a terrible 
situation here a few years ago with the sniper case, and it was 
a phenomenal effort of coordination, and we could not have done 
what we did without the FBI and Gary Bald and our ATF, who 
worked closely with our county executive, Doug Duncan. But we 
did not federalize it. We worked with the local law enforcement 
people. We had a national effort without federalizing. The 
Federal Government came in with its highest and best use of 
resources, but because of all of the funding and work of local 
law enforcement and the insistence that they coordinate, there 
was a brotherhood of the Beltway, truly a brotherhood around 
the Beltway. What they were able to do is to find the killers, 
and now as you know, they are in our judicial system.
    That to me is the model of local law enforcement, 
particularly when a nation or a community is under threat. So I 
am very committed to being able to make sure that local law 
enforcement has what it needs and that we have this kind of 
intense partnership.
    The other issue that we see on the rise is the issue of 
gang violence, and we hope to discuss this with you more, 
particularly because this issue is not only in our region, but 
it is a growing one.
    In an ideal world we could have had a separate hearing just 
on the FBI, but we need to move expeditiously in this 
appropriations cycle so that we are part of the cycle, and I 
want to thank Senator Shelby for the way he is organizing the 
subcommittee. But for the FBI, we really look forward to our 
continued relationship with the Director. We have worked with 
him in the intelligence effort. But now as we look at the FBI, 
we know we look at the request for increased funding for more 
analysts, language training, all of these things which we 
intensely support. We must go back though to the issues of 
Trilogy and to make sure we are on track with that, and at the 
same time as we work on making sure there is the technology to 
work, we cannot let domestic issues fall by the wayside, and I 
will be raising issues on an effort on health care fraud, the 
bilking of our citizens.
    So we will be talking about that as well as the gang issue 
and the prisoner reentry program.
    I am very interested, and I know Senator Shelby has raised 
the issue of new prisons. We have a Federal prison in 
Cumberland, Maryland and I compliment you on its staff. But 
what happens when the prisoners come home, and do we have a way 
that prevents recidivism and reintegrates them into the 
community and into the family?
    Mr. Gonzales, I know this is a keen issue with you, and 
perhaps this is one of the areas where faith-based initiatives 
really work best because of its community-based initiative to 
welcome the prisoner, coordinate with parole or probation, and 
at the same time make sure that when they reenter we move them 
to a new way of life and we look forward to discussing this 
with you.
    Mr. Chairman, that concludes my statement. There is so much 
to talk about, but we agree on a lot of the priorities. We just 
need to agree now on the wallet.
    Senator Shelby. Senator Leahy.

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Thank you, Mr. Chairman. I join you and 
Senator Mikulski in welcoming Attorney General Gonzales and FBI 
Director Mueller here, and I know they represent the hard-
working men and women of the Justice Department, the FBI, 
people who work around the clock every single day of the week, 
protect all Americans, and I would hope that all Americans are 
grateful.
    They are here to talk not only directly on policy but 
indirectly on policy because they are going to talk about the 
budget request for the Justice Department, a request which 
recommends lessened priorities, substantial cuts in several 
programs that are critical to State and local agencies. They 
are in charge of fighting crime and preventing terrorism and 
assisting victims.
    I share the frustration of local and State law enforcement. 
All of us, both Republicans and Democrats have heard from them, 
and the first responder agencies because they see a budget 
request that includes elimination and reduction of funding by 
$1.5 billion. That is a 46.2 percent reduction in programs 
crucial to their day-by-day efforts. As a Senator from a rural 
State I've seen the partnerships we have made with our rural 
law enforcement, and how our State police have been called upon 
to carry out duties they had never done before, in cooperation 
with the Federal agencies. So when the administration proposes 
a 46.2 percent cut in what they have for law enforcement it is 
a matter of concern.
    The Department's top priorities continue to be the 
prevention, investigation, and the prosecution of terrorist 
activities against U.S. citizens and interests, as we see in 
their request for $535 million in new investments for the FBI 
including counterintelligence activities and Justice 
information systems technology. But I think it is legitimate to 
ask questions about how the FBI has handled some of these 
resources. At our last hearing in February we examined the lack 
of a Virtual Case File and the millions wasted on lessons 
learned. I hope that the Director will have new information 
today on the program successor, so-called SENTINEL, on the 
status and cost and make sure that this is not money down the 
drain like the last time.
    There have been concerns that traditional duties to the 
Justice Department have garnered too little attention and 
support. They have to lead the Nation in deterring, 
investigating, prosecuting gun, drug, civil rights violations, 
incarcerating offenders, partnering with State, local and 
community groups to prevent crimes, and of course leadership 
and assistance in meeting the needs of crime victims. We have 
seen an end to the downward trend in violent crimes with rates 
leveling out instead of continuing to climb. The FBI has 
reported an overall violent crime decline of 3 percent in 2003. 
That is great news, but murders increased by 1.7 percent, and 
that of course creates a concern especially as it reflects a 
change and a downward slide.
    The President says that he wants to ensure that our State 
and local police receive the resources necessary to do the job. 
Last week at the National Press Club the Attorney General 
said--and I totally agree with what he said--``we rely on local 
information, local partners to fight local crime, the beat cop, 
the county sheriff, and the lifelong investigator. They 
understand what is happening in the towns and cities and what 
needs to be done to stop it.''
    Attorney General Gonzales. I could not agree with you more. 
But I worry when I see the drastic cuts in those programs. 
Under the President's budget we are going to see an end to 
grants for hiring on the beat and school resources officers. We 
see under the President's budget severe reductions in equipment 
and support staff grants to combat illegal drugs, particularly 
methamphetamine production and distribution. We are going to 
see drastic cuts of 50 percent to programs that support 
activities to prevent juvenile delinquency and address juvenile 
crime, something we were finally getting a handle on. The Boys 
and Girls Clubs of America, for example, something that has 
been proven to be a success, is going to see its budget cut by 
30 percent.
    And finally, and this I really cannot understand, in the 
Crime Victims Fund, which has had enormous bipartisan support, 
the President has proposed to take all the amounts remaining in 
the fund, all of them, at the end of fiscal year 2006. That is 
a cut of $1.2 billion. It is going to place crime victim 
service programs in serious jeopardy. I think it sends a wrong 
message to law enforcement officers and crime victims. They see 
us spending billions of dollars for victims of crimes in Iraq, 
but we are cutting out every single cent in this budget for 
crime victims in America. I am not saying we should cut out the 
money in Iraq. That is not the question, but if we can find it 
in our hearts and our pocketbooks to help crime victims in 
Iraq, why are we taking away all the money that was put in 
there for crime victims in the United States. I do not think we 
should be eliminating initiatives that we know to be effective.
    Strengthening security, information sharing, and disaster 
response programs to combat terrorism must not totally 
overshadow the prevention of more traditional crimes. Frankly, 
most people are far more worried about a burglar, a rapist, a 
murderer or somebody who is stealing their identity, doing 
these crimes, than they are about an airplane flying into their 
homes or the buildings where they work. Of course we watch out 
for the airplanes, but I think that the average person is far 
more worried about the safety of their home and their business 
and their person, and when they go shopping or with their 
children going to school. And if they have been a victim of a 
crime they are worried about being helped as a victim.
    Mr. Chairman, I commend you for having this hearing. I 
think it is very important, and I congratulate you on your new 
chairmanship.
    Senator Shelby. Thank you.
    Senator Stevens.
    Senator Stevens. I have no opening statement. Thank you.
    Senator Shelby. Senator Harkin.

                OPENING STATEMENT OF SENATOR TOM HARKIN

    Senator Harkin. Thank you, Mr. Chairman. I will be brief.
    Mr. Attorney General, between 1993 and 2003, violent crime 
in this country declined by more than 50 percent, from 49.1 to 
22.3 incidents of violence per 1,000 persons. During this same 
period of time the Federal Government provided an increased 
level of assistance to local law enforcement agencies in the 
form of grants. Three programs in particular, the Edward Byrne 
Memorial grant, the local law enforcement block grant, and the 
COPS program, have been critical in providing resources to pay 
for more law enforcement officers and to fund more regional 
cooperation.
    However, between fiscal year 2003 and 2005 over $1 billion 
in grant assistance to State and local law enforcement was cut 
from the Department of Justice (DOJ) budget. This year you are 
taking the final step and eliminating what remains of these 
programs, and depriving law enforcement agencies across the 
country of an additional $1.3 billion. This is quite a way to 
say thank you to the men and women in law enforcement. It is 
quite a way to handle programs that have contributed to this 
amazing reduction in violent crime.
    Just as an example of what these cuts mean, the Byrne 
program, which is being eliminated, funds 4,316 cops and 
prosecutors working on 764 drug enforcement task forces 
nationally. Byrne funding led to 130,000 drug arrests in 32 
States, the seizure of 136 tons of illegal drugs, the 
confiscation of over 7,000 weapons and the seizure of 7,691 
meth labs. Yet the administration's rationale for doing away 
with the program is that it has not demonstrated results.
    So, Mr. Attorney General, I would like very much for you to 
visit Iowa, where like many other midwestern States we are in 
the middle of a methamphetamine crisis. Our Byrne dollars, the 
ones that may not exist next year, fund 74 task forces and pay 
for an additional 84 law enforcement salaries. They fund task 
forces responsible for the seizure of 63 percent of the meth 
labs in my State of Iowa. They fund a women's prison treatment 
program, where only 9 percent have gone back on meth after 
their release. It is an award-winning dual diagnosis treatment 
program.
    These funds are, quite simply, critical to the fight 
against meth. They are making a difference. When it comes to my 
turn for questioning I would like to again question you further 
about the taking away especially of the Byrne grant programs.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, thank you very much, and 
thank you to both Attorney General Gonzales and FBI Director 
Mueller for being here today, and I thank you and the ranking 
member for holding this hearing.
    I do not have an official opening statement. Let me just 
say I echo the concerns about the cuts to the Byrne justice 
assistance grants and to the COPS Program. I am very deeply 
concerned about those cuts and the impacts, as well as the 
proposal not only to cut HIDTA funding but to move it, and the 
implications there. I am also very concerned that the 
Department of Justice has not done enough to stop the spread of 
methamphetamine and other synthetic drugs, and I will be asking 
you about that during the questioning as well.
    Mr. Chairman, most importantly to my State, as we have been 
dealing with challenges along the northern border and being 
much more aggressive, it has been good, but a lot of the costs 
have been dumped on our local jurisdictions to be able to deal 
with some of the drug smuggling and money laundering and other 
crimes, that as a result of more intense border security, we 
have been pushing these to the local jurisdictions to deal with 
it. It is a tremendous cost to the communities on our northern 
border. So I will be asking about that during the questioning.
    Thank you for having this hearing.
    Senator Shelby. Mr. Attorney General, your written 
testimony, your written statement will be made part of the 
record, and so will yours, Director Mueller. You proceed as you 
wish. Welcome to the subcommittee.

             OPENING STATEMENT OF ATTORNEY GENERAL GONZALES

    Attorney General Gonzales. Good morning, Mr. Chairman, 
Senator Mikulski and members of the subcommittee. It is my 
pleasure to appear before you with Director Mueller to present 
the President's fiscal year 2006 budget of the Department of 
Justice.
    This budget reflects some tough decisions, but it is a 
budget that I fully support. It reflects the President's charge 
for every public servant, which is not to simply spend more 
with the best of intentions, but to spend more wisely with an 
eye toward results.
    It builds on our number one priority by including over $500 
million in new investments for preventing and combatting 
terrorism. I would like to present a few highlights from the 
budget that we believe will lead to a stronger Justice 
Department, better homeland defense, a more effective 
counterterrorism effort, and even smarter crime-fighting 
initiatives.

   FEDERAL BUREAU OF INVESTIGATION INTELLIGENCE AND COUNTERTERRORISM 
                                PROGRAMS

    First, the President's budget includes funding to 
strengthen the FBI's intelligence and counterterrorism 
programs, as has been mentioned, including additional resources 
to hire 499 intelligence analysts and 288 new agents for the 
counterterrorism program.
    Our request also continues efforts to partner with State 
and local governments to maximize resources targeted to 
homeland security. It includes over $90 million in directed 
investment grants for counterterrorism and counterintelligence 
efforts.

                        DRUG FIGHTING STRATEGIES

    Second, the President's budget request will lead to even 
more effective drug fighting strategies. We request 
enhancements of $245 million for drug enforcement efforts. For 
the first time in a decade, drug use has decreased among 8th, 
10th, and 12th graders. With extraordinary collaboration 
between Federal law enforcement agencies, in the past 2 years 
we have hurt international trafficking organizations 
responsible for the U.S. drug supply.
    We know from experience that law enforcement agencies must 
pool their resources and expertise to target trafficking 
networks effectively. The Department of Justice's drug 
enforcement strategy refocuses the organized crime drug 
enforcement task force (OCDETF) program to conduct coordinated 
investigations of major drug supply and money laundering 
organizations, targeting the entire infrastructure of these 
enterprises. For this successful program, we are requesting 
additional resources of $172 million and 517 positions.
    Also included are enhancements of $72.9 million for the 
Drug Enforcement Administration (DEA). This money will mean 122 
new positions, including 76 new agents for the DEA.
    To assist State and local efforts in implementing drug 
enforcement programs and strategies, the Department's fiscal 
year 2006 request also includes $206.7 million in directed 
investments, including a $19.3 million increase for residential 
substance abuse treatment, an additional $30 million for drug 
courts, a $19.4 million increase for Southwest border drug 
prosecution, $20 million to continue methamphetamine lab 
cleanup, and $5 million to continue the prescription drug 
monitoring program.

                          FIGHT VIOLENT CRIMES

    Third, the President's budget will continue to build on the 
President's vision for policies that fight violent crime with 
hard time. Violent crime and firearms trafficking continue to 
be significant law enforcement problems throughout our Nation. 
We are committed to reducing violence and getting gun criminals 
off the streets through the Project Safe Neighborhoods (PSN) 
Initiative. The Department is requesting a total of $379 
million for PSN in fiscal year 2006. PSN is a comprehensive 
strategy that brings together Federal, State and local agencies 
to reduce violent crime in our communities. Working with the 
Department, each community tailors a program to target local 
gun violence problems.

                       PROTECT WOMEN AND CHILDREN

    Fourth, the President's budget builds on our successful 
efforts to protect women and children and to build a more just 
and safer society for all. Over the last year we have worked 
aggressively with other law enforcement agencies to target and 
prosecute a large variety of offenders posing grave threats to 
children, including large international rings of organized and 
predatory child molesters and commercial producers and sellers 
of child sex abuse images. Through these efforts more than 150 
child victims were rescued. The fiscal year 2006 budget 
increases funding by $10.4 million for our efforts to fight 
child pornography and obscenity.

                 COURT SECURITY AND DETENTION RESOURCES

    Fifth, as a result of aggressive law enforcement policies 
targeting terrorism, violent crime, immigration violations and 
drug crimes, as well as increases in the number of FBI, DEA and 
U.S. Immigration and Customs Enforcement (ICE) agents, the 
number of criminal suspects appearing in Federal court 
continues to grow, as does the number of individuals ordered 
detained and ultimately incarcerated. The fiscal year 2006 
budget provides significant resources needed to improve 
courtroom security and the detention and incarceration of those 
accused or convicted of violent crimes. During fiscal year 2004 
the Nation's Federal prison population rose 4.3 percent. That 
is an increase of more than 7,300 inmates. At the same time the 
Federal prison detention population rose 11.8 percent. Our 
fiscal year 2006 budget requests $509.6 million in additional 
resources for the Federal Bureau of Prisons, U.S. Marshals 
Service, and the Office of the Detention Trustee to manage this 
growth.
    Finally, the President's budget includes many directed 
investments and efficiencies to ensure that the Department 
continues down the path of wise and effective financial 
management so that we maximize every dollar that is provided to 
us.

                          PREPARED STATEMENTS

    Chairman Shelby, Senator Mikulski, members of the 
subcommittee, I am honored to testify here, and I look forward 
to working with you in the days and months ahead for a budget 
that will lead to a safer, more secure, and more just America.
    Thank you, and I would be pleased to answer any questions 
you might have.
    [The statements follow:]

               Prepared Statement of Alberto R. Gonzales

    Good morning Chairman Shelby, Senator Mikulski and Members of the 
Subcommittee: It is my pleasure to appear before you for the first time 
to present the President's fiscal year 2006 budget for the Department 
of Justice. I assumed this office knowing that the Department of 
Justice (DOJ) is fully committed to protecting the lives and the 
liberties of our citizens. As such, the budget proposal I bring before 
you today requests resources to continue protecting Americans and 
keeping our streets safe. For fiscal year 2006, the President's budget 
requests $19.1 billion for the Department of Justice, including $535.2 
million in new investments for preventing and combating terrorism, 
including counterintelligence.
    The budget I present to you is also mindful of our need to ensure 
that programs achieve their intended result. We propose a number of 
reforms and, where warranted, program reductions or eliminations. As a 
result, the spending increases proposed in our budget are offset by 
$1.88 billion in program savings and I look forward to working with you 
to achieve these savings.
    The Department's fiscal year 2006 budget requests $3.1 billion in 
homeland security spending, including funding to strengthen the 
Nation's counterterrorism investigative capabilities to identify, track 
and prevent terrorist cells from operating in the United States and 
enhance the Nation's counterintelligence analysis capabilities. This 
request also provides necessary resources to continue our efforts to 
deter, investigate and prosecute federal crimes, including gun, drug 
and civil rights violations; incarcerate offenders; partner with state, 
local, community and faith-based groups to prevent crime, including 
crimes against children; and provide leadership and assistance in 
meeting the needs of crime victims.
   preventing and combating terrorism, including counterintelligence
    Over the past three years, the Department has steadfastly allocated 
resources to counterterrorism and has undergone a transformation in our 
priorities, as well as our organization. Within DOJ, the Federal Bureau 
of Investigation is in the process of standing up a comprehensive 
Intelligence Program to prevent terrorist attacks, an effort that has 
been accelerated by the passage of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The fiscal year 2006 budget includes 
funding to strengthen the FBI's Intelligence and Counterterrorism 
Programs, such as additional resources to hire an additional 499 
Intelligence analysts and 288 agents for the Counterterrorism Program.
    Tremendous strides in the war on terrorism were made under the 
leadership of Attorney General John Ashcroft. In the past year alone, 
the Department of Justice has arrested 379 individuals on 
counterterrorism-related charges and prosecuted and obtained 
convictions in 200 terrorism-related cases.
    Under my leadership, we in the Department will continue to be 
resolute in our quest to address terrorism and other threats to our 
Nation with integrity and devotion to our highest ideals. I appreciate 
the support shown by this Subcommittee and the Congress in providing 
the necessary resources for the Department of Justice to be a champion 
and build a culture dedicated to protecting the lives and liberties of 
Americans. The budget that I present to you today reflects this support 
and seeks to enhance the Department's ability to protect America.
Enhancing Counterterrorism/Counterintelligence Capabilities
    Since September 11, 2001, the Federal Bureau of Investigation's 
(FBI) counterterrorism workload has more than tripled, from 9,340 cases 
pending and received in the field to over 33,000 in fiscal year 2004. 
This budget request includes resources for the FBI to provide critical 
counterterrorism investigation capabilities. This funding will allow 
the FBI to strengthen its effort to identify, track, and prevent 
terrorist cells from operating in the United States. Principal 
increases would provide funding to: double the size of the Hostage 
Response Team, hire 499 additional intelligence analysts, enhance the 
foreign language translation program by $26 million, and expand the 
Legal Attache program.
    This budget also includes funding for two Presidential initiatives, 
the National Counterterrorism Center (NCTC) and the Terrorist Screening 
Center (TSC). The NCTC, established in May 2003 as the Terrorist Threat 
Integration Center, is a multi-agency effort that merges and analyzes 
intelligence information to provide a comprehensive threat analysis to 
the intelligence and law enforcement communities.
    The Terrorist Screening Center, which was established by Homeland 
Security Presidential Directive/HSPD-6 on September 16, 2003, and 
became operational on December 1, 2003, consolidates terrorist watch 
lists. Several initiatives require additional resources in this area, 
including: continuing education of state and local law enforcement; 
more stringent screening at U.S. borders; and screening passengers on 
domestic and international flights without unduly delaying commerce or 
travel. To meet these increased requirements, this budget includes an 
additional 61 positions and $75 million for TSC, bringing total TSC 
funding up to $104 million.
    Additionally, successful counterterrorism requires the cohesive 
intelligence, investigative, and prosecutorial efforts of many 
government agencies, including the federal, state, and local law 
enforcement agencies participating in the Joint Terrorism Task Forces 
(JTTF). A key to the success of the JTTF concept remains the melding of 
personnel from various law enforcement agencies into a single focused 
unit. Also, since the events of September 11, 2001, the U.S. Attorneys 
and the Department's Criminal Division have utilized the full cadre of 
anti-terrorism statutes to prosecute terrorist activities, including 
disrupting terrorist financing. Our budget seeks an additional $13.2 
million and 91 positions to enhance these efforts, including funds to 
support the investigation of terrorism, primarily through the 
application of warrants under Foreign Intelligence Surveillance Act and 
Department-wide continuity of operations investments.
Additional Enhancements to Counterterrorism/Counterintelligence 
        Infrastructure
    A key element in our efforts to prevent future acts of terrorism is 
our ability to effectively share information about terrorists, criminal 
activity and threats to public safety within DOJ and with other 
federal, tribal, state and local law enforcement partners. To support 
this effort, this budget requests an additional $63.9 million and 5 
positions for the Justice Information Sharing Technology (JIST) 
Program. This program will ensure that investments in information 
sharing technology are well planned and aligned with the Department's 
overall information technology strategy and enterprise architecture. 
JIST will also ensure that all DOJ components are able to operate in an 
interoperable environment, particularly with respect to preventing 
terrorist attacks on the United States.
    This request also continues efforts to partner with state and local 
governments to maximize resources targeted to homeland security 
efforts. The fiscal year 2006 budget maintains this commitment and 
includes $90.3 million in directed investment grants for 
counterterrorism/counterintelligence efforts.

                            DRUG ENFORCEMENT

    For the first time in a decade, drug use has decreased among 8th, 
10th, and 12th graders. With extraordinary collaboration between 
federal law enforcement agencies, in the past two years the Department 
of Justice has crippled international trafficking organizations 
responsible for the U.S. drug supply. In fiscal year 2004, the 
Department dismantled 36 Consolidated Priority Organization Target 
(CPOT)-linked drug trafficking organizations and severely disrupted an 
additional 159 organizations
    The fiscal year 2006 budget requests enhancements of $245.4 million 
for drug enforcement efforts: $172.5 million is for the Organized Crime 
Drug Enforcement Task Force (OCDETF) Program, the cornerstone of the 
Department's drug enforcement strategy, and $72.9 million is for the 
Drug Enforcement Administration (DEA), the Nation's sole law 
enforcement entity dedicated exclusively to drug enforcement. The 
request also includes an additional $32.6 million in new initiatives 
for DEA's Diversion Control Fee Account and $206.7 million in directed 
investments for the Office of Justice Programs.
    Law enforcement agencies must pool their resources and expertise to 
target trafficking networks effectively. The Department's Drug 
Enforcement Strategy refocused the OCDETF Program to conduct 
coordinated investigations of major drug supply and money laundering 
organizations, targeting the entire infrastructure of these 
enterprises. For this successful program, the Department requests 
additional resources of $172.5 million and 517 positions. This 
increased level of funding will address staffing imbalances that exist 
within the U.S. Attorney workforce; increase FBI OCDETF drug resources 
that focus on major trafficking organizations; implement Phase II of a 
multi-year plan to increase the capacity of the U.S. Marshals Service 
to apprehend OCDETF fugitives; and provide for ongoing operations and 
maintenance of the OCDETF Fusion Center beyond fiscal year 2005.
    This request also reflects the President's proposal to transfer the 
High Intensity Drug Trafficking Area (HIDTA) Program from the Office of 
National Drug Control Policy (ONDCP) to the Department of Justice, with 
funding provided through OCDETF at a level of $100 million including 5 
positions. A smaller refocused HIDTA program, will enable law 
enforcement to target the drug trade in a manner that is strategic and 
complementary of the OCDETF Program and preserves HIDTA's most 
effective elements, such as intelligence sharing and fostering multi-
agency law enforcement coordination.
    Our fiscal year 2006 budget requests $72.9 million and 122 
positions, including 76 new agents, for the DEA. The investments 
requested will provide permanent funding for DEA's Overseas Rightsizing 
plan; expand DEA's presence in Afghanistan, Central Asia, and the 
Middle East; enhance intelligence sharing to fully exploit, gather, 
analyze and share intelligence information; and maintain and upgrade 
DEA's intelligence capabilities. These resources will also strengthen 
the investigation of drug trafficking and money laundering priority 
target organizations through enhanced communications intercept 
capabilities and investigative technologies.
    For DEA's Diversion Control program, our fiscal year 2006 request 
proposes an increase of $32.6 million and 97 positions to enhance 
investigations and enforcement actions against the illegal sale, use, 
or diversion of controlled substances. The request also proposes to 
transfer funding associated with the Chemical Program from the Salaries 
and Expenses account to the Diversion Control Fee Account to complete 
the transfer effectuated in the fiscal year 2005 Appropriations Act. 
Funding all Diversion Control Program activities from the Diversion 
Control Fee Account will help streamline the program's financial 
management activities.
    The Department's fiscal year 2006 budget also includes $206.7 
million in directed investments to assist state and local efforts in 
implementing drug enforcement programs and strategies. Among these 
directed investments are: a $19.3 million increase for residential 
substance abuse treatment; an additional $30.0 million for drug courts; 
a $19.4 million increase for southwest border drug prosecution; $20 
million to continue methamphetamine lab cleanup; and $5 million to 
continue the prescription drug monitoring program.

                       VIOLENT CRIME ENFORCEMENT

    Violent crime and firearms trafficking continue to be significant 
law enforcement problems throughout the Nation. The Administration is 
committed to reducing violence and getting gun criminals off the 
streets through the Project Safe Neighborhood (PSN) initiative. The 
Administration is requesting $379 million for PSN in 2006. PSN is a 
comprehensive strategy that brings together federal, state, and local 
agencies to reduce violent crime in our communities. Working with the 
Department, each community tailors the program to target local gun 
violence problems. The Administration has also launched a companion 
initiative, the Violent Crime Impact Teams (VCIT), led by the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF). VCIT, currently active 
in 15 cities, expands to 25 cities in the fiscal year 2006 budget.
    Multiple Justice components play key roles in the Department's 
effort to reduce violent crime. The fiscal year 2006 request for PSN 
includes $154.2 million in new investments, including $136.2 million in 
additional funding for PSN initiatives such as Project ChildSafe, the 
National Criminal History Improvement Program, and State and Local Gun 
Crime Prosecution Assistance--all funded within the Office of Justice 
Programs. Funding also is requested under the PSN umbrella for ATF, the 
U.S. Attorneys, and the Criminal Division.
    Since joining the Department in January 2003, ATF has become an 
integral part of the Department's efforts to reduce the violent use of 
firearms by criminals and gangs. Over 72 percent of ATF's resources 
($666.0 million) are dedicated to firearms regulation and enforcement 
efforts, including licensing and inspection of federal firearms 
dealers, ballistics gun tracing, and criminal investigations of gun 
related crimes in partnership with a variety of federal, state and 
local law enforcement agencies. In addition, the United States 
Attorneys Offices (USAO) across the country, continue to develop 
strategies to make their communities safer. Critical to that goal is 
the aggressive prosecution of violent crimes, particularly those 
involving firearms. Another key component to helping to forge strong 
and effective partnerships with state and local law enforcement, is the 
Office of Justice Programs which provides grant funding that focuses on 
youth gun violence deterrence, firearms safety, criminal records 
improvements, and strategic planning.

                               LITIGATION

    The Department's fiscal year 2006 request includes $31.6 million 
and 227 positions in new investments for litigation to enforce federal 
laws and represent the rights and interests of the American people, as 
well as $1 million in Office of Justice Programs directed investments. 
The Department serves as the Nation's chief litigator, representing the 
United States in court and enforcing federal civil and criminal 
statutes, including those protecting civil rights, safeguarding the 
environment, preserving a competitive market structure, defending the 
public against unwarranted claims, and preserving the integrity of the 
Nation's bankruptcy system.
    The President's fiscal year 2006 budget request includes funding to 
fortify the U.S. Attorneys' immigration and intellectual crime 
prosecutions; the Criminal Division's ability to investigate and 
prosecute child sex exploitation, trafficking, and obscenity; the Civil 
Division's efforts to address immigration litigation; and the 
Environment and Natural Resources Division's litigation needs 
associated with tribal trust cases.
    Key investments include: $1.9 million and 36 positions for 
additional paralegals to narrow the gap between the private sector 
industry average and that found in the U.S. Attorneys' Offices; $3.7 
million and 46 positions to ensure there is sufficient U.S. Attorney 
presence to meet the steadily increasing caseload generated by 
increased Immigration and Customs Enforcement cases; $5 million and 58 
positions in U.S. Attorney and Civil Division resources for Health Care 
Fraud investigations and prosecutions; and $1 million and 11 positions 
to expand the Computer Crime, High Tech and Intellectual Property 
program.
    Between fiscal year 2001 and fiscal year 2004, the Civil Division's 
Office of Immigration Litigation (OIL) workload tripled to 
approximately 15,000 cases and will likely surpass 21,000 by fiscal 
year 2006 due to the avalanche of appeals by aliens challenging 
decisions to detain, deport, exclude, and remove them. By fiscal year 
2006, the attorney workload is projected to reach 186 cases--a number 
that is impossible for any attorney to handle effectively. Inadequate 
resources to defend these cases could result in adverse judgments, 
hindering the government's ability to pursue a consistent, unified 
strategy for upholding immigration enforcement actions and, 
consequently, undermining our national security. The fiscal year 2006 
budget requests $5.8 million and 58 positions to protect our Nation by 
excluding and deporting those aliens who pose a threat to national 
security and aliens who otherwise lack entitlement as defined by the 
Immigration and Naturalization Act. The request also includes enhanced 
resources for the Civil Division's Spent Nuclear Fuel Litigation to 
provide automated litigation support for the sixty-six cases filed by 
nuclear utility companies against the Department of Energy.
    The fiscal year 2006 budget also requests $7.4 million and 18 
positions to defend the United States in lawsuits filed by Indian 
Tribes for allegations regarding the management of Tribal assets by the 
Bureau of Indian Affairs. The United States' potential exposure in 
these cases is more than $200 billion. Adequate resources are necessary 
to limit exposure and establish proper precedent for the United States. 
These cases differ from lawsuits brought against the United States by 
individual Tribal members, like Cobell, due to the extent of the 
potential exposure and the amount of document management/production 
required. The document management is astronomical: approximately 55 
million pages of documents need to be reviewed. Thus the requested 
increase includes $6.1 million to address these document management-
related expenses.

            CRIMES AGAINST WOMEN AND CHILDREN AND OBSCENITY

    The Violence Against Women Act has made a critical difference in 
the lives of countless women and children. During this Administration, 
the Office on Violence Against Women (OVW) has awarded nearly $1.25 
billion in grants and cooperative agreements to enable communities to 
increase their efforts in addressing violence against women and to 
support and enhance services for victims. To build on these efforts 
this budget requests a $363 million total investment for Violence 
Against Women Act programs, including the Office on Violence Against 
Women.
    The Department's budget reflects its commitment to protect the most 
defenseless and youngest victims from human trafficking and other forms 
of exploitation. During the last year, the Department worked 
aggressively with other law enforcement agencies to target and 
prosecute a large variety of offenders posing grave threats to 
children, including large international rings of organized and 
predatory child molesters and commercial producers and sellers of child 
sex abuse images. Through these efforts, more than 150 child victims 
were rescued. As the Nation's expert in the prevention and prosecution 
of child exploitation and obscenity, the Department's Criminal Division 
attorneys prosecute defendants who have violated federal child 
exploitation and obscenity laws and also assist the 94 United States 
Attorney Offices in investigations, trials, and appeals related to 
these offenses. Additionally, the FBI's Innocent Images National 
Initiative (IINI) identifies, and investigates sexual predators who use 
the Internet and other online services to sexually exploit children, 
identifies and rescues child victims, and establishes a law enforcement 
presence on the Internet as a deterrent to subjects that exploit 
children. This budget increases funding by $10.4 million for the 
Justice Department's efforts to fight child pornography and obscenity, 
including the Criminal Division programs, the FBI's IINI and Child 
Obscenity Enforcement efforts, and the Internet Crimes Against Children 
Task Forces.
    In fiscal year 2004, the FBI located 300 missing children, shut 
down 2,638 child pornography websites or web hosts, and assisted in 
obtaining 881 convictions/pretrial diversions for crimes against 
children via online computer usage. This budget requests an increase of 
$9.1 million and 85 positions to continue these efforts.
    The Office of Justice Programs plays a significant role in reducing 
crimes against children through training and technical expertise to our 
state and local law enforcement partners and public safety entities. 
Since the President announced an administration effort to expand and 
coordinate the AMBER Alert network in October 2002, it has been 
credited with the recovery of over 150 children, or over 80 percent of 
the188 recoveries since the initiative began in Texas in 1996. In 2005 
the Amber Alert plans were established in all 50 states marking a 
milestone in our efforts to prevent child abductions. This budget seeks 
$5.0 million to maintain this system.

                       STATE AND LOCAL ASSISTANCE

    State and local law enforcement departments are critical partners 
in the war against terror and the fight against crime. Fiscal year 2006 
budget selectively maintains and grows effective programs with over 
$1.5 billion in grant assistance to state and locals agencies, 
including $185.3 million to strengthen communities through programs 
providing services such as drug treatment, $90.3 million to fight 
terrorism, and $335 million to combat violence. This includes 
enhancements to grant funding provided under Project Safe 
Neighborhoods; $235.2 million for law enforcement technology, including 
funding to continue and enhance the Administration's DNA initiative; 
and $92.5 million to support drug enforcement, including funding to 
continue and expand the Southwest Border Drug Prosecution Program.
    Programs targeted to helping strengthen our community remains a 
priority for the Department of Justice. A total investment of $185.3 
million in fiscal year 2006 provides $15 million to increase support 
for the Administration's offender re-entry program, which includes the 
participation of the Departments of Labor and Housing and Urban 
Development. An increase of $19.3 million is requested to assists 
states and units of local government in developing and implementing 
residential and substance abuse treatment programs. An increase of 
$29.9 million is requested for the drug courts program, which will 
result in a 2 percent improvement in the graduation rate from the drug 
courts program as compared to fiscal year 2005 estimates.
    Our request proposes the establishment of a program to provide $20 
million in fiscal year 2006 ($50 million over three years) for training 
to private defense counsel and public defenders, state and local 
prosecutors, and state judges to improve the competency of all 
participants connected with the trial of state capital cases.
    Efforts to improve our ability to combat terrorism would not be a 
success without our state and local partners. The fiscal year 2006 
request invests $90.3 million in state and local programs to combat 
terrorism including a $4.5 million increase for the Regional 
Information Sharing System; $14 million for state and local anti-
terrorism training; $7 million to develop tools and approaches to 
improve the ability of state and local first responders to detect and 
effectively respond to terrorist attacks; $16 million to fund the USA 
Freedom Corps program; and a total of $6.2 million for the National 
Criminal Intelligence Sharing Plan -the state and local complement to 
the Department's Law Enforcement Information Sharing Program.
    A $227.4 million investment is also proposed to assist state and 
local communities in combating other violent crimes, including $10.2 
million to prevent prison rape and prosecute persons committing it. The 
Department is committed to upholding the rights and to defending human 
dignity of all citizens, including prisoners.
    The fiscal year 2006 budget requests an additional $72.7 million to 
continue efforts to reduce convicted offender and crime scene backlogs, 
strengthen the capabilities of labs, fund DNA research and development 
projects, provide specialized training to law enforcement and lab and 
medical personnel, pay for programs and educational materials that 
employ DNA technology to identify missing persons, and to fund a post-
conviction DNA testing program. Also included in the fiscal year 2006 
budget is a $29.9 million total investment in the Bulletproof Vests 
Program.

            JUDICIAL PROTECTION, DETENTION AND INCARCERATION

    As a result of aggressive law enforcement policies targeting 
terrorism, violent crime, immigration violations, and drug crimes, as 
well as the increases in the number of FBI and DEA agents, the number 
of criminal suspects appearing in federal court continues to grow, as 
does the number of individuals ordered detained and ultimately 
incarcerated. The fiscal year 2006 budget request provides significant 
resources needed to improve courtroom security and the detention and 
incarceration of those accused or convicted of violent crimes. During 
fiscal year 2004, the Nation's federal prison population rose 4.3 
percent, by 7,396 inmates. At the same time, the federal prisoner 
detention population rose 11.8 percent, increasing by approximately 
5,200 detainees on a daily basis. The request provides additional 
resources for the Bureau of Prisons and Office of the Detention Trustee 
to manage this growth, including activation costs for three new 
facilities and two expansions of existing facilities. The fiscal year 
2006 DOJ budget requests $509.6 million in additional resources in 
these areas
    The U.S. Marshals Service (USMS) ensures that the federal justice 
system operates effectively and securely by providing judicial and 
courtroom security to deter and respond to threats and protect federal 
judges, court personnel, witnesses and other participants in federal 
judicial proceedings. This budget will provide the resources needed for 
the Department to continue to ensure that no judicial proceedings are 
interrupted due to inadequate security as well as to continue to 
identify, assess, and respond to the threats against court personnel 
and property; enhance the physical security of federal courthouse 
facilities; and provide for the long-term protection of federal 
witnesses and their families.
    Additionally, the USMS has primary jurisdiction to conduct and 
investigate fugitive matters involving escaped federal prisoners; 
probation, parole and bond default violators; warrants generated by DEA 
investigations; and certain other related felony cases. In fiscal year 
2004, the USMS apprehended 39,000 federal felons--more than all other 
law enforcement agencies combined. In addition, working with 
authorities at the federal, state, and local levels, USMS apprehended 
79,740 fugitives. This budget provides $790.2 for the USMS, which is 
$42.6 million and 114 positions over the 2005 enacted level.
     For the Bureau of Prisons (BOP), our fiscal year 2006 budget seeks 
an increase of $148 million and 1,007 positions, which includes $37.2 
million for the subsistence cost of the increasing inmate population. 
The BOP projects that it will receive 4,269 additional inmates between 
fiscal year 2005 and fiscal year 2006. These resources will enable the 
BOP to meet the marginal costs, $8,712 per inmate, of providing 
security, food, medical care, clothing, education, and other costs 
associated with the population increase. An increase of $85.0 million 
and 1,002 positions is also included to begin the activation process 
for 3 newly constructed facilities, activate a 50 cell expansion to the 
existing Special Housing Unit at United States Penitentiary Florence, 
Colorado and to begin the activation process for a 362 bed low security 
housing unit at Federal Correctional Institution (FCI) Sandstone, 
Minnesota. In addition, $19.8 million and 5 positions are requested to 
begin the process to obtain 1,600 additional beds in contract 
facilities to house low security and female inmates for 6 months in 
fiscal year 2006. In addition, the budget requests the rescission of 
$314 million in unobligated prison construction balances. The funds are 
associated with prisons not scheduled to activate until 2009 or beyond. 
During 2006, the Bureau of Prisons will undertake a thorough review of 
all of its existing minimum and low security facilities to evaluate the 
potential of upgrading or modifying these prisons to house higher 
security inmates, where the inmate crowding level is the highest. BOP 
remains committed to contracting out for low and minimum security 
inmates which currently makes up 58 percent of the federal inmate 
population. Lastly, the BOP request seeks $6.0 million to establish a 
residential re-entry program at 6 institutions that will build 
partnerships with faith based and community organizations.
    For the Office of the Federal Detention Trustee, our request 
reflects an additional $347.4 million to house USMS detainees in state, 
local and private facilities. The number of federal prisoners detained 
is expected to increase 14.9 percent over fiscal year 2005, resulting 
in an average daily population of over 60,000 detainees compared to 
approximately 27,000 three years ago. This enhancement will ensure the 
availability of adequate, cost-effective detention capacity for the 
anticipated jail days that will be spent in state, local or private 
facilities.
    Lastly, with the recent violence perpetrated in courthouses in the 
southeast and midwest, I have directed that a review of judicial 
security measures be undertaken so the Department, as well as state and 
local law enforcement, can benefit from a compilation of best practices 
from across the nation.

                MANAGEMENT AND STEWARDSHIP IMPROVEMENTS

    In his February 2nd State of the Union Address, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 budget. The budget savings and reforms 
in the budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. The fiscal year 2006 budget includes 
more than 150 reductions, reforms, and terminations in non-defense 
discretionary programs, of which 1.88 billion affect DOJ programs. The 
Department wants to work with the Congress to achieve these savings
    As part of our efforts to improve management and stewardship, the 
Department continues to evaluate its programs and operations with the 
goals of achieving both component-specific and departmental economies 
of scale, increased efficiencies, and cost savings/offsets to permit us 
to fund initiatives that are of higher priority. The Department is 
engaged in a multi-year process to implement a wide range of management 
and information technology improvements that will result in substantial 
savings. The cost absorptions and crosscutting efficiencies identified 
in this budget impact virtually every component in the Department. 
Additional investments in management and information technology 
improvements, such as e-gov, e-training and e-travel initiatives, will 
ensure all DOJ components are able to function in an interoperable 
environment, particularly with respect to preventing terrorist attacks 
on the United States.
DOJ Financial Management
    The Department is committed to continuous improvement in financial 
management in order to maximize every dollar that is provided to us. 
The fiscal year 2006 budget requests $33.0 million and 6 positions to 
continue support for the Unified Financial Management System (UFMS), 
including hardware and software acquisition, integration and 
implementation, and project management activities. The annual financial 
audits of DOJ and its components have found fault with several of the 
seven core financial management systems in use at DOJ. Continuing the 
UFMS initiative will result in a significant improvement to the 
efficiency and integrity of our financial and accounting system.
DOJ Diversity
    The fiscal year 2006 request seeks $.8 million to enhance attorney 
recruitment and retention through an enhanced student loan repayment 
program and to implement an automated attorney hiring system. The 
Department is committed to casting the widest net to attract the most 
qualified and diverse applicants.

                               CONCLUSION

    In closing, I would like to thank the members of the subcommittee 
for your recent actions on the fiscal year 2005 Supplemental. The funds 
provided for the Department of Justice are critical to our efforts both 
domestic and abroad.
    Chairman Shelby, Senator Mikulski, Members of the Subcommittee, I 
have brought before you today the resources necessary to carryout the 
Department's priorities for fiscal year 2006. I am honored to testify 
before you and look forward to the days and months ahead working with 
you on this budget proposal and other issues.
    Thank you. I would be pleased to answer any questions you might 
have.
                                 ______

                                 
 Prepared Statement of Carl J. Truscott, Director, Bureau of Alcohol, 
        Tobacco, Firearms and Explosives, Department of Justice

    Mr. Chairman, Senator Mikulski, and distinguished members of the 
Subcommittee: thank you for this opportunity to submit a statement 
about the accomplishments of the men and women of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives (ATF) and discuss the 
President's fiscal year 2006 budget for the ATF. We are working 
together to protect America. Our agents, inspectors/investigators, 
administrative, professional, and technical personnel have earned 
renown and respect for their contributions to the Department of Justice 
and to law enforcement. I am honored to lead such capable and motivated 
colleagues, and to serve our great Nation as the Director of ATF.
    I appreciate very much the support the Subcommittee has given to 
ATF and the interest the Subcommittee has demonstrated in ATF's 
missions and programs. With your support during fiscal year 2005 
appropriations, ATF received funding and positions for the Safe 
Explosives Act (SEA) and explosives enforcement, Project Safe 
Neighborhoods (PSN) and anti-gang efforts, the National Tracing Center 
(NTC), and relocation of the Federal Licensing Center to West Virginia.
    The President's budget request for fiscal year 2006 builds on your 
fiscal year 2005 investment with $30.3 million to expand the number of 
Violent Crime Impact Teams (VCIT) targeting the most violent criminals 
in specific areas within selected cities and $6 million to develop the 
Terrorist Explosive Device Analysis Center (TEDAC) database which will 
record, inventory, and catalog improvised explosive devices being used 
in Iraq and Afghanistan. These investments are in direct support of 
ATF's core missions.
    As Director, I lead our efforts to reduce violent crime, prevent 
terrorism, and protect the public. Thanks to the leadership and support 
of this Committee, and through our dedicated work, the men and women of 
ATF are improving the lives of Americans. Your investment, and our 
efforts, produce real results: safer neighborhoods, where all of us, 
including children and senior citizens, can live without fear.
    Since being sworn in as Director of ATF last May, I have visited 
all 23 ATF field divisions. I have talked with special agents and 
inspectors/investigators who are: taking violent criminals, including 
gang members, off the streets; preventing the illegal diversion of 
firearms; ensuring the security and accountability of explosives and 
firearms commerce; investigating bombings and thefts of explosives; 
solving arsons, through investigation and research; investigating 
alcohol and tobacco diversion schemes; and sharing information and 
intelligence with our law enforcement partners.

                                FIREARMS

    ATF continues to fight violent crime on the streets of America. We 
enforce Federal firearms laws and provide extensive support to Federal, 
State, and local law enforcement officials in their fight against crime 
and violence.
    ATF agents investigate a broad range of firearms violations that 
can be generally divided into three categories: investigations of those 
persons who are prohibited by law from possessing firearms, such as 
felons, illegal aliens, and drug traffickers; investigations of 
firearms diversion; and investigations of persons possessing those 
firearms that are generally prohibited, such as machineguns and sawed-
off shotguns.
    From these types of investigations, ATF agents concentrate on 
illegal firearms traffickers and the diversion of firearms out of 
lawful commerce into the hands of criminals. Firearms trafficking 
investigations can be complex and time-consuming. They can involve 
illegal straw purchases of firearms for those unable to legally possess 
firearms (with or without the complicity of a Federal firearms 
licensee, or FFL), illegal dealing at gun shows or other locations, 
robberies of gun stores, and thefts from interstate shipments.
    ATF combines state-of-the-art technology and effective partnerships 
into an Integrated Violence Reduction Strategy, or IVRS. We are a major 
participant in the Administration's PSN initiative, which began in 
2001. This cooperative program builds upon the enforcement efforts of 
the past, and includes the use of advanced technology and effective 
sharing of intelligence and information. Law enforcement, prosecutors, 
and community leaders work together on deterrence and prevention. 
Agencies develop focused enforcement strategies to investigate, arrest, 
and prosecute violent offenders, prohibited possessors of firearms, 
domestic and international firearms traffickers, and others who 
illegally attempt to acquire firearms. ATF, local law enforcement, U.S. 
attorneys, and local prosecutors evaluate which set of laws and 
circumstances can best be employed against the violators and/or 
prohibited possessors and seek the most appropriate venue for firearms 
prosecution. Under PSN, the number of Federal firearms cases filed 
increased 76 percent between fiscal year 2000 and fiscal year 2004. In 
fiscal year 2004, ATF opened 29,440 firearms investigations, and during 
the same timeframe, there were over 7,000 convictions.
Violent Crime Impact Teams
    In June 2004, former Attorney General Ashcroft, Deputy Attorney 
General Comey, and I announced the VCIT initiative, a new program to 
reduce violent crime in 15 targeted communities. Through VCIT, ATF-led 
teams work with local law enforcement to identify and arrest the most 
violent offenders in each area. The selected communities are: 
Albuquerque, New Mexico; Baltimore, Maryland; Chattanooga, Tennessee; 
Tampa, Florida; Miami, Florida; Richmond, Virginia; Greensboro, North 
Carolina; Tulsa, Oklahoma; Pittsburgh, Pennsylvania; Las Vegas, Nevada; 
Columbus, Ohio; Philadelphia, Pennsylvania; Los Angeles, California; 
Tucson, Arizona; and the Washington, DC/Northern Virginia area.
    ATF-led VCIT teams in these cities bring the targeted area's 
Federal, State, and local law enforcement officials together. Each team 
creates an individualized strategy, then works together to remove those 
responsible for violent crime. I can tell you that VCIT is working: in 
our first 8 months of operation, 3,100 State and Federal arrests were 
made, and 3,700 firearms were recovered. Civic leaders and law 
enforcement officials have praised VCIT's positive impact on their 
communities. News reports credit VCITs with contributing to a decrease 
in homicides, as has occurred in Greensboro, Tulsa, and Columbus, among 
others. For example, a November report by the Albuquerque Journal 
stated that the VCIT contributed to a 23 percent decrease in the 
homicide rate in Albuquerque alone, compared with the same period last 
year.

Anti-Gang Efforts
    We have developed expertise in working against criminal groups, 
particularly gangs, and this is recognized by the Department of Justice 
(DOJ). ATF played a prominent role in the development of the 
Department's Gang Strategy Report for the House Appropriations 
Committee. This reflects our years of experience in working against 
violent gangs, including outlaw motorcycle organizations active in 
firearms and narcotics trafficking. In fact, ATF oversees a 
comprehensive gang strategy, combining education, prevention, training, 
and a variety of criminal enforcement tactics to take violent gang 
members and their organizations off the streets. ATF shares 
investigative information on gangs nationally through its case 
management system. This system allows every agent and task force member 
the ability to access information about other cases in order to 
coordinate efforts. ATF recommended more than 5,000 gang members and 
their associates for prosecution during the past 5 years (2,000 of them 
during fiscal year 2004 alone) for charges including firearms 
violations, continuing criminal enterprise violations, Racketeer 
Influenced Corrupt Organization Act violations, and arson and 
explosives violations. In the past 2 years, we also traced more than 
11,000 firearms linked to gang activity, and initiated more than 1,500 
cases involving gang members participating in firearms trafficking.
    We are fighting gangs with proactive efforts as well as enforcement 
actions: the Gang Resistance Education And Training (G.R.E.A.T.) 
Program has been presented to more than 3.8 million middle school 
students since its inception in 1992. And thanks to a new agreement 
with Boys and Girls Clubs of America, ATF's G.R.E.A.T. program is being 
used to help young people make positive decisions and resist negative 
influences. In this way we are not just working to deter crime--we are 
working to prevent it.

National Tracing Center
    ATF's National Tracing Center (NTC) is the largest operation of its 
kind in the world. This facility conducts traces of firearms recovered 
at crime scenes for any Federal, State, local, or international law 
enforcement agency. In fiscal year 2004, the NTC traced over 250,000 
firearms. The NTC stores information concerning multiple sales of 
firearms, suspect guns, and firearms with obliterated serial numbers, 
and is also the only repository for all records of FFLs that have gone 
out of business. The NTC provides ATF personnel and other law 
enforcement agencies with crime gun data specific to their geographic 
areas, and helps them identify emerging trends and patterns in 
firearms-related criminal activity.
    The NTC has established and provides support to four Regional Crime 
Gun Centers. These centers are located in Washington, DC; Chicago; New 
York; and Los Angeles. Each provides focused analysis of crime gun 
trace information in these major metropolitan areas for ATF and local 
partners from other Federal, State, and local law enforcement agencies 
to reduce firearms-related violent crime within their regions. The 
information gathered and analyzed through these centers and the Crime 
Gun Analysis Branch (CGAB) provides law enforcement with specific leads 
through the use of firearms tracing and geographic information to 
discern indicators of trafficking activity within a city that has a 
high violent crime rate involving gangs and illegal use and possession 
of firearms. This allows law enforcement to efficiently apply resources 
to combat violent firearms activities.
    Another NTC program is called Access 2000. This initiative benefits 
both ATF and our industry partners. Servers supplied by ATF have been 
installed at 36 manufacturers and major wholesale distributors, all of 
them FFLs, who have partnered with ATF in this effort. FFLs enter 
firearms information into the servers; the NTC connects to these 
servers remotely and can obtain information on a firearm's disposition 
in the course of a crime gun trace. This program substantially reduces 
administrative costs to the FFL and the time it takes ATF to trace a 
firearm.
    In order to reduce violent crime, ATF will continue to develop and 
employ technology that will help law enforcement at all levels. Through 
the National Integrated Ballistic Information Network (NIBIN) Program, 
ATF has installed automated ballistic comparison equipment at 230 sites 
in participating forensic laboratories in the continental United States 
and its territories, giving these State and local law enforcement 
agencies the opportunity to identify ballistic links between crimes not 
otherwise known to be connected.

                               EXPLOSIVES

    In addition to our investigative efforts against firearms 
trafficking and violent firearms crime, ATF agents investigate 
bombings, unlawful distribution of explosives, thefts of explosives, 
and other violations of explosives laws. ATF inspectors/investigators 
ensure that the manufacture, importation, and commerce in firearms and 
explosives are conducted lawfully. Other programs combine advanced 
technology with ATF's years of expertise, providing critical 
intelligence for Federal, State, and local law enforcement to use in 
investigating fire and explosion incidents in their areas.
    As part of the Department of Justice's efforts to ensure the 
coordination of explosives investigations, explosives information 
sharing, and other related explosives matters amongst its law 
enforcement components, the Department of Justice reviewed the 
explosive programs of ATF, FBI, and others and on August 11th, issued a 
policy memo outlining roles and responsibilities as they relate to 
explosives issues. Former Attorney General Ashcroft's policy memorandum 
regarding coordination of explosives investigation and related matters 
helped to clarify the responsibilities of ATF.
  --The Attorney General mandated that ATF would control the 
        investigation of all explosives incidents except those related 
        to terrorism. I am honored by the confidence that the Attorney 
        General placed in ATF when he made this decision, and I note 
        that approximately 98 percent of the bombings in America are 
        unrelated to terrorism. In instances of terrorism, ATF stands 
        ready to assist with Department-wide efforts.
  --The Attorney General also tasked ATF to maintain all DOJ arson and 
        explosives databases currently maintained by other DOJ 
        components. Our state-of-the-art system for documenting arson 
        and explosives incidents, known as the Bomb Arson Tracking 
        System or BATS, has become the DOJ standard.
  --Further, his decision mandated the consolidation within ATF of all 
        budget, curriculum, teaching, and scheduling functions related 
        to post-blast explosives training for Federal, State, local, 
        and international entities.
    Mr. Chairman, I believe that this decision will be responsible for 
significant financial efficiencies.
    ATF special agents work with State and local law enforcement 
throughout all aspects of bombing and explosion incidents, from the 
post-blast recovery of evidence through the subsequent investigation. 
ATF has explosives and arson groups nationwide, each consisting of 
special agents, including certified fire investigators (CFIs) and 
certified explosives specialists (CESs), as well as State and local 
police or fire personnel. These ATF special agents are dedicated full-
time to investigating explosives and arson incidents and violations. In 
fiscal year 2005, the Congressional appropriation directed ATF to form 
four specialized explosives groups. These groups are enhancing our 
ability to prevent criminal acts involving explosives, respond to 
criminal acts, plan for special events, and assist first responders by 
adding special agents trained in rendering improvised explosive devices 
(IEDs) safe.
    Some ATF special agents receive even more intense explosives 
training than the substantial amount received in Special Agent Basic 
Training. Special agent CESs are among the most experienced, best-
trained explosives experts in the Federal Government. They provide 
explosives crime scene examinations, lend expertise in support of 
security measures implemented at special events, and assist ATF's law 
enforcement counterparts at the Federal, State, local, and 
international levels in their efforts to investigate explosives-related 
incidents. The CESs are highly trained in all aspects of explosives 
handling, instruction, identification, demonstration, and destruction. 
Because of their proficiency in explosives investigation, CESs are used 
regularly as instructors for explosives-related training at the 
International Law Enforcement Academies in Budapest, Hungary; Bangkok, 
Thailand; and Gaborone, Botswana. They have also instructed post-blast 
investigation techniques for foreign law enforcement officers in South 
American, Central American, and Eastern European countries, and are 
currently providing this instruction in supporting coalition forces in 
Iraq.
    ATF investigates each and every report of theft or loss of 
explosives in the United States in order to ensure that these 
explosives do not fall into the hands of terrorists or criminals. When 
explosives are used for criminal purposes, ATF brings the full weight 
of its explosives programs and investigative assets to the task of 
identifying and bringing the perpetrator to justice. On July 6, 2004, a 
theft of explosives occurred from a San Mateo County, CA, explosives 
storage facility used by law enforcement. ATF immediately responded to 
the crime scene and began an investigation. Working with the California 
Highway Patrol, the Alameda County Sheriff's Office, the Hayward Police 
Department, the Union City Police Department, the Oakland Police 
Department, and others, the stolen explosives were recovered and ATF 
arrested four individuals on charges relating to the theft, possession, 
and distribution of explosives.
    ATF has other experts in the field of explosives. ATF's explosives 
enforcement officers (EEOs) provide technical assistance and support in 
explosives matters. These bomb technicians have between 12 and 35 years 
of experience in explosives and bomb disposal. EEOs render explosive 
devices safe, disassemble explosive and incendiary devices, prepare 
destructive device determinations, and render expert testimony in 
support of such determinations in State and Federal criminal court 
proceedings. EEOs also provide expert analysis and onsite investigative 
technical assistance at bombing and arson scenes and scenes where 
explosions of an undetermined nature have occurred. They provide 
assistance and training in all aspects of explosives handling, usage, 
and destruction; threat vulnerability assessments; and all other 
explosives-related matters for ATF and State and local law enforcement 
agencies. EEOs use a full range of bomb disposal equipment, such as 
explosives-actuated disrupters; radiographic (x-ray) equipment; 
personal protective equipment (bomb suits); and robotic equipment, 
including the All-purpose Remote Transport System (ARTS), which is 
designed to remotely disrupt car and truck bombs that are too large to 
disarm by traditional methods. ATF is one of the few Federal agencies 
with ARTS capability.
    Maintained within ATF's Arson and Explosives National Repository 
(AENR) is this country's most comprehensive set of data describing 
fire/explosion incidents. The incidents are divided into specific 
categories such as targets, locations, motives, and victims. Trends, 
patterns, and criminal methodologies, as well as the identities of 
known previous offenders, can be derived from the data set. Most 
importantly, ATF agents or other law enforcement officials can contact 
the Repository to query the construction characteristics of an 
explosive device, and match the device to others with similar 
characteristics.
    ATF is now using the latest information management technology to 
make case information available to law enforcement nationwide through 
BATS. This program facilitates and promotes the collection and 
dissemination of fire, arson, and explosives incidents and information 
among participating agencies. Law enforcement agencies and members with 
established National Crime Information Center access can access BATS 
via personal computer in a secure Internet environment. End users are 
able to enter their case information and query information entered by 
others, both locally and across agencies. BATS benefits its users by 
providing real-time incident-based information, records management 
functions, and advanced features, such as spatial representation of 
incidents via an integrated Geographical Information System--all within 
a secure law enforcement environment. Eventually, the wealth of case 
information available through the Repository will also be accessible 
through BATS.
    ATF is sharing its expertise by training Federal, State, local, 
military, and international bomb technicians and investigators in 
explosives disposal and investigation techniques at the National Center 
for Explosives Training and Research (NCETR) at Fort A.P. Hill, 
Virginia. This course was developed in response to data showing that 
more bomb technicians were injured or killed during explosives disposal 
operations than when performing render safe procedures on explosive 
devices. ATF offers numerous advanced courses related to explosives 
disposal and post-blast investigation techniques at the NCETR, which 
was authorized in the Homeland Security Act of 2002. Since ATF began 
holding training classes at Fort A.P. Hill in 2000, we have provided 
training to over 4,000 Federal, State, local, and international bomb 
technicians and investigators. In cooperation with the U.S. Army, we 
are currently training Army explosives units prior to their deployment 
to Iraq. In addition, ATF provides post-blast training to members of 
the Department of State, the Naval Criminal Investigative Service, and 
the Air Force Office of Special Investigations. This facility will 
include a permanent classroom facility and an advanced explosives 
research and training range for the study of various explosive devices. 
This dedicated facility will advance our expertise in the investigation 
of bombings and explosives-related crimes. The NCETR is ideally located 
close to the Washington, DC, area, but remote enough to offer unlimited 
opportunities for expansion and enhancement as the needs of the 
Department require it.
    ATF has found a unique niche with its delivery and cosponsorship of 
an underwater explosives recovery course for State and local bomb 
technicians and divers. ATF worked with the Edmond, Oklahoma, Police 
Department to develop the course, which was established in response to 
the growing number of investigations in which evidence either directly 
or indirectly ended up in a body of water. The TWA Flight 800 
investigation in July 1996 further justified the need to train law 
enforcement/bomb squad personnel to recover fire- and explosives-
related evidence.

                                 ARSON

    One recent example of ATF's investigative work is the arson 
committed in December 2004 in a neighborhood in Charles County, 
Maryland. Our field agents investigated this crime scene, where 26 
homes were damaged, ten of which were destroyed entirely. I visited 
this enormous and complex crime scene, and I was stunned by the 
devastation. ATF's state-of-the-art Fire Research Laboratory is 
analyzing the evidence gathered. By investigating and solving these 
crimes, we are also helping to prevent future arsons.
    ATF's arson enforcement efforts are an integral part of ATF's 
overall violent crime reduction strategy, and are directed toward 
preventing the crime of arson, providing effective post-incident 
response, and reducing the community impact of crimes involving fire. 
The long-term, strategic goal of the arson program is to provide 
effective investigative and technical expertise, rapid response, 
assistance, and state-of-the-art training to reduce the impact of 
violent crimes that involve fire. ATF investigative efforts are 
generally focused on arsons of Federal interest, including those at 
houses of worship, commercial buildings, and reproductive health 
clinics. In fiscal year 2004, ATF opened approximately 2,000 arson 
investigations. I would like to address some of ATF's arson program 
areas and assets, including the CFI program, the ATF Church Arson Task 
Force, ATF's response to animal-rights extremists and environmental-
rights extremist fires, the ATF Fire Research Laboratory, and others.
    After fire departments extinguish the flames, the work begins for 
cause and origin investigators who must determine whether the fire was 
intentionally set and whether a crime was committed. The agents 
participating in ATF's CFI program are at the forefront of fire 
investigation. The special agents who participate in this program are 
the only federally trained and federally certified cause and origin 
investigators in the Federal Government. These CFIs are able to qualify 
as expert witnesses, that is, opinion witnesses, in fire cause and 
origin determinations. Each CFI has participated in hundreds of 
investigations and has undergone hundreds of hours of training to 
qualify in giving expert testimony. The CFI program is the only one of 
its type in Federal law enforcement and has received national and 
international acclaim. ATF's 107 CFIs are based in 36 States and 
provide support to the entire United States and its territories. ATF 
CFIs responded to over 1,200 fires in fiscal year 2004.
    ATF also investigates bombings and crimes of arson by environmental 
and animal rights extremists using explosives and fire as their 
weapons, such as the Animal Liberation Front (ALF) and the Earth 
Liberation Front (ELF). ATF estimates that property damage committed by 
those groups in the past several years exceed $65 million. Because of 
ATF's expertise in these areas, we have made these investigations a 
priority and will continue to do so. In the last several years, we have 
initiated about 100 explosives and arson investigations believed to be 
linked to ALF and ELF. In the past, many of the fires set by these 
extremists have been set utilizing a particular methodology, and the 
Arson and Explosives National Repository (AENR)--which has kept records 
and intelligence on these acts for decades--stands ready to assist fire 
investigators in determining the methodology used in future incidents, 
linking events, and identifying suspects.
    One of the most painful and destructive crimes that ATF 
investigates is arson directed at houses of worship. In fiscal year 
2004, ATF responded to approximately 210 such fires and explosives 
incidents. Out of that number, 88 of the fires were determined to be 
incendiary: that is, set by human hands. Of the 210 fires, ATF 
conducted the origin and cause investigation at 61 predominantly 
African-American churches, six Hispanic churches, six temples, and six 
mosques.
    ATF works to prevent future incidents by documenting information 
such as why an incident happened and what human factors were involved. 
Lending additional credence to ATF's scene capabilities is the 
expertise afforded by its fire protection engineers (FPEs), who are 
ATF's experts in fire reconstruction and engineering analysis. Through 
their contributions, lessons can be learned and safeguards can be 
implemented if fire spread and fire progression are analyzed and 
documented properly (e.g., fatalities that are due to smoke and heat). 
These FPEs also provide technical advice and support to U.S. Attorneys 
and testify as expert witnesses in the prosecution of criminal cases.
    One of ATF's newer fire investigation resources is the Fire 
Research Laboratory (FRL), a one-of-a-kind fire test center with the 
capability of replicating initial fire scenarios approaching a quarter 
acre in size, to scale, and under controlled conditions allowing for 
detailed analysis. This facility is the only such facility in the 
United States that is dedicated to providing case support in fire 
investigations using forensic fire science, and the facility will 
support ATF's investigative requirements well into the future.
    ATF has profilers assigned to the National Center for the Analysis 
of Violent Crime at the FBI Academy in Quantico, Virginia. The ATF 
profilers analyze behavior characteristics of serial arsonists and 
bombers and provide investigative suggestions to case investigators. 
Although specializing in bombings and arsons, ATF profilers work on 
other violent crimes such as murders. ATF recently added a position of 
geographic profiler to its resources. This position is the first of its 
kind in the United States. Geographic profiling is a relatively new 
investigative tool being applied in serial crime investigations.

               CRIMINAL DIVERSION OF ALCOHOL AND TOBACCO

    ATF's goal as it relates to alcohol and tobacco diversion is to 
reduce violent crime and prevent terrorism by preventing the illegal 
domestic and international trafficking of alcohol and tobacco products. 
To accomplish this goal, ATF is enforcing laws that prohibit the 
diversion of alcohol and tobacco products, and providing Federal, 
State, and local agencies with the tools needed to identify trafficking 
schemes. From the hijacking of tractor trailer loads and cargo 
containers of cigarettes, to the armed robbery of tobacco wholesalers 
and distributors, to the smash and grab techniques at the retail level, 
ATF has successfully investigated and prosecuted the criminals 
involved.
    ATF is engaged in ongoing efforts to reduce the rising trend of the 
illegal diversion of alcohol and tobacco products by criminal gangs, 
organized crime, and terrorist groups. Current investigations have 
identified several instances of terrorist groups forming alliances with 
tobacco traffickers to generate funding to support their organizations 
and activities. We have built complex cases against individuals and 
organizations that have used proceeds from the illegal sales of 
cigarettes to fund organized crime and terrorism, including those 
involving the channeling of funds to Hezbollah, and these cases have 
been successfully prosecuted. ATF also works in partnership with other 
Federal, State, and local agencies to enforce the laws under their 
jurisdiction. The investigation of alcohol and tobacco crimes is unique 
in that the penalties are not commensurate with the profits that can be 
made.

                  INDUSTRY OPERATIONS: ATF'S DUAL ROLE

    ATF's role in Federal firearms and explosives laws, with both 
regulatory and enforcement responsibilities, is unique. In addition to 
our investigative efforts against firearms trafficking and violent 
firearms crime, ATF agents investigate bombings, unlawful distribution 
of explosives, thefts of explosives, and other violations of explosives 
laws. ATF inspectors/investigators ensure that the manufacture, import, 
and sale of firearms and explosives are conducted lawfully. Through 
education and industry partnerships, we work to keep firearms and 
explosives out of the wrong hands.
    According to the Institute of Makers of Explosives, over 5.5 
billion pounds of commercial explosives are used every year in the 
United States in mining and other applications. ATF ensures compliance 
with explosives laws and regulations through its explosives regulatory 
program. The purpose of this program is to protect interstate and 
international commerce against interference and interruption by 
reducing hazards to persons and property arising from the misuse and 
unsafe or insecure storage of explosive materials.
    This is accomplished through the explosives field inspection 
effort; through the development, implementation, and evaluation of 
regulatory enforcement procedures and policy; through the screening of 
prospective and current explosive licensees/permittees and their 
employees; and through regular and open communication with the 
explosives industry and its representatives. ATF's field inspection 
program includes the thorough review of records and inventory to ensure 
product accountability, as well as the visual inspection of explosives 
storage facilities to ensure safe and secure product storage to prevent 
theft and misuse of explosives. Inspectors/investigators verify that 
explosives storage magazines meet Federal construction and location 
requirements, including the required distance from explosives storage 
areas to roads or residential areas.
    Approximately 580 of ATF's inspectors/investigators are assigned to 
the field, and are responsible for inspections of FFLs and Federal 
explosive licensees (FEL). They are responsible for working with the 
population of 106,000 FFLs and over 12,000 FELs.
    The Safe Explosives Act (SEA) enhanced ATF's unique statutory 
mission of regulating the explosives industry. With the passage of this 
Act in 2002, ATF assumed a significant additional workload such as 
continued issuance of renewal licenses/permits for 12,000 explosives-
related businesses; increased inspection efforts and more thorough 
license application processing, including background checks for all 
employees who possess explosives. Further, the SEA decreed that ATF 
physically inspect every new explosives licensee applicant to ensure 
public safety.
    ATF's field inspectors/investigators are also responsible for 
firearms licensee inspections. Day in and day out, these inspectors/
investigators ensure that FFLs follow appropriate guidelines and 
procedures. Their work truly makes America safer by helping to prevent 
the acquisition of firearms by prohibited persons. Further, by 
promoting proper recordkeeping and business practices, they help ensure 
effective firearms tracing in critical investigations by all of the 
Nation's law enforcement community. Cooperative programs such as 
``Don't Lie for the Other Guy,'' a joint venture between ATF and the 
National Shooting Sports Foundation, provide essential education for 
FFLs. In addition, our Federal Firearms Licensing Center in Atlanta 
screens all FFL applicants by coordinating background checks on persons 
responsible for firearms operations.
    ATF formulated its Explosives Threat Assessment and Prevention 
Strategy, or ETAPS, in the spring of 2004. This strategy gives us the 
opportunity to respond to changes in the explosives industry and the 
society in which it operates. It is a dynamic process--we gather 
information, evaluate it, plan programs in response to it, and evaluate 
the results. By combining ATF's assets involving technical explosives 
expertise, criminal and regulatory enforcement experience, and 
partnership with industry and law enforcement, we are able to 
continually assess risks and focus resources appropriately. It is 
through this dynamic process that ATF is best prepared to accomplish 
our vision of ``Working for a Safer and More Secure America Through 
Innovation and Partnership.''

                        INTELLIGENCE/TECHNOLOGY

    ATF recognized the opportunity to perfect intelligence support 
internally and externally, and created an Office of Strategic 
Intelligence and Information (OSII) last year. The new directorate, 
headed by a new assistant director, ensures that ATF accomplishes its 
missions and that our special agents and inspectors/investigators 
receive the necessary information to disrupt criminal organizations and 
individuals that threaten public safety. This arrangement aligns with 
the E-Government aspect of the President's Management Agenda, the DOJ's 
strategic goals relating to the enforcement of Federal laws and 
protection of America against terrorism and violent crime, and the 
Attorney General's priorities, including the Law Enforcement 
Information Sharing Program and VCIT.
    OSII's mission is to provide timely, accurate, and focused 
intelligence through the collection and analysis of information, to 
enhance decision-making for all Bureau customers. The creation of OSII 
was a big step toward enabling ATF to put its information to the best 
possible use. The intelligence process is a continuous loop in which 
data are gathered, evaluated, and analyzed. Analytical reports are then 
distributed to end users, including the source of the original 
information. The dynamic exchange of intelligence information between 
Headquarters and field offices allows ATF to leverage data collection 
and analytical expertise to aid in providing accurate and timely 
intelligence support. The ultimate outcome of these efforts will be 
better information to investigators, which could help prevent future 
incidents.
    ATF's laboratories are an invaluable resource in perfecting ATF 
cases and in serving as a resource for State and local law enforcement. 
ATF's laboratory system is composed of the National Laboratory Center 
(NLC) in Ammendale, Maryland, and the regional laboratories in Atlanta, 
Georgia, and San Francisco, California. The laboratories are equipped 
with state of the art forensic and scientific technologies. Whether 
performing fire debris analysis, tool mark comparisons, explosives 
scene evidence examinations, searching for the presence and comparing 
identifiable latent fingerprints, or examining trace evidence from 
crime scenes such as hair, paint, or fibers, the ATF's laboratory 
personnel provide the finest laboratory service in the Federal 
Government.
    The NLC is also the home of the ATF National Firearms Examiners 
Academy. Attendees from State and local law enforcement agencies attend 
this rigorous 1-year program to become firearms and toolmark examiners, 
qualified to confirm a ballistic link between two crimes and to analyze 
firearms evidence. This program has become the benchmark for training 
in this field. The NLC also houses the Fire Research Laboratory.
    ATF is a valued participant in the Terrorist Explosive Device 
Analytical Center, or TEDAC, operated at the FBI laboratory in 
Quantico, Virginia. At this center, ATF and other partners analyze 
explosive devices from Iraq and Afghanistan, in an effort to identify 
bombers and to prevent further attacks. Experts work to technically 
evaluate IED components to identify similarities and potential bomb 
makers, provide timely intelligence to military and law enforcement, 
and collect latent prints and DNA from terrorist IEDs to link the same 
person to similar devices. Four ATF employees work full-time at the 
center, providing their technical expertise in identifying components 
of IEDs. TEDAC has provided invaluable assistance to U.S. military and 
intelligence personnel in preventing fatal detonations of IEDs and in 
tracking down bombing suspects. This is a great example of how we are 
working within DOJ to prevent terrorism, and contributing our knowledge 
to a common goal.

                            SPECIAL PROGRAMS

    Several of ATF's programs, such as the National Response Team 
(NRT), Special Response Team (SRT), and the canine program, strengthen 
our efforts in firearms, explosives and arson, and alcohol and tobacco 
diversion. They contribute to our missions of preventing terrorism, 
reducing violent crime, and protecting the public.
    In the wake of a major fire or explosives incident, law enforcement 
investigators can rely on the expertise and advanced technology of 
ATF's NRT. Capable of responding within 24 hours to major explosives or 
fire incidents, NRT members work alongside State and local officers in 
reconstructing the scene, identifying the seat of the blast or origin 
of the fire, conducting interviews, sifting through debris to obtain 
evidence related to the explosion and/or fire, assisting with the 
ensuing investigation, and providing expert court testimony.
    Deployed teams include highly trained special agent CFIs, CESs, 
FPEs, forensic mappers, EEOs, and chemists. Intelligence and audit 
support, and technical and legal advisors further complement the team. 
The teams use state-of-the-art tools, including specialized response 
vehicles, each equipped with forensic, computer, and crime scene 
mapping equipment.
    In its 25 years, the NRT has responded to nearly 600 fires and 
explosive incidents, with 32 NRT callouts in fiscal year 2004 alone. 
The effectiveness of this response capability and the expertise of the 
team members were evident in the NRT's responses to incidents, such as 
the 1993 World Trade Center and 1995 Oklahoma City Federal Building 
bombings and the 2001 attack on the Pentagon. NRTs have investigated a 
wide range of events, including the deadly fire at the Dupont Plaza 
Hotel in Puerto Rico in 1986, in which 97 people were killed in less 
than 12 minutes. Analysis of the quick and deadly spread of this fire 
gave valuable information about fire protection measures that could 
prevent such extensive loss of life in future buildings.
    One of ATF's major assets in the fight against violent criminals is 
our SRTs consisting of some of the bravest, most dedicated, and most 
professional special agents in Federal law enforcement. The special 
agents on these teams conduct high-risk tactical operations such as 
arrest warrants, search warrants, and buy/bust operations. These are 
ATF's ``best of the best'' when it comes to tactical experts. The SRT 
was called out 108 times in fiscal year 2004, and its expertise is 
critical to our success in confronting crisis incidents.
    ATF's explosives and accelerant detection canine program also plays 
a critical role in ensuring public safety. ATF's unique training 
methodology enables its 35 explosives detection canines to find 
explosives and gunpowder residue, IEDs, post-blast debris, firearms, 
ammunition, bulk explosives, and spent shell casings. The canines can 
detect explosives used in up to 19,000 known explosives compounds. Our 
60-accelerant detection canines help to identify potential points of 
origin at a fire scene. In addition to supporting local authorities, 
the canines respond with the NRT and are used by ATF field offices on a 
case-by-case basis. ATF-trained canines are also deployed to other 
Federal, State, and local law enforcement agencies.
    Although the original goal of the explosives detection canine 
program was to locate explosive devices, these canines have also proven 
themselves to be a valuable asset in firearms investigations through 
their ability to locate hidden firearms and ammunition. Using this 
existing asset in a new way has been invaluable during search warrants 
and following shootings when other means of locating firearms, 
ammunition, and spent shell casings have failed.

                             INTERNATIONAL

    ATF's expertise and efforts benefit not only Americans, but law-
abiding citizens worldwide. Through our international activities, ATF 
employees are working to support American interests. As discussed 
earlier, ATF provides post-blast and render safe training for U.S. and 
coalition forces in Iraq and for the Iraqi National Police. ATF also 
has special agents assigned to the Regime Crimes Liaison Office in Iraq 
to assist in the investigation and prosecution of war crimes. Law 
enforcement agencies worldwide use our firearms tracing capabilities to 
gain additional information about crime guns. In fiscal year 2004, ATF 
traced over 27,000 firearms for foreign law enforcement representing 50 
foreign countries. Our international activities enhance public safety 
in many countries worldwide, and in so doing, they protect American 
interests.
    ATF provides extensive support to America's diplomatic activities. 
Regional Security Officers from the Department of State's Diplomatic 
Security Service (DSS) participate in post-blast training led by ATF. 
The training focuses on explosives crime scene processing, management 
and preservation, and includes explosives identification and effects. 
Other countries have benefited from ATF's expertise in training 
explosives detection canines: through a partnership with the Department 
of State, ATF has trained approximately 450 canines for international 
law enforcement agencies since the program's inception in 1990. Also, 
our International Response Team (IRT) deploys in support of DSS 
investigative responsibilities and foreign government requests. The IRT 
has been deployed 24 times in response to fire and explosives incidents 
since its inception in 1991, most recently to investigate a deadly fire 
in Paraguay. ATF investigators quickly determined the cause and origin 
of this fire, which claimed 456 lives.
    Attache offices in Canada, Mexico, France, and Colombia support law 
enforcement within those countries and help ATF achieve our firearms 
and explosives missions. Our international work with IEDs provides 
insight into the tools used by international terrorists, and this 
information is critical to the protection of our homeland. With the 
Department's support, I am examining ATF's international presence to 
identify instances where a stronger international presence would help 
reduce violent crime and reduce our Nation's vulnerability to 
terrorism.
    ATF works with agencies worldwide to prevent firearms from reaching 
the hands of organized criminal gangs, drug traffickers, terrorist 
organizations, and other criminals. ATF enforces provisions of the Arms 
Export Control Act (AECA), and has primary jurisdiction over permanent 
firearms and ammunition imports. The Department of State administers 
the temporary import and export provisions of the AECA, and the 
Department of Homeland Security enforces all AECA provisions at U.S. 
ports and borders.
    ATF personnel are also included on U.S. delegations to the United 
Nations, the Organization of American States, and the Group of Eight 
when these bodies are negotiating instruments relating to firearms, 
ammunition, and explosives. The Department of State values the 
expertise ATF personnel bring to the delegations, which is crucial in 
ensuring that treaties resulting from such negotiations include 
effective measures to combat international trafficking and terrorist 
access to these dangerous commodities. ATF participation is also 
essential to ensure that binding international agreements do not 
obligate the United States to implement policies that impose undue 
burdens on sportsmen, firearms enthusiasts, and the firearms industry.

                              PARTNERSHIPS

    At ATF, we believe that working together is not just a good idea--
it is a matter of national security. Our agency has a long history of 
collaborating effectively with other Federal, State, and local law 
enforcement agencies; in fact, other Federal, State, and local agencies 
consistently turn to ATF because of our expertise and our commitment to 
partnerships.
    We are proud to be part of the Department of Justice, and to 
contribute our efforts toward reaching the Department's strategic 
goals. We are participating in Joint Terrorism Task Force (JTTF) 
operations, and working to improve information sharing between 
agencies. We share our expertise in firearms, explosives, and alcohol 
and tobacco diversion, as part of our robust support for joint efforts 
to counter the grave threat of terrorism. We make significant 
contributions to the law enforcement community, and our presence within 
the Department helps use the benefits we provide more effectively. This 
transition has provided both financial and operational efficiencies, 
which have improved effectiveness. Former Attorney General Ashcroft and 
Deputy Attorney General Comey have provided invaluable support to ATF, 
and this productive and supportive relationship is continuing with 
Attorney General Gonzales.
    As I mentioned, ATF contributes to the Department of Justice's 
fight against terrorism through the JTTF program. Sixty-four ATF 
personnel are assigned to JTTFs across the Nation, and others support 
the remaining JTTFs as needed. ATF personnel assigned to JTTFs perform 
multiple roles: they function as in-house experts on firearms and 
explosives violations and on tobacco diversion; they act as liaisons 
between the FBI and ATF at the local level on intelligence matters; and 
they are a vital part of the joint investigative team that is truly the 
backbone of the JTTF mission.
    ATF fosters innovation and cooperation in the explosives 
investigation community through its partnerships with other agencies, 
through liaison efforts with the legal explosives industry, and through 
research and development efforts. ATF works closely with other Federal 
agencies and with the academic and scientific communities, to conduct 
research and monitor developments in explosives research, blast 
mitigation, and explosives detection. Such agencies include the 
Department of State, the Department of Defense, the Transportation 
Security Administration, and others. ATF representatives also serve as 
co-chairs and task managers on several research efforts funded through 
the Technical Support Working Group (TSWG). The TSWG is administered by 
the Department of Defense under the auspices of the National Security 
Council. The principal mission of the TSWG is to conduct rapid 
research, development, and prototyping of multiple use technologies for 
law enforcement and military purposes. ATF also has collaborative 
research partnerships with Oak Ridge National Laboratory; Lawrence 
Livermore National Laboratory; University of Missouri, Rolla; and 
University of Massachusetts, Lowell. Also, ATF closely and regularly 
collaborates with representatives of foreign governments, including the 
United Kingdom, Israel, and Canada.
    ATF employees hold key positions in many prestigious professional 
organizations. Since 1990, an ATF agent has chaired the Arson and 
Explosives Committee of the International Association of Chiefs of 
Police. Similarly, ATF has maintained outstanding relationships with 
the International Association of Bomb Technicians and Investigators, 
the International Association of Arson Investigators, and the National 
Bomb Squad Commanders. Also, as stated previously, ATF has a 
partnership with the National Shooting Sports Foundation in conducting 
the ``Don't Lie for the Other Guy'' program which provides essential 
education for FFLs.
    ATF leverages its resources to better inform, advise, and educate 
its stakeholders and customers. In partnership with The Fertilizer 
Institute, ATF's voluntary ``Be Aware for America'' campaign raises the 
awareness of industry, law enforcement, and the public of the need for 
vigilance in connection with the sale and security of ammonium nitrate. 
This chemical mixed with fuel oil was used in the Oklahoma City 
bombing. ATF later launched, again in partnership with The Fertilizer 
Institute, the voluntary ``Be Secure for America'' campaign, which 
focuses on the safe storage and transportation of ammonium nitrate.

                  STRATEGIC PLAN/JURISDICTIONS/VISION

    ATF is striving every day to meet the strategic goals of the 
Attorney General and Department of Justice: preventing terrorism and 
promoting the Nation's security; enforcing Federal laws and 
representing the rights and interests of the American people; and 
assisting State, local, and tribal efforts to prevent or reduce crime 
and violence.
    With the Department's goals in mind, ATF created an internal set of 
strategic goals consisting of the following: Preventing violent crime 
and terrorist related crime involving firearms; providing effective 
arson and explosives investigative and technical expertise to protect 
the public from violent crime and terrorism; and preventing illegal 
domestic and international trafficking of alcohol and tobacco products.
    Firearms, explosives, and arson are the tools of terrorist groups 
and ATF's role in firearms and explosives enforcement is significant in 
the battle against terrorism. ATF, while working against violent 
firearms crime, is also helping to prevent terrorism by monitoring and 
investigating violations of the Federal firearms and explosives laws. 
ATF is preventing violent crime through its own enforcement efforts and 
its effective partnerships with other agencies.
    ATF prides itself on its assistance to State and local law 
enforcement agencies, supporting the third DOJ strategic goal to 
``assist State, local, and tribal efforts to prevent or reduce crime 
and violence.'' As discussed earlier, ATF makes a wealth of resources 
available to State and local law enforcement agencies, including expert 
investigators, ballistic comparison technology, and explosives incident 
information.
    ATF's jurisdictional responsibilities are directly related to 
efforts to combat violent crime on America's streets. ATF, as the lead 
Federal law enforcement agency fighting violent firearm crime, enforces 
the Gun Control Act of 1968 (GCA), the National Firearms Act, and other 
related statutes. In section 101 of the GCA, Congress declared that its 
primary purpose was to ``provide support to Federal, State, and local 
law enforcement officials in their fight against crime and violence.'' 
I would note that the GCA section goes on to state that it is not 
intended to ``place any undue or unnecessary Federal restrictions or 
burdens on law-abiding citizens with respect to the acquisition, 
possession, or use of firearms appropriate to the purpose of hunting, 
trapshooting, target shooting, personal protection, or any other lawful 
activity . . .'' I want to assure the committee that ATF is mindful of 
this provision while maintaining a vigorous enforcement of all Federal 
firearms laws.
    Mr. Chairman, ATF's dual role to enforce and administer Federal 
explosives laws is unique. While ATF agents investigate bombings, 
unlawful distributions of explosives, thefts of explosives, and other 
violations of the Federal explosives laws, ATF inspectors/investigators 
are carrying out the vital work of insuring the integrity of explosives 
as they move through commerce. While other agencies may have the 
resources to respond to and investigate explosives incidents, only ATF 
regulates the legal explosives industry, and only ATF is responsible 
for tracking and investigating explosives losses and thefts.
    The Anti-Arson Act of 1982 gave ATF broad-based jurisdiction in 
arson offenses. ATF's arson enforcement efforts are directed toward 
preventing the crime of arson, providing effective post-incident 
response, and reducing the community impact of crimes involving fire. 
ATF enforces Federal laws related to alcohol and tobacco diversion, and 
is applying its past experience in governing and regulating these 
products of commerce to investigating the violent crimes that often 
accompany diversion activity.
    Even as we work to solve the problems of the present, we have 
developed a strategic vision for the future. Pursuing this vision will 
help us to remain an effective and respected law enforcement 
organization while adapting to changing circumstances. We are working 
on using what we know to its maximum effectiveness--sharing 
intelligence information, ensuring that employees have the training and 
technology to accomplish their work effectively, and communicating with 
the public. We are focusing on working together--maintaining the 
partnerships that sustain us, and ensuring that administrative actions 
and personnel policies support ATF's fulfillment of its missions. And 
we are growing with purpose--seeking out opportunities to expand our 
contributions, focusing on prevention, and focusing our efforts 
internationally as well as here at home. Abiding by these principles 
will enable us to work most effectively and get the best results for 
the American people.

                               MANAGEMENT

    Mr. Chairman, ATF is a well-managed and effective organization, and 
external evaluations of our abilities confirm this. In the last 2 
years, the Office of Management and Budget has evaluated ATF's 
explosives and arson programs and our firearms programs. In each 
review, we received some of the highest scores achieved by Federal law 
enforcement programs. Also, as part of the President's Management 
Agenda, the Office of Personnel Management sponsored a survey of 115 
Federal subcabinet agencies. On this survey of employee satisfaction, I 
am proud to say that ATF ranked eighth, the highest of any law 
enforcement agency.
    With the continued support of the Department and this subcommittee, 
we will continue to provide innovative management and personnel 
projects such as the Pay Demonstration project. This program uses an 
alternative to the General Schedule pay scale so that pay is more 
directly based on performance. This program has allowed ATF to recruit 
and retain technically skilled employees, especially those with 
science-based skills and intelligence research capabilities.
    We are also implementing a Bureau-wide telework program. We 
recognize the many benefits of telework, including improved work 
operations, better customer service, improved employee morale, 
assistance with recruitment and retention efforts, and reduced traffic 
on area highways. After two successful telework pilot programs in the 
last 2 years, we recently conducted an analysis of all positions at 
ATF, and concluded that 1,300 positions were suitable for telework. 
Employees who occupy these positions have been notified that they may 
apply for a telework arrangement. In the next few weeks, managers and 
supervisors will review employee requests to telework, and begin 
implementing telework agreements.
    The ATF Headquarters building is being constructed here in 
Washington, DC, and is promising to be a model of future Government 
construction. The facility will combine security and advanced design 
technology for an environmentally friendly and cost-effective facility. 
ATF is scheduled to move to its new Headquarters in 2006.

          FISCAL YEAR 2006 PRESIDENT'S BUDGET REQUEST FOR ATF

    Congressional funding for ATF in past years is money well invested 
in the safety of the American people. The President's Budget for fiscal 
year 2006 requests $923,613,000 and 5,128 full-time equivalent (FTE) 
positions. I believe these additional investments will provide 
essential benefits to the American people.
    One important new initiative will provide for the expansion of the 
VCIT program I mentioned earlier. Because VCIT has proven so 
successful, the Administration has requested $30.3 million and 150 FTEs 
to establish a VCIT base in 10 additional cities that have experienced 
an increase in armed violence in specific geographic areas or have not 
followed the national trend of reduced homicides and armed violence. 
Establishing a VCIT base in a total of 25 cities will offer more 
Americans the opportunity to enjoy safer neighborhoods again.
    Additional funding will also enable us to increase our 
participation in TEDAC. Four ATF employees currently work with experts 
from other agencies to identify components of IEDs. The $6 million will 
provide two additional special agents to analyze the devices and to 
continue intelligence support to law enforcement and military 
organizations to work against the threat of terrorist IEDs.
    The funds will also provide for the creation of a new database that 
will record, inventory, and catalog IEDs used in Iraq and Afghanistan. 
This database would use association software to identify similarities 
between explosives events and devices, and to match characteristics of 
bombings/bombers in real time, including latent prints, DNA reports, 
components of the explosives, and other forensic information. We will 
have the ability to extract information from the database and share it 
with State, local, and international law enforcement partners. The 
development of the database would be a partnership led by DOJ's Chief 
Information Officer and coordinated by ATF and the FBI.

                               CONCLUSION

    Mr. Chairman, Ms. Mikulski, members of the subcommittee: On behalf 
of the men and women of ATF, I thank you for your support of our 
crucial work. In the last year, we have worked to stop those whose 
violent and criminal behavior threatens the peace of our communities. 
We have investigated explosives incidents and arsons. We have helped to 
ensure that the firearms and explosives industries operate safely and 
lawfully. And we have shared our knowledge with other law enforcement 
personnel through extensive training programs and effective 
partnerships. Yet I believe that our greatest achievements are still to 
come. We have made much progress--but we know there is much more to do. 
We are determined to succeed in our missions of reducing violent crime, 
preventing terrorism, and protecting the public. And we look forward to 
working with you to pursue this goal.

                    Federal Bureau of Investigation

STATEMENT OF HON. ROBERT S. MUELLER, III, DIRECTOR
    Senator Shelby. Director Mueller.
    Mr. Mueller. Good morning, Mr. Chairman, Senator Mikulski 
and members of the subcommittee. I thank you for the 
opportunity to appear here today in front of you for the first 
time. I am sure it will not be the last.
    My prepared statement sets forth the FBI's 2006 budget 
request and the program areas in which we seek expansion, but 
for purposes of my opening remarks, I would like to briefly 
address two of the areas that I believe are most important to 
the FBI's continuing success. The first is the progress we have 
made in establishing the Directorate of Intelligence, and the 
second is the improvement and expected improvement in our 
information technology.

              <greek-l>FBI deg.DIRECTORATE OF INTELLIGENCE

    Let me spend a moment on establishing the Directorate of 
Intelligence. In response to direction from the President and 
the Congress, including the findings of the Joint Intelligence 
Committee inquiry, the 9/11 Commission, and the Intelligence 
Reform and Terrorism Prevention Act of 2004, we established the 
Directorate of Intelligence earlier this year. This directorate 
has clear authority and responsibility over all of our FBI 
intelligence functions. This newly established directorate is 
comprised of a dedicated headquarters element that sets policy 
and direction to be carried out by all of our embedded 
elements, and then with embedded intelligence entities in each 
of our headquarters operational divisions, as well as embedded 
intelligence entities in every one of our FBI field offices. 
And these entities are called the field intelligence groups.
    These field intelligence groups are central to the 
integration of the intelligence cycle into our field 
operations, and they include special agents, analysts, language 
specialists, surveillance specialists, as well as officers and 
analysts from other intelligence and law enforcement agencies. 
They are responsible for coordinating, managing, and executing 
all of the functions of the intelligence cycle and have 
significantly improved the FBI's intelligence capabilities and 
capacity.
    Our efforts to date have focused on aligning our processes 
with partners and customers outside the FBI and increasing our 
intelligence production. We have had over the last year a 312 
percent increase in the dissemination of intelligence 
assessments and over a 200 percent increase in the 
dissemination of intelligence information reports.
    We have also made substantial progress over the last year 
toward expanding and strengthening our intelligence workforce. 
In fiscal year 2005 we initiated a plan to accelerate the 
interviewing and processing of applicants residing in the 
Washington, DC, and Baltimore region. We had a 1-week vacancy 
announcement advertised in 2005 for analysts and it yielded 
over 2,800 high-qualified applicants for the analyst position. 
We have filled 533 of these positions to date, and have a 
hiring objective of 880 analysts by the end of this year.
    In order to continue to build on the progress we have made 
to date, we are taking measures to assure a consistent level of 
knowledge across our workforce, and we have instituted 
mandatory training for analysts. We have also taken steps to 
strengthen the special agent component of the workforce.
    First, in this coming year we are establishing a clear path 
that gives all agents experience in intelligence collection, 
analysis, and dissemination. We also are building the capacity 
of agents to develop specialized skills, experience, and 
aptitudes in one of five areas including counterterrorism, 
counterintelligence, and intelligence. We are making an 
intelligence officer certification a prerequisite for 
advancement to the senior supervisory ranks. All of this is 
important and key to achieving full integration of the 
intelligence operations with our law enforcement operations.
    I mention this, Mr. Chairman, because if you look at many 
of the requests that we have in this upcoming year, those 
requests are supportive of our building this Intelligence 
Directorate within the FBI. We continue to make progress in 
strengthening this capability and we absolutely believe that 
establishing this capability is instrumental to preventing 
attacks in the future.
    Let me add, as I discuss the Intelligence Directorate, a 
note to say that we are currently reviewing the recommendations 
of the Weapons of Mass Destruction (WMD) Commission. As you 
know, the Commission recently completed its report and offered 
a number of recommendations for the FBI as well as for the rest 
of the intelligence community. The Commission's work makes a 
significant contribution to understanding ways we can improve 
our intelligence capabilities, and we are looking forward to 
continuing to build and reform our national security program in 
light of the Commission's recommendations, and I believe you 
will find that a number of our requests in the 2006 budget are 
supportive of that goal.

                   <greek-l>FBI deg.SENTINEL PROJECT

    Let me turn for a second to the second area that I wish to 
discuss, and that is information technology. We absolutely 
recognize the importance of strong information technology as a 
backbone if we are to effectively collect, analyze, and share 
intelligence both within the FBI but also with our intelligence 
and law enforcement partners.
    Mr. Chairman, we are committed to delivering to the 
desktops of the men and women of the FBI the enhanced 
technology capabilities they need and deserve. I believe that 
overall the Trilogy program was successful. I have before and 
continue to acknowledge that the Virtual Case File aspect of it 
was not successful. Yet our efforts to enhance our information 
technology during the past several years have provided us with 
a much improved understanding of program management as well as 
technical expertise. We are in a much better position to shape 
the FBI's next generation of electronic information management. 
This next generation, as I believe you have noted, is called 
SENTINEL and it remains one of my highest priorities.
    This new system called SENTINEL is different from the 
Virtual Case File Program in a number of ways. I believe you 
have a chart that illustrates the additional capabilities that 
will be available under SENTINEL, capabilities that were not 
contemplated as a part of Virtual Case File when Virtual Case 
File was on the drawing boards in 2000 and 2001.
    And while I am, as I expressed here before, disappointed at 
the time and effort and monies that were expended on Virtual 
Case File without success, I do believe we have an opportunity 
to provide our employees more of what they need to do their 
jobs.
    A major difference between SENTINEL, the new system, and 
Virtual Case File is that SENTINEL represents our first step in 
deployment of a service-oriented architecture, what is known in 
the trade, I believe, as SOA. That means that SENTINEL will 
serve as a platform for the gradual deployment of capabilities 
and services needed by all FBI divisions. At the same time, we 
will gradually roll out key technical services through the 
SENTINEL program, such as automated work flow, search 
capabilities, records and case management and reporting 
protocols, rather than doing it through one massive flash cut-
over as was contemplated by Virtual Case File.
    The service-oriented architecture will raise our business 
practices to the next level by providing enhanced capabilities, 
new services, and better efficiency, while also ensuring a 
smooth transition from our legacy applications to a more state-
of-the-art technical platform. This special oriented 
architecture will further support the FBI's mission by helping 
manage our investigative, administrative and intelligence needs 
while also improving ways to encourage information sharing 
among our counterparts.
    SENTINEL is a four-phase project, each phase developing a 
stand-alone capability to our users. The phased rollout will 
facilitate ease of user transition, training, deployment, and 
support. Phase I will be ready for deployment approximately 12 
months after the contract award date, which we expect to be 
toward the end of this year. We have taken the first step in 
the deployment strategies--I believe your staff has been 
briefed--by selecting our contracting vehicle. Our next step of 
the procurement process is to consider the proposals from 
interested and qualified vendors.
    I know a question that all would ask is what is the cost? 
And let me try to give an answer that may at this point not be 
altogether satisfactory in open session, but we have a cost 
estimate. However, because of the procurement process and the 
sensitivity of the procurement process, our preference would be 
to discuss those with you off the record.
    Let me just say, as we complete the remarks on the 
technology, that I fully understand the scrutiny that is 
necessary and appropriate to ensure that the SENTINEL Project 
is successful from beginning to end, and we have implemented a 
number of undertakings to ensure that that will be the case.
    In conclusion, Mr. Chairman, thank you again for the 
opportunity to testify before you today and to highlight the 
importance of both the Directorate of Intelligence as well as 
our plans for SENTINEL.

                           PREPARED STATEMENT

    In closing, I will also refer to the comment that I believe 
you may have made, that is, we are looking forward to working 
with the new Director of National Intelligence, Ambassador 
Negroponte. We expect to support him and his efforts in any way 
we can. The expansion of our intelligence capabilities I 
believe fits directly into what he anticipates he needs in 
assuring that he is able to bring together domestic 
intelligence with intelligence that is derived from overseas.
    I also would be happy to answer any questions you have, Mr. 
Chairman.
    Senator Shelby. Thank you.
    [The statement follows:]

              Prepared Statement of Robert S. Mueller, III

    Good morning, Mr. Chairman, Senator Mikulski, and Members of the 
Subcommittee. I am pleased to appear before you today with Attorney 
General Gonzales and I appreciate the opportunity to discuss the 
President's fiscal year 2006 budget for the Federal Bureau of 
Investigation (FBI). I would first like to express my gratitude for the 
continued support and guidance you have provided the FBI as we continue 
our efforts to ensure that we are able to address current threats and 
keep America safe from those who would do us harm. Specifically, I 
would like to thank you for recently passing the fiscal year 2005 
Supplemental, which included $74 million for the FBI. In addition to 
including critical funding for the FBI's operations in Iraq, the 
Supplemental will allow the FBI to improve its efforts at home in the 
war on terrorism.

                          2006 BUDGET REQUEST

    The FBI's fiscal year 2006 budget request totals 31,475 positions, 
including 12,140 agents and 2,745 Intelligence Analysts, and $5.7 
billion. This includes 2,086 new positions--615 agents, 508 
Intelligence Analysts, and 963 support positions--and $496 million in 
new investments to continue strengthening our Intelligence Program and 
support our Counterterrorism and Counterintelligence activities. In 
addition, the fiscal year 2006 budget request includes resources to 
address the FBI's information technology and infrastructure 
requirements. These resources are critical to the Intelligence, 
Counterterrorism, and Counterintelligence Programs, as well as to our 
traditional criminal investigative efforts, and maintain the support we 
provide to our state, local, and tribal partners. The following 
highlights critical areas of operations and support functions.

                               TECHNOLOGY

    Since I last appeared before the Subcommittee in February of this 
year, the FBI has taken significant steps in planning for our future 
case management system. I want to take an opportunity to provide you 
with an update on our plans, and proposed time-line.
    The FBI's commitment to delivering enhanced technology capabilities 
remains resolute. Our efforts with regard to the Trilogy Project 
resulted in a better understanding of program management and technical 
expertise. The lessons learned have resulted in changes that have 
already facilitated successful programs, including the pilot testing of 
VCF Initial Operating Capability (IOC), which concluded at the end of 
March 2005. As a result of VCF IOC, we were able to gain user input 
that will better direct the development and roll-out of future 
capabilities. Additionally, lessons learned have better positioned us 
to shape the FBI's next generation electronic information management 
system, SENTINEL. Successful deployment of SENTINEL remains one of my 
top priorities.
    SENTINEL is different from the VCF program because it will serve as 
a vehicle in which capabilities can be gradually deployed. We will 
roll-out key technical services in phases, such as records and case 
management capabilities, to smoothly transition into the new system 
while retiring legacy applications. SENTINEL will raise our business 
practices to a higher level of performance by providing enhanced 
capabilities, new services and better efficiency. SENTINEL will further 
encourage information sharing within the FBI and among our 
counterparts.
    The current planning has SENTINEL functions divided into four 
phases, which will be incrementally developed and deployed. Each phase 
will deliver stand-alone capabilities. The phases take into 
consideration migration of legacy data and retirement of legacy 
systems. An initial estimate for full development and implementation of 
SENTINEL is 39 to 48 months. The first phase of the development is 
estimated to begin late this calendar year. As I mentioned, SENTINEL 
will replace a number of legacy applications, the most important of 
which is the Automated Case Management System; other applications to be 
replaced include: ASSET; Criminal Informant Management System; Bank 
Robbery Statistical Application; Financial Institution Fraud and 
Integrated Statistical Reporting Analysis Application. Additionally, 
SENTINEL incorporates support for XML standards to facilitate internal 
and external information sharing.
    The total estimated cost of SENTINEL has not yet been finalized, 
but would be distributed over two to four fiscal years. However, 
development costs for each phase will be fully funded in the year in 
which work begins on that phase.

                      DIRECTORATE OF INTELLIGENCE

    At the direction of the Congress and President, the FBI has 
established the Directorate of Intelligence. As required in the FBI's 
fiscal year 2005 Appropriation legislation, the Directorate will lead 
the FBI's integrated, dedicated national intelligence workforce--``A 
Service within a Service.'' The guiding principle for FBI intelligence 
is the integration of law enforcement and intelligence operations. To 
achieve this integration, we use a management principle of centralized 
management and distributed execution. The Directorate establishes 
priorities, processes and policies for intelligence operations that are 
executed by fully integrated intelligence elements in other 
Headquarters offices and the Field. The priorities, processes, and 
policies are fully aligned with those of the Attorney General, and the 
Director of National Intelligence (DNI):
  --This integrated intelligence service leverages our traditional law 
        enforcement culture--with particular attention to the pedigree 
        of sources and fact-based analysis--while ensuring no walls 
        exist between collectors, analysts, and those who must act upon 
        intelligence information.
  --The term ``Directorate'' signifies that intelligence is not the 
        responsibility of one office or one division, but crosses 
        program lines and permeates all we are charged with doing.
  --FBI intelligence professionals will integrate all partners--
        particularly state, local and tribal law enforcement--into our 
        intelligence structures. Through joint operations in a shared 
        information space, we create a common view of the threat and a 
        clear understanding of our respective roles in countering the 
        threat.
    The FBI's fiscal year 2006 budget request includes an enhancement 
of $26 million for the Directorate of Intelligence. The resources would 
strengthen three critical areas: program development; training; and 
recruitment and retention. These areas have been identified as critical 
to the success of our Intelligence Program.
    We are requesting resources to continue restructuring and 
integrating the enterprise-wide Intelligence Program, which would 
enable us to centrally manage our core intelligence functions and 
implement programs, standards, policies, and training for analysts 
consistent with standards to be determined by the Director of National 
Intelligence (DNI). This would also allow us to manage intelligence 
requirements and intelligence collection activities in accordance with 
national intelligence priorities, and to ensure that all intelligence 
gathered and analyzed is disseminated to those who need it, both inside 
and outside the FBI. Our efforts to date have focused on aligning our 
processes with partners and customers outside the FBI, and increasing 
our intelligence production. The FBI had a 312 percent increase in the 
dissemination of intelligence assessments from calendar year 2003 to 
2004, and a 222 percent increase in the dissemination of Intelligence 
Information Reports during that same period.
  --In order to ensure a consistent level of knowledge across the 
        workforce, we have instituted specialized training, which is 
        now mandatory for all FBI Intelligence Analysts. This year, 
        more than 150 analysts have received intelligence training and 
        our goal is to train at least 1,000 analysts by December 2005. 
        In addition, intelligence training has been incorporated into 
        new agent training. As directed in the FBI's fiscal year 2005 
        Appropriation, we are making additional improvements to expand 
        and enhance our training program, to include joint training 
        sessions with other members of the Intelligence Community, 
        creation of a fellows program to exchange staff with other 
        federal agencies and the private sector, and opportunities for 
        academic sabbaticals to pursue advanced degrees. Our fiscal 
        year 2006 request would enhance the basic intelligence analyst 
        course, and provide support for advanced Intelligence Analyst 
        training.
  --We have made substantial progress towards expanding and 
        strengthening our intelligence workforce. As a result of our 
        hiring efforts, we have received overwhelming interest in the 
        Intelligence Analyst position. A one-week vacancy announcement 
        advertised in February 2005 yielded over 2,218 applicants. We 
        have hired 476 Intelligence Analysts through February and have 
        a hiring objective of 880 by the end of the year. The fiscal 
        year 2006 budget request includes resources to continue 
        recruitment and retention initiatives.
    Finally, the FBI has integrated management of the Foreign Language 
program within the Directorate of Intelligence. This integration aligns 
foreign language and intelligence management activities and provides 
for delivery of service across all program areas. At the end of 
February 2005, there were 406 language specialists on-board. In 
addition, we use the services of over 900 contract linguists. This 
represents a 67 percent increase in the number of total linguists since 
9/11. During calendar year 2004, our Language Services program reviewed 
over 532,000 hours of audio and over 1.9 million pages of text in 
support of the counterterrorism and counterintelligence missions. We 
are requesting an enhancement of 274 positions and $26 million in 
fiscal year 2006 to enhance the program's capacity in counterterrorism 
and counterintelligence-related languages, and to integrate a permanent 
staff of linguists within the National Virtual Translation Center.

                            COUNTERTERRORISM

    The FBI is committed to defeating terrorists and preventing 
terrorist attacks. We endeavor to deny terrorists and their supporters 
the capacity to plan, organize, and carry out logistical, operational, 
and support activities. In order to be successful, we must be able to 
develop intelligence about their plans and disrupt their efforts. In 
conjunction with our partners, we will pursue appropriate sanctions 
against terrorists and their supporters. Success is dependent on 
networked information technology systems and the capacity to manage and 
share information effectively. Resources are also critical to the 
mission. In fiscal year 2006, we are requesting an enhancement of 791 
positions, including 468 agents, and $122 million for national security 
field investigations.
    A critical mission within the Counterterrorism Division is the 
Foreign Terrorist Tracking Task Force (FTTTF). FTTTF was created in 
response to Homeland Security Presidential Directive-2 (HSPD-2). The 
mission of the FTTTF is to provide information that helps keep foreign 
terrorists and their supporters out of the country or leads to their 
exclusion, removal, surveillance, or prosecution. The FTTTF specializes 
in combining public, proprietary and government data sources to support 
the FBI's counterterrorism mission, including support to other U.S. and 
international operations.
    Current collaborative partners and key players include: FBI's 
Counterterrorism Division--National Joint Terrorism Task Force; Central 
Intelligence Agency; Department of Defense; DOD Counterintelligence 
Field Activity; Department of State; and Department of Homeland 
Security.
    In February 2005, the FBI and DHS executed an agreement to provide 
for the sharing of information from the US-VISIT and Student and 
Exchange Visitor Information Systems (SEVIS) programs. As a result of 
the agreement, the FBI will be able to retrieve and analyze all of the 
biographic and biometric data on foreign travelers and students 
collected in US-VISIT and SEVIS. FBI personnel will be able to access 
this information through the Investigative Data Warehouse and FTTTF 
databases, as well as through established user accounts at FBIHQ and 
field office.
    The agreement requires the FBI to verify information and coordinate 
with DHS before taking action on leads or disseminating intelligence 
products developed as a result of information under this shared 
agreement. It also broadly provides the FBI authority to share US-VISIT 
and SEVIS information as necessary with other federal, state and local 
personnel.

                       TERRORIST SCREENING CENTER

    The Terrorist Screening Center (TSC) is a multi-agency effort 
designed to consolidate the screening process for known and suspected 
terrorists, and to provide for the appropriate and lawful use of 
terrorist information. The TSC operates 24/7 to provide a unified 
approach to terrorist screening. Through February 2005, TSC received 
21,650 calls (over 3,500 from state and local law enforcement), made 
over 11,300 positive identifications, and assisted in over 340 
arrests--including six with a terrorism nexus. For fiscal year 2006, we 
are requesting an increase of 61 positions, to include six Intelligence 
Analysts and eight agents, and $75 million. These resources would 
provide the TSC with the ability to not only continue fulfilling the 
TSC's mission as mandated by Homeland Security Presidential Directive 
6, but also begin to address the requirements generated by several 
other initiatives--more stringent screening at United States borders, 
new requirements for the government to screen passengers on domestic 
and international flights without unduly delaying commerce or travel, 
and ensuring organizations receiving public funds do not have terrorist 
links. TSC projects that its workload will increase by up to 3 million 
queries per day by fiscal year 2006.

                          COUNTERINTELLIGENCE

    As the lead counterintelligence agency in the United States, the 
FBI is responsible for identifying and neutralizing ongoing national 
security threats. In counterintelligence, we are alert to the potential 
of a foreign power to penetrate the United States Intelligence 
Community and to compromise Critical National Assets. We are also 
deeply concerned about an agent of a hostile group or nation producing 
or using weapons of mass destruction. Furthermore, the players in the 
espionage game have diversified. We are no longer dealing exclusively 
with intelligence agents. Today the threat can just as easily come from 
students, business executives, or hackers.

                  OFFICE OF CHIEF INFORMATION OFFICER

    In fiscal year 2006, we are also requesting an enhancement of $7 
million to provide contract support for the Office of the Chief 
Information Officer. With these resources, we will be able to better 
ensure that disciplined processes are applied to our project management 
activities and that our projects accurately reflect operational 
requirements and our architecture standards while supporting our 
information technology systems development and engineering.

     INTEGRATED AUTOMATED FINGERPRINT IDENTIFICATION SYSTEM (IAFIS)

    We appreciate the support you provided us for the Integrated 
Automated Fingerprint Identification System (IAFIS) program in the 
fiscal year 2005 Appropriation language. It allows us to move forward 
with our plans to modernize our hardware and software to ensure 
interoperability and increased information sharing with other agencies 
through use of emerging technologies. In fiscal year 2006, we are 
requesting an increase of $16.8 million for Next Generation IAFIS to 
improve its speed and accuracy, allow for flat print capture, and 
enhance the Criminal History Record Information Database. These 
initiatives will support both our state and local partners and the 
security of our nation's borders.

                      LAW ENFORCEMENT ONLINE (LEO)

    We are also focused on developing technology to promote information 
sharing with our state and local law enforcement partners. The FBI is 
requesting an increase of $8 million to upgrade the Law Enforcement 
Online (LEO) network with cost effective solutions to accommodate law 
enforcement user and content growth, and to conduct annual security 
audits, reviews, and technology assessments to ensure LEO remains 
compatible with emerging technologies and customer needs. As of March 
1, 2005, LEO supported over 41,000 users. In addition to the current 
LEO user base, there are approximately 17,000 Regional Information 
Sharing System users who have the ability to access LEO. During fiscal 
year 2004, the FBI added more than 4,000 National Alert System, or NAS, 
users. NAS provides immediate notification regarding crisis events.

                          OVERSEAS COOPERATION

    International cooperation has been, and will continue to be, 
crucial to effectively prevent and disrupt terrorist networks. We are 
continuing to develop foreign partnerships through expansion of our 
Legal Attache program. Currently, we have 51 Legal Attache offices 
open, covering over 200 countries around the world, supporting our 
efforts to neutralize transnational threats. We anticipate opening 
three additional Legal Attache offices by the end of this year: Kabul, 
Afghanistan; Sofia, Bulgaria; and Sarajevo, Bosnia. In fiscal year 
2006, we are requesting an enhancement of 60 positions and $11 million 
for the Legal Attache program and related information technology 
infrastructure requirements. We propose to open one new office and to 
enhance our presence in several existing critical locations. Augmenting 
the Legal Attache presence overseas will provide an operational benefit 
by reducing the span of control of affected offices, resulting in more 
manageable workloads to address terrorist and criminal investigations. 
Foreign law enforcement cooperation is a central ingredient in fighting 
the international war on terrorism, and an effective Legal Attache 
program is essential to maintaining our success in this area.

                      INFRASTRUCTURE IMPROVEMENTS

    The last few years have seen rapid reorganization and expansion of 
our organization. We have undergone much change and hired many new 
personnel. One of our highest priorities has been maintaining the 
strength of our workforce. We conducted a study in 2004 to improve the 
hiring process of support personnel. The study's recommendations 
included streamlining several business practices and realigning 
resources to more effectively execute our hiring efforts. The majority 
of these recommendations are in the process of being implemented. For 
fiscal year 2005, we have initiated a plan to accelerate the 
interviewing and processing of applicants residing in the Washington, 
DC and Baltimore region for the FBI's top priority programs, including 
the Directorate of Intelligence, in an effort to achieve this year's 
hiring goals.
    As we expand our hiring, our training capacity must improve as 
well. In fiscal year 2006, we are requesting $15 million to continue 
addressing the more pronounced deficiencies at the FBI Academy. We need 
to ensure that our facilities at the FBI Academy are suitable for 
training agents and Intelligence Analysts, as well as maintaining our 
support of the National Academy. Quantico provides training to an 
average of 1,500 intelligence and law enforcement personnel each day. 
We are renovating and modernizing our facilities in order to meet the 
demands of our new intelligence-driven training initiatives.
    As part of our initiative to improve physical infrastructure and 
support the counterterrorism mission, we are requesting $10 million in 
construction funding to conduct architectural and engineering studies 
for a new Critical Incident Response Group (CIRG) facility. The funding 
would also be available for the purchase of land once a suitable 
location is found. A new complex would provide for adequate training 
space, and would allow CIRG's executive management, command and 
control, and crisis response elements to be centralized in one 
location.

                    CRIMINAL INVESTIGATIVE DIVISION

    We are also continuing to enhance our Criminal Program. In 2004, we 
realigned our program structure. The realignment maximizes the 
effectiveness of resources, mirrors actual work processes, focuses on 
threats from criminal enterprises, and promotes the collection, 
exchange and dissemination of intelligence throughout the FBI and other 
authorized agencies. In fiscal year 2004, we reported more than 21,000 
arrests, 15,000 indictments, and 16,000 convictions. The focus of the 
Criminal Investigative Program is in areas where we provide a unique 
skill and provide a critical contribution to law enforcement.
    We have placed additional emphasis on targeting violent gangs. 
Gangs and other criminal enterprises operating in the United States and 
throughout the world pose increasing concerns for the international law 
enforcement and intelligence communities. Today, gangs are more 
violent, more organized and more widespread than ever before. They pose 
one of the greatest threats to the safety and security of all 
Americans. The Department of Justice estimates there are approximately 
30,000 gangs with 800,000 members, impacting 2,500 communities across 
the United States. The innocent people in these communities face daily 
exposure to violence from criminal gangs trafficking in drugs and 
weapons, gangs fighting amongst themselves to control or extend their 
turf and their various criminal enterprises, which pose a significant 
threat.
    In response to the threat, we have developed the National Gang 
Strategy. Priority is given to efforts to disrupt and dismantle gangs 
that are national in scope. One of the first to be targeted is MS-13, a 
violent gang that originated in Los Angeles and has spread across the 
country. We have created a National Gang Task Force specifically to 
address MS-13. We are establishing a new National Gang Intelligence 
Center (NGIC) at FBI headquarters, which has been made possible through 
resources the Congress provided this year. The NGIC will collect 
intelligence on gangs from across the United States, analyze this 
intelligence, and disseminate it to help law enforcement authorities 
throughout the country plan and execute strategies to prevent further 
gang activity and violence.
    The FBI views identity theft as a significant and growing crime 
problem, especially as it relates to the theft of consumer information 
from large wholesale data companies. Identify theft has emerged as one 
of the dominant white-collar crime problems of the 21st century. The 
FBI opened 889 investigations related to identity theft in fiscal year 
2004. That number is expected to increase as identity thieves become 
more sophisticated and as the crime is further embraced by large 
criminal organizations, placing more identity theft crime within FBI 
investigative priorities. Identify theft crosses all program lines and 
is usually perpetrated to facilitate other crimes such as credit card 
fraud, check fraud, mortgage fraud, and health care fraud. At present, 
the FBI has over 1,600 active investigations involving some aspect of 
identity theft.
    The National Sex Offender Registry (NSOR) is under the control of 
the Criminal Division's Crime Against Children Section and the Criminal 
Justice Information System (CJIS). As directed by Congress, the FBI 
maintains a national database to track the whereabouts and movements of 
sex offenders. The foremost goal of the Registry is to prevent sexual 
offenders from committing further sex crimes and protecting the public, 
and the NSOR is a critical tool that is educating and protecting the 
public and children from harm. The system uses an FBI number to connect 
information in the National Crime Information Center (NCIC) to existing 
criminal history information in the Integrated Automated Fingerprint 
Identification System (IAFIS). In order for this to occur, the 
convicted offender must have a preestablished FBI criminal history 
record, which can be based on any prior arrest. Recent murders of 
innocent children have highlighted the need to make the public even 
more aware of the NSOR, which is available as a link from the FBI's 
website, fbi.gov, and state and local government agencies.

                               CONCLUSION

    Mr. Chairman, Senator Mikulski, and Members of the Subcommittee, 
the FBI's overriding priority has been protecting America by preventing 
further terrorist attacks. The FBI has made many significant changes, 
and will continue to adapt to protect our country. We have reorganized 
from an agency whose primary focus was law enforcement into an integral 
member of the Intelligence Community. The men and women of the FBI are 
its greatest asset. Working together, Special Agents, analysts, 
scientists, managers, and support employees attack threats as a team, 
with a unified determination to protect our country and our civil 
liberties.
    Once again, I thank you for your strong support of the FBI. It will 
be my pleasure to answer any questions you may have.

                             IDENTITY THEFT

    Senator Shelby. Attorney General Gonzales, I understand 
that some of the Department of Justice's travel card accounts 
may have been compromised recently. Can you describe your 
efforts as they relate to stealing and compromise of account 
and other personal information? In other words, what are you 
doing at the Justice Department in helping to stop identity 
theft?
    Attorney General Gonzales. Mr. Chairman, identity theft is 
regrettably one of the fastest growing crimes in our country. 
One of the consequences, regrettably, of our growing technology 
and the use of the Internet is making it easier for those with 
bad intentions to engage in identity theft.
    The Department's approach is basically three-prong. The 
first is enforcement. In connection with that, of course, there 
was legislation recently passed, the Identity Theft Penalty 
Enhancement Act, which imposes additional penalties above and 
beyond penalties related to the underlying criminal conduct, 
such as credit card fraud. The past few years we have engaged 
in some major sweeps around the country, but clearly, more 
needs to be done.
    Second, in relation to that, we are engaged in a very 
strong educational program providing training to State and 
local officials, and providing education to the public, to tell 
them what is possible, what can possibly be done by these 
criminals, and what good God-fearing citizens can do to protect 
their assets.
    The final component, of course, is to continue to look to 
see whether or not additional legislation is necessary or 
appropriate to deal with this threat. We obviously are very 
concerned about it. I am committed to working with the 
Department of Homeland Security (DHS). I know for Mike Chertoff 
this is a security issue, the fact you have people that are 
able to take the identity of someone else. It does create a 
security issue for this country, and we are committed to 
working with DHS to try to address this problem.
    Senator Shelby. It is involving billions of dollars, is it 
not?
    Attorney General Gonzales. It is a massive problem, yes, 
Mr. Chairman.

              NATIONAL REGISTRY WEBSITE FOR SEX OFFENDERS

    Senator Shelby. Shift to another area. According to the 
National Center for Missing and Exploited Children, there are 
549,000 registered sex offenders in the United States. These 
are people who have been convicted of preying on our families 
and especially our children. They are largely unknown. They 
have a high rate of recidivism. It is estimated that nearly 
100,000 sex offenders do not register, fail to update the 
information, or have just disappeared.
    Last Friday the Department of Justice, under your 
leadership, announced the creation of a national registry 
website for sex offenders. Could you discuss that just a little 
bit, and how is this website different from sites currently 
operated by the Bureau, FBI, and the Bureau of Immigration and 
Customs Enforcement, and will people be able to enter a name 
and the site will search all of the sites it is linked to? How 
will it work, in other words, Mr. Attorney General?
    Attorney General Gonzales. Thank you, Mr. Chairman. The 
Department saw a need to try to provide additional information 
to the public about sex offenders who may possibly be within 
their neighborhoods, and there were too many families crying 
out for information in order to protect their kids. We took 
existing technology with existing information on the websites 
of States and territories who require registration of sex 
offenders, and provided a vehicle free of charge for any 
American who has access to the Internet to simply type in a 
name, a precinct, a county, a ZIP code, a State, and able to 
pull up the names of all registered sex offenders within that 
scope.
    It relies upon State databases, and for that reason, 
obviously, we are dependent upon the information----
    Senator Shelby. Are they interoperable?
    Attorney General Gonzales. Pardon me?
    Senator Shelby. Will the databases be interoperable?
    Attorney General Gonzales. Absolutely. We rely upon the 
States' information, and, therefore, we are dependent upon the 
accuracy of the information within the State. The beauty from 
my perspective is that it does rely upon existing technology. 
The cost is minimal. We have existing funds from 2005 and 2006 
to operate this facility, and obviously we will look for ways 
to find additional funding for future years. But in my 
judgment, it is a good start in providing additional 
information to families.

                             EXPLOSIVES FEE

    Senator Shelby. Mr. Attorney General, the budget request 
proposes a $120 million fee increase that I mentioned earlier 
on the explosives industry. What is your schedule for getting 
this authorization through Congress? Has the authorizing 
language for the fee been transmitted by the administration? 
And if not, when will it be transmitted?
    Attorney General Gonzales. Mr. Chairman, I don't know what 
the schedule is, but I will find out and get that information 
to you. Let me just say that with respect to the administration 
of fees, it has been longstanding administration policy that in 
appropriate circumstances there should be fees charged in 
connection with the administration of certain laws, and this 
would be one such example. But I will get that information to 
you as quickly as I can.

                STATE AND LOCAL LAW ENFORCEMENT FUNDING

    Senator Shelby. I think I mentioned it and Senator Mikulski 
did, too. The funding for State and local law enforcement, the 
proposed cuts here, a lot of us believe they are critical 
partners in homeland security, the war on terrorism, law 
enforcement and so forth. How do you justify the funding cut 
there, Mr. Attorney General? I know it is a tough budget deal.
    Attorney General Gonzales. Mr. Chairman, the budget does 
reflect some very tough decisions. There are priorities within 
this administration, one priority being, of course, the 
protection of this country. And then we have other priorities, 
and regrettably, there may be some good programs that we just 
do not have enough money to fund. And so the budget reflects 
some tough decisions.
    With respect to State and local law enforcement, let me 
first begin by emphasizing that we understand and appreciate 
the importance of cooperation and coordination with State and 
local officials. We cannot be successful unless we have the 
help of State and local officials in addressing not just 
terrorism, but other crimes in this country.
    There are various reasons why certain programs may be cut, 
irrespective of whether or not they are actually good programs. 
For example, we may discontinue funding because the objective 
of the initial funding may have been met, such as the COPS 
program, where initially that was a program created to put 
100,000 cops on the street. We met that objective.
    Second, some programs reflect a one-time grant and, 
therefore, they are not funded again.
    Third, a program, quite frankly, may not score well with 
respect to the OMB standards about whether or not a particular 
program can justify continued funding.
    And, finally, there is a longstanding administration policy 
to sort of discourage funding of programs that are not 
competitively bid, that are sort of earmarked. And so there are 
a variety of reasons why certain programs may receive 
discontinued funding.
    Now, with respect to cuts to State and local law 
enforcement, let me just emphasize there is a tremendous 
increase in the budget within the Department of Homeland 
Security (DHS) to provide monies to first responders. Some 
might argue, well, those are monies that will not find their 
way to the cops on the streets. But, in truth, many of the 
monies will be spent on resources and technology, computers 
that can be shared by first responders, and by the beat cop. 
And so I think it is not a fair assertion to look at the monies 
cut out of these programs and say that the administration is 
somehow not providing resources to State and local officials.
    We are finding other ways to do it, and obviously we are 
working as hard as we can to be more efficient in the monies 
that we continue to provide to State and locals, which is a 
significant amount. But the bottom line is this budget does 
reflect some very tough decisions.

                    PRISON CONSTRUCTION RESCISSIONS

    Senator Shelby. Mr. Attorney General, how do you justify 
ignoring this subcommittee's direction regarding prison funding 
by rescinding funding for two prison construction projects? And 
in your view, does the budget request support the real needs of 
the Federal prison system? It continues to grow. It is 
overcrowded.
    Attorney General Gonzales. It does continue to grow, and it 
is a serious problem. It does require us to become more 
efficient. We are looking at finding ways to be more efficient 
by consolidating facilities, by looking to create prisons that 
are not stand-alone facilities but are located in proximity to 
other Federal facilities so that we can share resources.
    The prisons that we are contemplating to retire are very 
old facilities. They are minimum-bed facilities. We had the bed 
space available with respect to minimum security beds in other 
prisons. We are committed, if these prisons are retired, to 
ensure--we will do our best to make sure that the people that 
are working there have the opportunity to find a job in other 
facilities.
    If you look at the age of the facilities and what it would 
cost to renovate these facilities and provide additional needed 
infrastructure, we believe it simply makes more sense to retire 
these facilities as opposed to continue to try to fund to keep 
these facilities open.
    Senator Shelby. Senator Mikulski.

                 NATIONAL REGISTER FOR SEXUAL PREDATORS

    Senator Mikulski. Thank you, Mr. Chairman. I want my first 
round of questions to be directed at Mr. Gonzales, unless it is 
appropriate for Mr. Mueller to come in, and then in my second 
round to talk about the FBI.
    Mr. Gonzales, I am so pleased in your national budget you 
are talking about how to protect children, and women and 
children. I want to pick up on one question with the National 
Register for Sexual Predators.
    I am so pleased that you have established this registry. 
This is an enormous threat to our own community. In Maryland, 
we have had children die because of sexual predators. Also, 
most recently we have had them lurking around schools and 
playgrounds again, and parents need tools that they can use, as 
well as local crime watch.
    Could I just understand, if I type in a zip code or a 
parent types in a zip code, would then the registry show the 
name of the predator, the convicted predator, and the address 
of the predator?
    Attorney General Gonzales. That is my understanding, 
Senator. You would get that information. Again, the way this 
has been structured, we can do it fairly quickly because we are 
relying upon information that currently already exists in 
databases of States and territories. We are dependent upon the 
information that is within the State databases. But you would 
get that information.
    Senator Mikulski. It will come back to the State databases 
because the Federal funds go to State and local law 
enforcement, which I know many of my other colleagues will 
focus on. In the interest of time, I am going to stick with the 
children's issue.
    This is a really big issue, and we thank you for your 
leadership. We were so dismayed to hear our colleague, Senator 
Schumer, bring to our attention that Medicaid is now paying for 
Viagra for these predators. What a despicable thing. What a 
ripoff of the taxpayer. And we hope that the Department of 
Health and Human Services is going to take action on this, and 
we look forward to your working together on this.
    I would like to compliment your office as well as the FBI 
on the leadership it has taken to protect children not only in 
their community but virtually in what we would call the virtual 
playground. And we are so pleased that it was the FBI through 
its project called Innocent Images, started in Maryland because 
of the death of a child in Maryland, that has really been 
standing sentry on the sexual predators on the Internet, a 
despicable situation. And as we fight our global war against 
terrorism, there are many predators that pose threats in our 
communities, so we want to encourage the ongoing efforts to 
have these efforts to protect our children in our neighborhood 
as well as on Innocent Images. And when you come back, Mr. 
Director, we would like to know that is not being shortchanged.

                            VICTIMS OF CRIME

    Then let me go to the victims of crime. While we see how we 
are trying to protect, we are concerned very much about the 
cuts in the victims of crime assistance. Could you share with 
us what this one--because we see what is happening. Most 
recently, the little girl that was found buried alive, an 8 
year old, after she had been raped and buried alive, thanks 
again, local law enforcement found her. The murder of the girl 
that was trying to get out of a gang life who was stabbed 16 
times. We have these terrible victims of crime, and yet there 
is a rescission here in the victims of crime program.
    Could you tell us--the Crime Victims' Fund, as I understand 
it, is paid for fees collected from convicted criminals. I 
believe the money should be made available to victims. Number 
one, will that money be made available? And, number two, with 
the rescission of $1.3 billion from the Victims of Crime Fund, 
what services will be either eliminated or diluted?
    Attorney General Gonzales. Senator, let me----
    Senator Mikulski. Because we have got to really think about 
these victims.
    Attorney General Gonzales. Senator, I do think about the 
victims. Attending several victims ceremonies recently in 
connection with Victims' Rights Week, I heard their stories and 
I really understand that we have an obligation. The Department, 
I believe, has a very strong obligation to look out for the 
rights and the interests and the concerns of victims. I care 
about them very, very deeply.
    I would remind you, of course, that the President feels the 
same way, and he advocated a constitutional amendment with 
respect to victims' rights.
    Our budget request does lift the cap on spending out of the 
Crime Victims Fund from $620 million to $650 million. So we 
view it as an increase in terms of spending for victims' 
rights.
    Now, we have requested a rescission of prior year unspent 
balances. As you know, because of the way our budget process 
works, that amount gets rolled over from year to year. We just 
felt it was a more straightforward way of dealing with this 
budget issue, but it does not, in my judgment, reflect 
lessening of a commitment to victims' rights. In looking at the 
receipts, it appears that the receipts will be sufficient to 
maintain the level of funding that we have come to expect with 
respect to this fund. Again, this just reflects a budgetary 
decision.
    Senator Mikulski. Mr. Gonzales, I don't question your 
commitment, but I am here as an advocate, not an accountant. 
And my question is: If you rescind close to $1 billion, what 
does that mean? That you had a pile-up of money from collecting 
funds from these convicted criminals, that you did not spend 
it? And shouldn't this be rolled over then and more direct 
assistance to the victims as well as other kinds of programs?
    Attorney General Gonzales. You are correct, it was a pile 
of money that was collected, fees, that could not be spent 
because there were caps placed upon it. Therefore, it could not 
be spent, and it kept rolling over from year to year.
    Senator Mikulski. Why couldn't it have been spent? There 
was not enough ``demand'' by the victims?
    Attorney General Gonzales. I don't know if it is a question 
of demand, Senator. It is a question of this was a cap imposed 
by the Congress and agreed to by the administration, and there 
was--I think it was to provide some level of certainty because 
the fact that the level of fees collected year to year varied, 
and there was a decision to provide some level of certainty as 
to how much money would be spent every year, and so the 
decision was made as to what the cap should be. And as I have 
indicated, we propose raising the cap from $620 million, which 
it had been, to $650 million.
    Senator Mikulski. Well, I think what I am trying to 
understand, then, is why did the money pile up. Number two, 
what is a better use of the money?
    I know my time has expired, and perhaps we could have that 
in more detail from your Department so that, number one, we 
really are on the side of the victims. And we will come back to 
some other issues on that.
    Attorney General Gonzales. We would be happy to try to get 
your more information about that, Senator. Thank you.
    [The information follows:]

Crime Victims Fund--Why Did the Money Pile Up and What is a Better Use 
                             for the Money?

    The Fund is set up as a separate account in the United 
States Treasury with deposits coming predominantly from 
criminal fines; the proceeds of forfeited appearance bonds, 
bail bonds, and collateral, special forfeitures of the 
collateral profits of crime proceeds retained in an escrow 
account for more than 5 years, and penalty assessments for 
federal misdemeanor and felony convictions. Money is collected 
and deposited in the Fund account in one year and made 
available for obligation the succeeding fiscal year. Hence, 
money deposited into the Fund in fiscal year 2005 will serve as 
the source of funding for programs in fiscal year 2006. The 
collection and deposit period runs from October 1 through 
September 30 of a given fiscal year.
    For the last several years, both Congress and the 
Administration have proposed to control the level of 
expenditures made from the Crime Victims Fund (CVF) by imposing 
an obligation limitation. The fiscal year 2006 President's 
Budget continues to propose a cap on the CVF, as it is 
necessary to ensure a more continuous level of service provided 
by the partners in the field. Any collections in excess of the 
cap for a given year are carried forward into the following 
year, which is how collections have accumulated in the Fund. 
The fiscal year 2006 budget proposes to rescind these 
accumulated balances. The accumulated balances are due to 
exceptionally large collections that have occurred in recent 
years. As to a better use of the money, collections should be 
used for the purposes for which they are authorized, to provide 
assistance and compensation to victims of crime. The 
Administration's proposal simply seeks to end the current 
practice in which unspent balances are carried forward into the 
next fiscal year, creating a discretionary budget ``offset'' 
that permits spending for other, unrelated activities.

    Senator Shelby. Senator Leahy, Senator Stevens is going to 
yield to you right now.
    Senator Leahy. I appreciate that. I appreciate my friend 
from Alaska. I have to be on the floor.
    Attorney General, I am troubled by your answer to Senator 
Mikulski. Are you concerned about the victims of crime? I am 
sure you are. You and I have discussed this before. I have no 
doubt of your sincerity. But we can talk about, well, we are 
going to raise the limits, we are going put more money, we are 
going to do this, that, and the other thing for the victims of 
crime. But this money is from criminal fines, forfeitures, 
assessments. It does not come from the American taxpayers. And 
you are zeroing out the fund. At the end of fiscal year 2007 
there will be no money left. The administration's fiscal year 
2006 budget proposal would siphon off all the funds. You know 
and should know full well that as we put together--and these 
have all been bipartisan efforts to put together these victims' 
funds--and suddenly the money is zeroed out, it has this 
chilling effect all the way down the line. The victims' 
programs are not going to be funded. People are going to say 
there is no money there. Sure, the money is rolled over. Sure, 
the money is rolled over each year. That is what the Congress 
wanted the money to do, to roll over each year, because new 
programs are coming online, whether it is in your State of 
Texas, my State of Vermont, Director Mueller's State of 
California, or anywhere else. They are coming online. Our 
country is growing all the time. Unfortunately, there are more 
victims of crime all the time.
    I would hope that you and the administration would go and 
review this again because it creates in my mind a somewhat 
chilling effect. We can talk about how we all want to raise the 
caps on these, but if the money is gone, it does not make any 
difference.

                   <greek-l>FBI deg.COST OF SENTINEL

    Director Mueller, I am concerned about your testimony on 
the cost of SENTINEL, the Virtual Case File replacement. We 
have been unable--our staff, including staff cleared for 
security matters, has been unable to get an estimate of what 
this is going to cost. You suggest we might do this in a 
closed-door hearing. Frankly, I get kind of worried because for 
years we were unable to get estimates on a virtual case file, 
even in testimony here. A few days later we find out how much 
was wasted, how badly it went down the drain. I think you are 
going to find that many of us want to get those briefings, and 
I would suggest that stonewalling staff up here is not the way 
to do it.

          <greek-l>FBI deg.FBI SEARCH OF TERRY NICHOLS' HOUSE

    But my question to you in the time I have is: On March 31--
and I happened to notice this date because it was my birthday--
FBI agents acting on a tip searched the house where Terry 
Nichols lived just before the bombing of the Alfred P. Murrah 
Federal Building in April 1995, 10 years ago, one of the worst 
acts of domestic terrorism on our soil.
    So 10 years later, 10 years after the fact, 10 years after 
the time Terry Nichols was in jail, the FBI searched his house 
and they found blasting caps and other explosive materials 
apparently related to the bombing. Ten years?
    Mr. Mueller. I would be happy to explain that, Senator.
    Senator Leahy. I would love to hear the explanation because 
I understand that they took--an informant gave them a tip. He 
failed a lie detector test. To have a lie detector test be the 
determining factor on something like this--yes, go ahead and 
explain it.
    Mr. Mueller. Well, first of all, let me clarify that we are 
not stonewalling your staff, Senator. We have not. We would be 
happy to provide you with the briefings. As I told you before, 
in terms of the cost, we have estimates now. The reason for not 
putting it in public is because there are certain procurement 
sensitivities that are involved. But we are happy to provide 
you the briefings that you request, and I do believe we have 
provided them in the past, certainly with regard to the outline 
of the SENTINEL program.
    With regard to the explosives that were found in Terry 
Nichols' house, we did search the house way back. In fact, 
there were a number of searches of the house during the course 
of the investigation.
    Senator Leahy. You were not the Director at that time.
    Mr. Mueller. I was not, but I know that there were searches 
of the house back in the wake of the Oklahoma City bombing. We 
did get an informant or a tip that came from Nichols, as to 
where additional explosives were buried. We followed up on 
that, and we found that they were buried under the house, under 
the earth under the house where they would not have been easily 
found in the previous searches. It took the additional 
information by way of Nichols to identify the location of these 
particular explosives, and we followed through on that tip and 
found them.
    Senator Leahy. How long after getting the tip was the 
search made?
    Mr. Mueller. I would have to check. I am not certain of the 
timeframe.
    Senator Leahy. I think it was a few weeks, but feel free to 
provide that for the record.
    Mr. Mueller. We will.
    [The information follows:]

  Timeframe for Locating Explosives in the Former Home of Terry Lynn 
             Nichols in Herington, Kansas on March 31, 2005

    On March 1, 2005, the Bureau of Prisons contacted the FBI 
Denver Field Office regarding information it obtained from an 
inmate about explosives under the former home of Terry Lynn 
Nichols. On March 4, 2005, the inmate failed an FBI polygraph 
exam regarding this information. Although the inmate did not 
pass the polygraph examination, the FBI continued to review and 
investigate the information. Additional detailed information 
about the location and alleged existence of the explosives was 
received on March 11, 2005, from an FBI source from another FBI 
Field Office. Based upon the information provided by the 
sources, the FBI continued to investigate the allegations to 
determine their veracity. The investigation included, but was 
not limited to, locating the home and its owner, and obtaining 
permission to search the premises. On March 31, 2005, the 
buried cache of explosives was successfully recovered without 
incident and forwarded to the FBI Laboratory for analysis.

                        INNOCENCE PROTECTION ACT

    Senator Leahy. In October 2004, the Congress passed and 
then the President signed the Justice for All Act that had the 
Innocence Protection Act, the IPA, which I authored. And, 
Attorney General, at your confirmation hearing you said that 
you would work with us on IPA, on the Innocence Protection Act.
    The Innocence Protection Act authorized a total of $375 
million for this program over a 5-year period. This was 
carefully worked out over months, actually years of 
negotiations, by everybody from Chairman James Sensenbrenner 
and Majority Leader Tom DeLay, to myself, to others. We wanted 
to have effective systems for appointing counsel in death 
penalty cases. The President, the White House was involved. The 
President was happy to sign it and stated it when he stepped 
forward and was to sign it. But now we find that the 
administration has proposed zero funding on this, and they are 
trying to figure out a new program, ignoring the work of 
Republicans and Democrats in both bodies, across the political 
aisles, across the political spectrum, on a bill the President 
signed.
    Is this a sign to us don't bother to try to form bipartisan 
coalitions, don't bother to work with this administration, 
don't bother to work with you or anybody else, because we will 
just zero it out? I am somewhat troubled, as you may have 
noticed.
    Attorney General Gonzales. Yes, sir. I would not describe 
it in that fashion. We obviously care very much, the President 
cares very much about ensuring that those who are facing the 
death penalty have adequate representation.
    Senator Leahy. I am talking about the IPA. The Innocence 
Protection Act was part of the bill that the President signed, 
which has now been zeroed out for the money that was 
authorized.
    Attorney General Gonzales. I thought you were talking about 
providing lawyers in connection with----
    Senator Leahy. I am talking about the program that the 
Congress, after years of work, of hearings, put together, 
signed into law by the President, is now in law, has been 
basically zeroed out by the administration, and you are 
basically inventing a new program.
    Attorney General Gonzales. I am sorry. I misunderstood you, 
Senator. I think that the President--this is the DNA 
initiative, Senator?
    Senator Leahy. Yes.
    Attorney General Gonzales. Okay.
    Senator Leahy. And zeroed out the part that we had in there 
on capital cases.
    Attorney General Gonzales. The President has a DNA 
initiative that was announced and funded prior to the enactment 
of the Justice for All Act. It has been successful, and it has 
worked, and we believe that this is the way to deal with 
ensuring that we provide resources and training so that we can 
use DNA to clear up the backlog of DNA cases----
    Senator Leahy. Everybody here supports that. I am one of 
the ones that helped get the funding for that program, so that 
is not the question. We all want to clear up the backlog in 
DNA. It is going to help our prosecutors. It is going to help 
our defense counsel. I am talking about the Justice for All Act 
with the Innocence Protection part that was carefully 
negotiated by Republicans and Democrats, signed into law, and 
is now being zeroed out.
    Attorney General Gonzales. Senator, the position of the 
Department is that the President's DNA initiative is a better 
way to deal with this problem, and we can do it in a way that 
requires less money and can be more effective in dealing with 
the issues relating to the use of DNA.
    Senator Leahy. So basically you are saying ignore what we 
did in the Congress and the law the President signed with great 
fanfare and praise.
    Attorney General Gonzales. Senator, we believe that the 
most effective way to deal with this is with respect to the 
decisions made to fund the DNA initiative announced by this 
President.
    Senator Leahy. Mr. Chairman, thank you.
    Senator Shelby. Senator Stevens.

                     NATIONAL SEX OFFENDER REGISTRY

    Senator Stevens. First let me agree with the Senator from 
Maryland. We do have this National Sex Offender Registry, and 
that is supposed to help us keep track of these people so that 
parents can help protect their children from harm. Is there a 
requirement that these people continue to report their changes 
in address? There seems to be a policy that these people can 
just sort of disappear and show up in new communities. How does 
that happen?
    Attorney General Gonzales. They have an obligation to 
report, Senator. As you might expect, these are criminals and 
some people do not abide by the rules. And so part of our 
charge is to try to identify when people move and identify 
where they are.
    Senator Stevens. Is the law strong enough? Shouldn't we put 
through a provision that says that if they don't report, they 
go back to jail?
    Attorney General Gonzales. I don't know what the law 
requires at this time. It may already have such a requirement, 
but if it does not, I think that would be something that we 
should be looking at.
    Senator Stevens. I would tell the Senator from Maryland, I 
would be pleased to join in such a provision to strengthen 
that.

                            USA PATRIOT ACT

    Let me ask you as a former U.S. attorney about the PATRIOT 
Act. It expires at the end of this year, and in my judgment, in 
terms of things we have seen in terms of the working 
relationship between agents and making available intelligence 
without chimneys, it is working very well. Are you seriously 
urging the Congress to extend the PATRIOT Act?
    Attorney General Gonzales. Senator, I agree with you. I 
think the PATRIOT Act has been effective in protecting America, 
and I think it reflects a careful balance of protecting our 
country and respecting our civil liberties and the privacy 
rights of all Americans.
    There are 16 provisions that are set to expire at the end 
of this year. We have had a good debate about how this 
Department has exercised those authorities. I think the record 
shows that the Department has been very careful in the use of 
these authorities. I think the record also shows that the Act 
has been effective and, therefore, in my judgment, the PATRIOT 
Act is deserving of reauthorization.
    Senator Stevens. When the Defense Subcommittee traveled to 
Iraq, we interviewed some people there who were multinational 
and multiagency people who had really functioned extremely well 
because of the PATRIOT Act. I think you ought to bring some of 
those people in and have them testify to Congress and tell us 
how that act has changed their lives and increased their 
ability to track down terrorists and to bring them to justice. 
It seems to me that there should be no opposition to extending 
that act and continuing to give that authority to the people 
who are really trying to seek out terrorists throughout the 
world.
    Mr. Mueller, your agency in particular has used it very 
effectively. Do you have any comment about it?
    Mr. Mueller. I think we would be going back 10 years if the 
PATRIOT Act is not reauthorized, particularly those provisions 
that have broken down the walls in the sharing of information. 
The ability to share information between the intelligence 
community and the law enforcement community has been 
instrumental in securing the safety of United States citizens, 
both in the United States but also overseas, in allowing us to 
share information between our various agencies and also with 
our counterparts overseas. We have testified previously on a 
number of occasions how absolutely essential it is to have the 
reauthorization of the PATRIOT Act to prevent additional acts 
of terrorism. A number of our investigations have been 
successful in the United States because of our ability to share 
information and utilize the provisions of the PATRIOT Act.
    Senator Stevens. Well, take the Terrorist Screening Center 
(TSC), which you commented on in your statement. Could it 
effectively work without the PATRIOT Act?
    Mr. Mueller. It would be very difficult for it to be able 
to perform its functions because it would still be beset by 
walls segmenting information between the intelligence community 
and the law enforcement community. And, consequently, the 
PATRIOT Act in its breaking down those walls enables the 
Terrorist Screening Center to assemble information from a 
variety of sources to determine the appropriateness of putting 
somebody on the terrorist screening watchlist and to follow 
through if that person comes within the United States or 
attempts to get into the United States.
    Senator Stevens. This is a multiagency effort, as I 
understand, the Terrorism Center, right?
    Mr. Mueller. Yes, it is.
    Senator Stevens. And in your statement, you said through 
February 2005 TSC received 21,650 calls, over 3,500 from State 
and local law enforcement agencies, made over 11,300 positive 
identifications, and assisted in 340 arrests, including six 
with terrorist nexus.
    Now, none of that would be available without knocking down 
the walls that the PATRIOT Act knocked down. In the past, they 
all would have had to go to the top of their agency, and the 
information would have to be shared at the top of the agency, 
and the top of the agency would have to be aware of the fact 
that someone down here had that information. Is that not right?
    Mr. Mueller. The PATRIOT Act broke down those walls, along 
with rulings of the Foreign Intelligence Surveillance Act 
court. Between the two of those entities, it broke down the 
walls, enabling the Terrorist Screening Center to have that 
record of success.

           <greek-l>FBI deg.DIRECTOR OF NATIONAL INTELLIGENCE

    Senator Stevens. Let me shift over to the National Director 
of Intelligence, and I appreciate your visit. I am sure you 
visited others. But I see that there are several functions you 
have mentioned that really now will be integrated with the 
National Director of Intelligence. And you created a special 
section within the FBI to deal with that, right?
    Mr. Mueller. That is correct. What we are trying to do is 
build up within the FBI what is called a Directorate of 
Intelligence that, from the headquarters perspective, is the 
brains of intelligence, regardless of whether it comes from a 
criminal program, a cyber program, a counterintelligence 
program, or a counterterrorist program, where the agents are 
collectors. The Intelligence Directorate is that entity that 
pulls in the information, analyzes the information, and makes 
certain that that information as analyzed gets to the right 
policymaker. It may be an agent himself or herself. It could be 
a supervisor in the FBI. Or it could be somebody at the Central 
Intelligence Agency (CIA), Defense Intelligence Agency (DIA), 
or now the Director of National Intelligence.
    The other substantial role that the Directorate of 
Intelligence plays is to identify what we know but, most 
particularly, what we don't know and establish requirements for 
intelligence collection in the United States so we have a much 
fuller picture of the threats that we face in the United 
States, complemented with the information that may be brought 
to the table by the CIA, the National Security Agency (NSA), or 
one of the other intelligence actors. And it is tremendously 
important for the Bureau to build up this capability, but it 
would not be able to build up this capability without the 
information that it now has access to by reason of the PATRIOT 
Act and rulings of the FISA court.
    Senator Stevens. And it is the act that makes that center 
operable, right? All these agencies now share information 
really at the inception of knowledge, right? They come in and 
they are shared and they are made available throughout the 
community, and this is an underpinning for the National 
Director of Intelligence, isn't it?
    Mr. Mueller. As far as our National Director of 
Intelligence, it absolutely is. We have that capability. But 
also we complement the National Counterterrorism Center where 
both the intelligence agencies and the law enforcement agencies 
share space, have access to our various databases so that there 
can be in very short order a complete picture of a threat or a 
group or an individual who presents a terrorist threat. And 
having the ability to access these databases, having the 
ability to pull this information together, to analyze it in the 
National Counterterrorism Center, was made practical and legal 
by the passage of the PATRIOT Act and the FISA court rulings.

                             DNA INITIATIVE

    Senator Stevens. Last, Mr. Attorney General, in your 
discussion with the Senator from Vermont about the DNA concept, 
it is our understanding the program that is in effect now is a 
broader one and has been more effective in dealing with DNA and 
its use in prior convictions and throughout the whole system of 
the Department of Justice. Is that your feeling?
    Attorney General Gonzales. It is hard for me to compare, 
Senator, but I will say that it has been, in my judgment, very 
effective in clearing out the DNA backlog and providing 
training to State and local officials, to help them find 
missing people. And so it has been very effective.
    Senator Stevens. Has there been a reduction in funding for 
the DNA effort?
    Attorney General Gonzales. No, Senator.
    Senator Stevens. What is the budget this year for?
    Attorney General Gonzales. I don't have it at my 
fingertips, but I will get you that information.
    Senator Stevens. Thank you.
    Thank you very much, Mr. Chairman.
    Senator Shelby. Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    [The information follows:]

            What is the Budget This year for DNA Initiative?

    In fiscal year 2004, Attorney General John Ashcroft 
announced the awarding of nearly $95 million in DNA grants 
nationwide as part of President Bush's DNA initiative, 
Advancing Justice Through DNA Technology. The awards represent 
the greatest investment in DNA technology to date--more than 
twice the amount of any previous year's funding--and the first 
grants to be awarded under the President's initiative. In 
fiscal year 2005, approximately $168 million will go to 
activities under the DNA initiative. The fiscal year 2006 
request includes an increase of $69 million for a total funding 
level of more than $236 million.

                              BYRNE GRANTS

    Senator Harkin. Mr. Attorney General, back to Byrne grants, 
funding for the Byrne grant program has been eliminated from 
the budget. One of the rationales offered is that the program 
has not demonstrated a satisfactory level of performance 
results. However, the law enforcement people in Iowa tell me 
there has never been any effort on the part of the Bureau of 
Justice Assistance to actually measure the performance results 
of this program.
    My question is: Has there been a valid effort to determine 
if Byrne dollars are working nationally as well as they are in 
Iowa?
    Attorney General Gonzales. I believe there has been a valid 
effort to determine whether or not these dollars are being used 
effectively. Again, Senator, as I indicated in response to an 
earlier question, there are a variety of reasons why a decision 
is made not to continue funding a certain program. That may not 
reflect a decision that the program is not an effective 
program, but may reflect a determination that there are other 
priorities that deserve funding. There may be other ways to 
provide resources to State and local officials to address the 
problem, and that is why the decision was made to deal with the 
Byrne grant program in this fashion.
    Senator Harkin. Could you provide to the subcommittee a 
list of the efforts that were made by the Bureau of Justice 
Assistance to measure the performance results of this program?
    Attorney General Gonzales. I will try to provide you that 
information, Senator.
    Senator Harkin. I would like to see that because I am told 
that there never was any effort to really measure, so I would 
like to kind of get to the bottom of that one.
    [The information follows:]

 Efforts That Were Made by the Bureau of Justice Assistance to Measure 
 the Performance Results of the Byrne Justice Assistance Grant Program

    There are a number of efforts underway to measure whether 
Byrne dollars are working nationally. The Byrne Justice 
Assistance Grant (JAG) program is currently undergoing an 
Office of Management and Budget Program Assessment Rating Tool 
(PART) review to assess Byrne JAG's purpose and design, 
strategic planning, management, and results and accountability. 
While final National Institute of Justice (NIJ) evaluations of 
Byrne JAG are not yet completed, many state-initiated 
independent evaluations have been conducted, including a study, 
``Multi-Jurisdictional Drug Task Forces in Ohio,'' commissioned 
by the Ohio State Administering Agency and conducted by the 
University of Cincinnati and Kent State University. Another 
example is in Oklahoma, where the Oklahoma District Attorneys 
Council contracted with the University of Oklahoma to conduct a 
comprehensive review of the evaluation activities of other 
states that fund drug task forces. Through a literature review, 
they found that 39 states have in the past or are currently 
conducting independent evaluations of their Byrne JAG-funded 
drug task forces and other grant-funded programs. Phase II of 
NIJ's evaluation of Byrne JAG-funded Multi-Jurisdictional Drug 
Task Forces will build on the effort to provide a complete 
picture of the overall effectiveness of the Bureau of Justice 
Assistance of the Byrne JAG Program.

                       JUSTICE ASSISTANCE GRANTS

    Senator Harkin. Last year, the President's budget merged 
the local law enforcement block grant with the Byrne program 
and called it the Byrne justice assistance grant. It required 
an entirely new application process, set entirely new criteria. 
The merger of the programs was particularly painful for States 
like Iowa, in which the majority of our people do not live in a 
major city.
    Now, given that the budget eliminates this newly merged 
Byrne program, which is now called the Byrne justice assistance 
grant program, I would be interested in learning exactly how 
much we have spent on merging the two programs and 
administering it for just 1 year? In other words, we merged 
them last year. You set up new criteria, set up a new 
application process, merged the two, did it for 1 year, and now 
you are eliminating it. What did it cost us to do that for 1 
year? And why did we do it?
    Attorney General Gonzales. I don't know that information, 
Senator, but I will try to get that for you.
    [The information follows:]

What Did It Cost to Merge Local Law Enforcement Block Grant Within the 
             Byrne Program For 1 Year and Why Did We Do It

    Proposed to streamline justice funding and grant 
administration, the Edward Byrne Memorial Justice Assistance 
Grant (JAG) Program allows states, tribes, and local 
governments to support a broad range of activities to prevent 
and control crime based on their own local needs and 
conditions. JAG blends the previous Byrne Formula and Local Law 
Enforcement Block Grant (LLEBG) Programs to provide agencies 
with the flexibility to prioritize and place justice funds 
where they are needed most. As the Office of Justice Programs' 
Bureau of Justice Assistance (BJA) works to administer JAG 
requests for state and local grantees, there has been a 
savings--not cost--associated with the program's streamlined 
application, review, and award processes. Savings 
considerations include: the mandatory match requirement was 
eliminated, allowing states to measure their own match needs 
and implement at the state level if indicated; awards are 
distributed up front instead of on a reimbursement basis, 
giving recipients immediate control over their funds; direct 
recipients can earn interest on their awards, generating 
additional funding for future justice projects; projects can be 
funded beyond a 4-year period, allowing successful initiatives 
to receive funding to continue and expand their efforts; 
various fiscal and programmatic reports have been replaced with 
fewer, but more targeted, reporting, saving State Administering 
Agencies (SAA) and local programs valuable staff time and 
resources; and mandatory set-asides have been eliminated, 
encouraging states and communities to spend justice funds more 
strategically.

    Senator Harkin. There is something bureaucratic going on 
here, and I am not quite certain what it is. The reason for my 
question is because my law enforcement people in Iowa--and I 
checked in the Midwest. These Byrne grants have been a lifeline 
for the coordinated efforts for drug intervention, for arrests, 
getting meth labs; as I mentioned in my opening statement, even 
in terms of programs for rehabilitation. And they have worked 
from everything I have ever seen. And so I am really trying to 
figure out why this rationale for eliminating it after we just 
merged it for 1 year. I know you say you have priorities and 
stuff, but I am wondering about what has more priority than 
this and why this was done away with. This is not just being 
cut. This is eliminated. That is a big body blow to law 
enforcement all over.
    Attorney General Gonzales. Again, Senator, in cases like 
this, decisions are made as to which programs are the most 
effective and what's the most efficient use of taxpayers' 
dollars. And so there may be a particular problem that is being 
addressed by the expenditure of Byrne grants that we believe 
can be more efficiently dealt with through other programs or 
coordinating resources in a different kind of way. And I guess 
what I want to do is reassure you and the people in your State 
that we, like you, consider these drug issues very, very 
serious and that we ought to be looking at ways to try to deal 
with this in the most effective and most efficient way. We are 
committed to work with people in your State to address these 
problems.
    Senator Harkin. The only thing I am asking you, again, to 
give to the subcommittee, is the efforts that have been made to 
determine the outcomes results of the Byrne grant program.
    Attorney General Gonzales. I will try to get that to you, 
Senator.
    [The information follows:]

 Efforts That Were Made by the Bureau of Justice Assistance to Measure 
 the Performance Results of the Byrne Justice Assistance Grant Program

    There are a number of efforts underway to measure whether 
Byrne dollars are working nationally. The Byrne Justice 
Assistance Grant (JAG) program is currently undergoing an 
Office of Management and Budget Program Assessment Rating Tool 
(PART) review to assess Byrne JAG's purpose and design, 
strategic planning, management, and results and accountability. 
While final National Institute of Justice (NIJ) evaluations of 
Byrne JAG are not yet completed, many state-initiated 
independent evaluations have been conducted, including a study, 
``Multi-Jurisdictional Drug Task Forces in Ohio,'' commissioned 
by the Ohio State Administering Agency and conducted by the 
University of Cincinnati and Kent State University. Another 
example is in Oklahoma, where the Oklahoma District Attorneys 
Council contracted with the University of Oklahoma to conduct a 
comprehensive review of the evaluation activities of other 
states that fund drug task forces. Through a literature review, 
they found that 39 states have in the past or are currently 
conducting independent evaluations of their Byrne JAG-funded 
drug task forces and other grant-funded programs. Phase II of 
NIJ's evaluation of Byrne JAG-funded Multi-Jurisdictional Drug 
Task Forces will build on the effort to provide a complete 
picture of the overall effectiveness of the Bureau of Justice 
Assistance of the Byrne JAG Program.

                             HIDTA PROGRAM

    Senator Harkin. I would appreciate that. Last--well, no, 
two quick things. High-intensity drug trafficking (HIDTA) 
program, the budget has been slashed by 50 percent, and it 
says, ``The Department's budget states that the program will be 
redesigned to focus on efforts to stop drugs entering the 
country.'' Well, what effect is that going to have on the 
Midwest HIDTA program, high-intensity drug trafficking area 
program in the Midwest, which is engaged in fighting a meth 
epidemic--and it is an epidemic--in Iowa, South Dakota, 
Missouri, Nebraska, that whole area there. That is after the 
drugs have entered the country. So if we are slashing it by 50 
percent, again, we are going to have a problem in funding the 
high-intensity drug trafficking areas in the upper Midwest.
    Again, I don't know how we are going to continue to do this 
by slashing it by 50 percent.
    Attorney General Gonzales. HIDTA has traditionally been 
within the Office of National Drug Control Policy. That is a 
policy-focused organization, and we believe that these funds 
ought to be administered through the Department of Justice, 
which has as its primary focus law enforcement. It just makes 
sense, quite frankly. The question then is whether----
    Senator Harkin. I don't mind that. That is fine.
    Attorney General Gonzales. And in doing so, we are able to 
take the organized crime drug enforcement task force (OCDETF) 
program and the HIDTA programs under sort of the joint 
supervision of the Deputy Attorney General and make sure that 
they remain a priority, both of those programs.
    I want to reassure everyone that the fact that it is moving 
into the Department of Justice does not mean that we are going 
to in any way merge the two programs. I think OCDETF has more 
focus on national and international programs and HIDTA is more 
regional.
    The fact that the monies are being reduced to HIDTA does 
not mean that there will be a change in the first year with 
respect to providing funding for intelligence-sharing and 
critical infrastructure. Those will be funded with respect to 
all the HIDTAs. In 2006, every single HIDTA will continue. We 
will take the HIDTA funding and we will allocate it according 
to priorities: first intelligence, then infrastructure, and 
then we will look at each of the HIDTAs and have the HIDTAs 
make the best case as to where the remaining dollars should go. 
And that is what we intend to do with respect to the HIDTA 
program going forward.
    Senator Harkin. Thank you, Attorney General.

                <greek-l>FBI deg.DEFINITION OF TERRORISM

    Mr. Director, since September 11, 2001, the FBI's 
counterterrorism workload, as you stated in your written 
statement, has more than tripled, from 9,340 cases to over 
30,000 in fiscal year 2004. My question is: How much of this is 
redefining criminal and drug activities as ``terrorism?'' Do we 
have a definition of terrorism? And has it changed in the last 
3 years? Or are we just seeing a tripling of terrorist 
activities? How much of this is just redefining normal 
criminal--not normal, but abnormal criminal and drug activities 
as just, oh, this is terrorism, justifies more money?
    Mr. Mueller. No, I would say it is not redefinition. There 
may be a little of that where cases, if you have a terrorist 
group, an acknowledged terrorist group that is engaged in 
criminal activity and the results of that criminal activity, 
the funding is going overseas to Palestine or Lebanon or 
elsewhere to support terrorist activities, it may have been 
identified principally as a criminal case but now is identified 
as a terrorist case. I think that is a very, very small sliver 
of those cases where there was some redefinition.
    But the fact of the matter is we now have--we had 1,300 
agents pre-9/11; we now have almost 3,000 agents that are 
directed to counterterrorism. We had on our joint terrorism 
task forces prior to September 11 just over 900 Federal, State, 
and local officers serving on those joint terrorism task 
forces. There were only 34 task forces. We now have 103 joint 
terrorism task forces, and we have 3,700 Federal, State, and 
local officers serving on them.
    Terrorism investigations are not directed just at that 
person who is gathering the explosives, but it is those persons 
who are recruiting, those persons who are sending persons to 
camps overseas, those persons who are engaged in criminal 
activity to develop funding that supports terrorism. And so we 
have been far more effective because we have the additional 
personnel, and because of the breakdown of the rules separating 
intelligence and the criminal side, to address those persons 
within the United States who either would want to conduct a 
terrorist attack or are in some ways supporting terrorism.
    Senator Harkin. Well, Mr. Director, my time is up. You 
know, we are doing everything. We are closing down cells 
overseas. I hear about all the successes we are having in 
Afghanistan, we are having in other parts of the world in 
closing down these networks. And yet terrorism has tripled in 
this country. I just have this uneasy feeling that we are just 
redefining it and putting a bigger blanket over what is just 
normal--not normal, but criminal activities, drug activities, 
that type of thing, and just calling it ``terrorism.''
    Mr. Mueller. I would have to disagree.
    Senator Harkin. Well, do you have a definition of 
``terrorism''?
    Mr. Mueller. There is a definition in title 18 that we 
utilize, yes. I would have to get you the specific definition, 
but----
    Senator Harkin. It is in title 18. Has that changed in the 
last 3 years?
    Mr. Mueller. No.
    Senator Harkin. It is the same today as it was before?
    Mr. Mueller. No, but there are various aspects to terrorism 
that include fundraising, training, and recruiting; we have 
many ongoing investigations into those aspects of it that we 
did not investigate in the past. The large number of open 
terrorism investigations that you reference relate in large 
part to a number of these other areas that are important in 
addressing terrorism.
    Senator Harkin. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                            NORTHERN BORDER

    Attorney General Gonzales, as I talked about in my opening 
statement, I have some real concerns about the challenges 
facing northern border States with respect to Federal, 
typically border-related, cases. And as you know, many of these 
cases are being referred to local jurisdictions by Federal 
agencies and the U.S. Attorney's Office. And I, like everyone, 
fully support the efforts to increase the Federal agents along 
the border. It is important. But as those numbers have 
increased post-9/11, more criminals are being apprehended for 
drug smuggling, money laundering, and other crimes on the 
border. And as you know, these cases are often declined and 
referred for prosecution and detention to local jurisdictions 
by the U.S. Attorney's Office.
    Now, the southwestern States have a Federal program for 
reimbursement of costs run out of the Department's Office of 
Justice Programs. It is the Southwest Border Prosecution 
Initiative. But there isn't any program like that for the 
northern border States, and I think it is long past time to do 
that because these cases really put an immense burden on cities 
and counties in my State and across the northern border.
    In Whatcom County in my State, which is where I-5 crosses 
the border into British Columbia, they are spending over $2 
million a year to handle these federally initiated declined and 
referred cases. And those costs are placing a tremendous strain 
on local jurisdictions. In fact, the situation in Whatcom 
County is already forcing that county to release criminals from 
the county jail in order to make room for the increased 
referred caseload.
    Now, back in fiscal years 2004 and 2005, as part of the 
omnibus appropriations bills, your Department was asked to do a 
study on the need to expand the Southwest border program to the 
northern border States, and to my knowledge--and I am not going 
to hold you accountable; I know you are new to the role. But to 
my knowledge, that study has not been completed or done, which 
is disconcerting to all of us who have been involved in this.
    But my question to you today is: Would you support an 
effort to expand the Southwest Border Prosecution Initiative 
program to our northern border States?
    Attorney General Gonzales. Senator, I would have to look at 
all the facts before I could answer that question, quite 
frankly. I am certainly aware of the strains that exist on all 
the border States. I understand your concerns.
    With respect to the study, I was not aware of the study, 
but I am now aware of the study and I will find out where we 
are on that. And maybe you and I can have a further dialogue 
about what we can do to try to help your State deal with these 
additional costs.
    [The information follows:]

    Status of the Study to Expand the Southwest Border Prosecution 
Initiative Program to the Northern Border, and Comment on the Expansion 
                             of the Program

    The Department does not support an effort to expand the Southwest 
Border Prosecution Initiative to the Northern Border at this time.
    Although the United States Attorneys' Offices along the Northern 
Border believe that the expansion of this grant program to the Northern 
Border districts would be helpful in that they have similar border 
issues and limited resources for prosecutions, a review of the 
Department's statistics indicate that the declination rate for federal 
prosecutions is higher along the Southwest Border because of the 
substantial number of illegal immigrants who cross that border daily, 
but who are not prosecuted federally because of limited resources and 
other issues.
    The study of immigration cases in Northern Border districts to 
which you refer was submitted to the Committee on Appropriations on 
August 11, 2004. A copy of the report is inserted.

                                U.S. Department of Justice,
                                   Washington, DC, August 11, 2004.
The Honorable Frank R. Wolf,
Chairman, Subcommittee on the Departments of Commerce, Justice and 
        State, the Judiciary, and Related Agencies, Committee on 
        Appropriations, U.S. House of Representatives, Washington, DC 
        20515.
The Honorable Ernest F. Hollings,
Ranking Minority Member, Subcommittee on the Departments of Commerce, 
        Justice and State, the Judiciary, and Related Agencies, 
        Committee on Appropriations, U.S. Senate, Washington, DC 20510.
The Honorable Jose Serrano,
Ranking Minority Member, Subcommittee on the Departments of Commerce, 
        Justice and State, the Judiciary, and Related Agencies, 
        Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
The Honorable Judd Gregg,
Chairman, Subcommittee on the Departments of Commerce, Justice and 
        State, the Judiciary, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC 20510.
    Dear Mr. Chairman, Senator Hollings, Congressman Serrano, and 
Senator Gregg: The Conference report accompanying the Fiscal Year 2004 
Appropriations Act for the Department of Justice (Public Law 108-199), 
directs the Department of Justice to submit to the Senate and House 
Appropriations Committees, a report on the number of Northern Border 
Prosecutions referred to state and local prosecutors. This report 
provides the requested information with the U.S. Attorneys' caseload 
and referrals on the Northern Border as compared to those on the 
Southwest Border.
    The report was recently approved by the Office of Management and 
Budget. Please feel free to contact me if you or your staff have 
additional questions.
            Sincerely,
                                             Paul R. Corts,
                     Assistant Attorney General for Administration.

Report of the Department of Justice Regarding Immigration Cases in the 
                       Northern Border Districts

                              INTRODUCTION

    The conference report accompanying the Consolidated Appropriations 
Act of 2004 requested a report from the Department of Justice regarding 
the number of cases referred to local prosecutors from Federal arrests 
along the Northern Border. The conference report adopts by reference 
the House report language directing the Department of Justice to report 
the following:

    Southwest Border Prosecutions.--The Committee recommends 
$40,000,000 to assist State and local law enforcement agencies, 
including prosecutors, probation officers, courts, and detention 
facilities along the Southwest border with the handling and processing 
of drug and alien cases referred from Federal arrests. The Committee 
directs the Department of Justice to study whether a similar number of 
cases are being referred to local prosecutors from Federal arrests 
along the Northern border. The Department shall report its findings to 
the Committee within 90 days of enactment of this Act.

    This report summarizes three categories of information relative to 
Immigration Matters considered by the United States Attorneys Offices 
in Northern Border Districts.\1\
---------------------------------------------------------------------------
    \1\ For the purpose of this Report, Northern Border Districts are 
the District of Alaska, the District of Idaho, the Northern District of 
Illinois, the Northern District of Indiana, the District of Maine, the 
Eastern and Western Districts of Michigan, the District of Minnesota, 
the District of Montana, the District of New Hampshire, the Northern 
and Western Districts of New York, the District of North Dakota, the 
Northern District of Ohio, the Western District of Pennsylvania, the 
District of Vermont, the Eastern and Western Districts of Washington, 
and the Eastern and Western Districts of Wisconsin.
---------------------------------------------------------------------------
                               BACKGROUND

    Within the Department of Justice, United States Attorneys' Offices 
have responsibility for prosecuting immigration offenses. Typically 
immigration cases are referred to United States Attorneys' Offices by 
agents for the Department of Homeland Security, including the Bureau of 
Immigration and Customs (ICE), the Bureau of Customs and Border 
Protection, and Border Patrol, but may also be referred by other 
federal agencies and local officers.

    MATTERS RECEIVED, CASES FILED AND DECLINATIONS BY UNITED STATES 
                           ATTORNEYS OFFICES

    This chart sets forth the Matters Received,\2\ Cases Filed,\3\ and 
Declinations \4\ for immigration offenses considered by United States 
Attorneys' Offices in the Northern Border Districts during fiscal years 
2000-2003.
---------------------------------------------------------------------------
    \2\ Matters Received.--All proceedings on which Assistant United 
States Attorneys (AUSA) spend one hour or more of time and the AUSAs 
entry are recorded in their case management system. Matters Received 
includes criminal referrals from investigative agencies, and matters 
that may be handled as misdemeanor cases in U.S. Magistrate Court. 
Matters Received does not include criminal miscellaneous matters 
(requests for arrest warrants, search warrants, etc.), petty offenses 
or infractions, or matters that are immediately declined.
    \3\ Cases Filed.--All proceedings for which a significant paper has 
been filed in court, other than U.S. Magistrate Court and below the 
appeals court level. Significant papers include indictments and 
informations filed in district court.
    \4\ Declinations.--All proceedings terminated (closed) during the 
reporting period without ever having attained case status.

           NORTHERN BORDER DISTRICTS IMMIGRATION CASELOAD DATA
------------------------------------------------------------------------
                                 2000       2001       2002       2003
------------------------------------------------------------------------
Matters Received............      1,026        902      1,030      1,136
Cases Filed.................        800        704        780        905
Matters Declined............        270        272        290        263
------------------------------------------------------------------------

    This chart sets forth the Matters Received, Cases Filed, and 
Declinations for immigration offenses considered by United States 
Attorneys' Offices in the Southwest Border Districts during fiscal 
years 2000-2003.

        SOUTHWEST BORDER DISTRICTS \1\ IMMIGRATION CASELOAD DATA
------------------------------------------------------------------------
                                 2000       2001       2002       2003
------------------------------------------------------------------------
Matters Received............     10,023     10,042     10,658     14,175
Cases Filed.................      7,942      7,851      8,805     10,933
Matters Declined............        146        111        227        987
------------------------------------------------------------------------
\1\ For the purpose of this Report, Southwest Border Districts are the
  District of Arizona, the Southern District of California, the District
  of New Mexico, and the Southern and Western Districts of Texas.

                  CASES REFERRED FOR LOCAL PROSECUTION

    The figures set forth in this report represent immigration cases 
handled by the United States Attorneys' Offices for the Northern and 
Southwest Border districts. United States Attorneys' Offices do not 
maintain records of cases referred for local prosecution by Federal 
Investigative agencies. Offenses may be referred to local jurisdictions 
by federal law enforcement agents without involvement from the United 
States Attorney's office.
    This report provides comparison data on caseload for the Northern 
Border districts and the Southwest Border districts. The matters 
received and cases filed in the Northern Border districts are 
approximately one-tenth of those of the Southwest Border. The 
declinations for the Northern Border are greater in fiscal year 2000-
2002 than the Southwest Border. However, in fiscal year 2003, the 
declinations for the Southwest Border are almost four times greater 
than those of the Northern Border. Declinations by the USAO would not 
suggest that these matters could or would be prosecuted by the state 
and locals.
    The United States Attorneys' Case Management system contains a 
declination code which indicates that a criminal suspect will not be 
prosecuted by the United States Attorney's Office but may be considered 
for prosecution by another authority. The referral is then returned to 
the referring federal investigative agency; however, we do not have the 
ability to determine whether that agency refers that matter to a state 
or local authority.

    Senator Murray. Okay. Well, I would like to know what you 
want these communities to do short of releasing the criminals.
    Attorney General Gonzales. Well, we are committed to 
working with them. Obviously, no one wants criminals running 
around in the streets, and we are committed to working with 
your communities to see if we can find additional resources, 
and to see whether or not there are additional things that we 
can do at the Federal level. But I want to assure you that this 
Attorney General does not want to have criminals released onto 
the streets because we do not have the facilities to deal with 
them. So I look forward to working with you on this very, very 
difficult issue.
    Senator Murray. I would very much like to do that because 
we have tried to pursue this for several years now, and our 
communities really are at, you know, their last strain here.
    Attorney General Gonzales. Thank you, Senator.
    Senator Murray. So I would like to work with you to find 
some additional resources to help them out.
    I also wanted to ask you about the U.S. Attorney's Office 
because it appears they really lack some of the resources to 
handle the caseloads that are being forced on them as well. Is 
this something your agency is trying to address to make sure 
that our U.S. Attorney's Offices can handle the cases that are 
being brought forward?
    Attorney General Gonzales. One thing that is currently 
ongoing is we are engaged in a review across the country to 
evaluate the caseloads amongst the various U.S. Attorney's 
Offices and to assess whether we have the proper allocation of 
resources across the country.

                  NEEDS OF THE CRIMINAL JUSTICE SYSTEM

    Senator Murray. Okay. Well, I would like to hear more 
specifically from you on that because I am very concerned about 
that, too, and some of the fallout we have seen.
    Also, in my State and in other States, the increase in 
Federal police presence, you know, we welcome it. However, we 
are seeing an increase in demand for Federal courtrooms, for 
judges, for detention facilities, more regional justice 
centers. In fact, in my State some of our Federal agents are 
now driving criminals 2 to 3 hours each way just to have their 
first appearances in Federal courtrooms. And I am really 
concerned about the costs associated with that system, as well 
as, you know, the delay it is taking in getting these 
individuals before a Federal judge. And I would like to ask you 
how you think we are going to meet those needs.
    Attorney General Gonzales. Well, I am likewise concerned, 
Senator. It is a rising cost for the budget of the Department 
of Justice. We are looking at various ways that we can reduce 
those costs. For example, it makes no sense that we have to 
drive someone a long way in order to bring them to justice. So 
are there ways that we can reduce the costs? This is something 
that we are looking at; particularly, it is a problem that is 
likely to increase as we look at issues like enforcing our 
borders. We are going to be detaining more people. As we 
continue to enforce the laws that are passed by this Congress, 
we have to do something with these people. And so this is a 
cost that I have a great deal of concern about. The Department 
is looking at developing a strategy that looks at the total 
cost of someone that goes through the justice system from the 
beginning, not just when they are in prison or afterwards, but 
from the time that they are arrested. There are definite costs, 
fixed costs that we cannot avoid.
    And so I have asked for an examination of how we can better 
coordinate how we enforce justice around this country.
    Senator Murray. Okay. Well, I would like to hear more from 
you as quickly as possible specifically how we can do that, 
because we want criminals apprehended, but just dumping the 
costs on our local communities means they end up out on the 
street. And that is where I don't think you want any of them to 
end up.

                              DRUG CARTELS

    One more question, Mr. Chairman, for the Attorney General, 
and that is: According to a 2001 Drug Enforcement 
Administration estimate, drug cartels make up 80 percent of 
America's methamphetamines, and these cartels require about 200 
metric tons of ephedrine and pseudoephedrine each year, or 
about 10 percent of the world's output of these legal 
chemicals. I am really concerned that we may be missing an 
opportunity to work with chemical factories abroad to help 
prevent some of the cartels from getting their hands on the 
chemicals. And if either one of you could talk to me about what 
we are doing to try and break these cartels' supply chain of 
ephedrine and pseudoephedrine, I would really appreciate it.
    Attorney General Gonzales. I can tell you that we are 
working with law enforcement officials in other countries. I 
believe that this problem cannot be effectively dealt with 
without the cooperation of other countries. And so we are 
working in that respect, and I think we are making some 
progress. Obviously, more needs to be done, and as I have 
traveled the country in these first 2\1/2\ months, I have been 
surprised when I talk to law enforcement officials, the two 
issues that they raise as the most pressing concerns for them 
are the explosion of meth labs, particularly these mom-and-pop 
labs, and gangs.
    And so for that reason, both of those have become a 
priority for me. I have asked the folks within the Department 
to make sure that we are doing everything that we can do under 
existing authorities to address this problem, and one, of 
course, is communicating with our counterparts in other 
countries regarding the supply of ephedrine and 
pseudoephedrine.
    Senator Murray. Mr. Mueller, do you have any comment on any 
of that?
    Mr. Mueller. I have not looked at this issue in a while, 
but I know that both DEA and Customs had a substantial program 
looking at those manufacturers of ephedrine and pseudoephedrine 
overseas and attempting with our counterparts overseas to track 
those shipments. I also know that there is a substantial 
undertaking within the United States in those stores that sell 
quantities of ephedrine or pseudoephedrine to monitor those 
sales.
    Senator Murray. We are making some progress there, but I 
think unless we look at the supply chain from some of the 
cartels, we are not going to get to where we need to be. And 
meth is probably the biggest issue I hear about, particularly 
in our rural counties across Washington State, and the impact 
it is having on their communities.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Kohl.
    Senator Kohl. Thank you, Mr. Chairman.

                        CONVICTED SEX OFFENDERS

    Mr. Attorney General, as a point of information, when sex 
offenders and pedophiles are released from prison, are they 
adjudged to no longer be a threat to society, or have they 
simply served their term?
    Attorney General Gonzales. Well, they certainly have served 
their term. I for one would not concede that they are no longer 
a threat to society.
    Senator Kohl. So when they are released, they have served 
their term.
    Attorney General Gonzales. They have served their term, but 
there are ongoing obligations. They have an obligation, for 
example, to register so that law enforcement authorities know 
where they are.
    Senator Kohl. I appreciate that. But, you know, if there is 
an issue out there that really, really ticks people off, it is 
the existence of these sex offenders out there in our society, 
registered or not--I mean, you know, if you know that one lives 
on the next block, what do you do about it? You are really sort 
of powerless to deal with the fact. You may be scared as hell 
to know, but there is not anything you can do about it.
    I am not holding you accountable. I am suggesting that we 
in our society are not dealing properly with sex offenders, 
convicted sex offenders, who, to my knowledge, for the most 
part are simply released back into society after they have 
served their 2 or 5 or 10 years. Families are scared as can be.
    I talked to a friend of mine who lives in Illinois just 
yesterday, and she was talking about the issue, and she told 
me, ``If there is one thing you can do, just one thing to make 
my life easier, and life easier in my neighborhood, it is to do 
something about these sex offenders who are still out there, 
released from prison,'' and, she says, fully capable and she 
expects that they will continue to commit sex offenses and 
molest children, which we cannot tell her she is wrong.
    Attorney General Gonzales. Senator, I cannot tell her that 
she is wrong.
    Senator Kohl. She said to me that if a person is convicted 
of a sex offense or a pedophile offense, they should be put in 
jail and not released until somebody attests to the 
overwhelming likelihood that they will not commit this kind of 
a crime again. Wouldn't you agree?
    Attorney General Gonzales. I think in an ideal world, 
Senator, anyone who is a danger to our children, arrangements 
should be made--everything should be done within the limits of 
our Constitution to ensure that those folks, like pedophiles, 
do not have access to our children.
    It seems to me that it is certainly a good start--it may 
not be where we want to end up, but it is certainly a good 
start to provide as much information as we can to parents and 
let them make the decisions or judgments about what they can do 
to protect their families.
    Now, is there more that we can do? I would be happy to sit 
down and talk with you about that because I have got two young 
boys, too, and I worry about them.
    Senator Kohl. Sure.
    Attorney General Gonzales. And I do not want any, you 
know----
    Senator Kohl. If a person is adjudged to commit a crime 
because they are criminally insane and, you know, they go to 
prison for an indefinite period of time, it is my understanding 
that they will not get out until they are said to be no longer 
criminally insane. Isn't that true?
    Attorney General Gonzales. That is correct.
    Senator Kohl. In large part, this is no different, is it?
    Attorney General Gonzales. I don't know if I'm qualified, 
quite frankly, Senator, to render that opinion, but I think it 
is certainly a question that ought to be asked and one that we 
ought to be discussing.

                              BYRNE GRANTS

    Senator Kohl. On the Byrne grant program, I know you have 
been really pummeled on it, but I just want to add my 2 cents. 
Last year, it was $700 million in both discretionary and 
formula funds, and as you know, they pay for State and local 
drug task forces, community crime prevention programs, 
substance abuse treatment programs, prosecutions, many other 
local crime control programs. And you ask any sheriff or police 
chief around the country, and I guarantee you back in my State 
of Wisconsin, which I think is not unusual, and they will tell 
you that this Byrne grant program is the backbone of Federal 
aid for local law enforcement. The backbone.
    Now, if they are right, then I would like to hope that you 
might be willing to reconsider your position on Byrne grant 
programs. You know, hearings of this sort are for a purpose. We 
listen to you, you listen to us; we go back and think about 
what you said, you go back and think about what you are 
hearing. Otherwise, the hearing has no purpose, right?
    Attorney General Gonzales. That is correct, Senator.
    Senator Kohl. And I am telling you, this Byrne grant 
program, if you ask some of your people to look at it more 
closely, I believe that you will conclude that it is one 
Federal program that deserves support.
    Attorney General Gonzales. We are always looking at these 
kinds of issues, Senator, and we are looking at ways to make 
sure that not just Federal officials but also State and local 
officials have the necessary tools they need to deal with the 
problems that confront our society.
    Senator Kohl. Thank you.

               <greek-l>FBI deg.FBI INTELLIGENCE ANALYSTS

    One question for Director Mueller. In 2002, the Inspector 
General of the Justice Department found that, ``The FBI lacked 
the ability to connect the dots or establish relationships 
among varied pieces of information.'' Nearly 4 years after 9/
11, the FBI's analytical capabilities are still often limited, 
as you know, to supporting individual cases. As everyone knows, 
part of the problem is the inadequate number of qualified 
intelligence analysts at the Bureau, and in your most recent 
proposal, you asked for money to hire 499 more analysts to 
improve this vital capability. However, last year, your goal 
was to hire 787 analysts, and you only hired about 173. Nearly 
32 percent of FBI's analyst positions are still vacant. Is the 
FBI capable of hiring enough qualified analysts to fill these 
positions? And if so, do you have the capability to train that 
many analysts?
    Mr. Mueller. By the end of this year, I believe we will be 
fully hired up on our analysts. We did fall behind last year, 
but we made it up in the beginning of this year through some 
innovative methods for getting analysts on board. I can tell 
you that on September 11 we had 218 analysts in 
counterterrorism; we now have 808 analysts working in 
counterterrorism.
    I also would dispute, I think, some of the premise of the 
question in terms of our analysts solely doing case support 
work. I would be happy to provide you a full portfolio of our 
intelligence products. I think they are first-rate. We are 
doing first-rate assessments. We have provided, I think, close 
to 8,000 intelligence investigative reports over the last 
several years. We have, I believe, close to 200 reports 
officers. We had none before September 11.
    I believe that we are not where we ultimately want to be, 
but we have made substantial strides, particularly over the 
last 6 to 8 months, where much of the preparatory work that we 
were doing to bring these people on board had been done, but we 
then had to execute.
    With regard to training, all of our analysts are required 
to go through a training program. By the end of this year, we 
are expecting that close to 1,000 will have gone through that 
training program down at Quantico. That, again, had to be 
established from scratch in the wake of September 11, but it 
was established and I believe it is a first-rate course at this 
point.
    Senator Kohl. Thank you.

                       JUVENILE JUSTICE PROGRAMS

    One last question for you, Mr. Attorney General. Juvenile 
justice and delinquency programs are allocated, as you know, 
$187 million in the President's budget for next year. This is 
about half of what was allocated last year. So we are talking 
about, you know, a 50-percent cut from last year's number.
    I hope you are not concluding that juvenile justice 
programs are not very important and that Federal funding for 
juvenile justice programs is not very, very important. And, you 
know, the only way that we attest to that here in large part--
not entirely--is by allocating a certain amount of money to 
States for juvenile justice programs. And these programs really 
work. You know, there are several of them in our State. I am 
not going to go into them in detail.
    One school that was built outside of Racine, Wisconsin, is 
the Southern Oaks Girls School. It built a new mental health 
wing with Federal funds to provide counseling service for the 
girl inmates, and the school's administrator says that there is 
a 56-percent drop in violent behavior since the new mental 
services have been offered at that school.
    Now, this is just one of many, many successes in the 
program, and I would like to hope that juvenile justice funding 
is something that the administration continues to regard as 
important and does not put on the chopping block.
    Attorney General Gonzales. Well, addressing the juvenile 
justice issue is important. Juveniles represent the future 
employees and the future leadership of our country and the 
future leaders of communities around the country. And so we 
need to do what we can to try to help wayward youth.
    From the Department's perspective, obviously our primary 
focus is on enforcement, to ensure that juveniles who engage in 
criminal behavior are, in fact, held to account. But a 
successful juvenile justice program has got to do more than 
prosecution and enforcement. You have got to look at education. 
You have got to look at rehabilitation. You have got to look at 
mentoring programs.
    I do agree with you that there are certain juvenile justice 
programs that should continue to be supported.
    Senator Kohl. I thank you, and I thank you, Director 
Mueller.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you, Senator Kohl.

                        ADMINISTRATIVE SUBPOENAS

    Attorney General Gonzales, regarding the PATRIOT Act, it is 
my understanding that the USA PATRIOT Act is up for renewal and 
so forth. It would give the FBI the authority to use 
administrative subpoenas to fight terrorists and spies. I 
personally think the FBI should have every constitutional tool 
available to help fight terrorists.
    My question to you: Are administrative subpoenas a good 
addition to the toolbox? In other words, what do you gain as 
the chief law enforcement officer--and I will address this to 
Director Mueller, too--and what do the American people lose? 
This has been talked about a lot, as you know.
    Attorney General Gonzales. I am aware of that, Mr. 
Chairman. Let me first begin by emphasizing that administrative 
subpoenas are not part of the provisions that are subject----
    Senator Shelby. They are not part of it?
    Attorney General Gonzales. Part of the provisions subject 
to reauthorization of the PATRIOT Act. But with respect to 
administrative subpoenas----
    Senator Shelby. But they have been proposed, have they not?
    Attorney General Gonzales. They have been proposed as an 
additional necessary tool. Administrative subpoenas are a tool 
that is available to various other agencies to deal with a wide 
variety of other criminal conduct, such as health care fraud. 
And I think my view is that if you can use an administrative 
subpoena to go after the bad conduct of doctors, why can't you 
use this tool to go after terrorists?
    Oftentimes, it is in terrorism cases where speed is 
essential, speed and gathering information. And there may be an 
instance where you need to move very, very quickly in accessing 
information which is held in the hands of third parties, and so 
you do not have the same level of expectation of privacy, and 
you need to be able to get that information from a third party, 
and that is why we think it is a valuable tool.
    Senator Shelby. Director Mueller.
    Mr. Mueller. I know it would be a very valuable tool for 
us. As the Attorney General has indicated, it is authorized in 
drug-trafficking cases, crimes against children, health care 
fraud, and also for the Secret Service where there is a threat 
against one of its protectees. And the reason is exemplified 
there. There is a threat, and the Secret Service may need to 
get information about where a person is staying, what kind of 
communications device he or she is using. And the 
administrative subpoena gives the Secret Service the ability to 
get that information quickly, as the administrative subpoena 
would give us the ability to get that type of information 
exceptionally quickly.
    Now, you ask what is the benefit to those who are served 
the subpoena. One is their right to challenge it. But it also 
gives us the right to enforce it. The proposals require the 
authorization of the Attorney General for an order directing 
that it be kept secret for a period of time, and then the 
Attorney General would have to determine when that level of 
secrecy comes off.
    So it provides a balance between giving us the capability 
very swiftly to get the information we need, but it also gives 
those who are served the subpoena some benefits that in other 
cases they would not have.

                           JUDICIAL SECURITY

    Senator Shelby. Judicial security, Mr. Attorney General. 
Recent violence in courthouses in the Southeast and in the 
Midwest have raised significant concerns about the safety of 
the judges, jurors, attorneys, and even the public who appear 
in court. I understand that you have ordered a review of 
judicial security measures. Are you ready to give us a report 
on that? Would you do that for the record? Or where are you?
    Attorney General Gonzales. We are close, Mr. Chairman, 
expect the results of that report shortly. Let me again repeat 
what I have said often about this issue. It is intolerable that 
we have judges in any way fearful for their lives or safety or 
fearful for the lives or safety of any family member. And so we 
are working as hard as we can to ensure that we have done what 
we need to do to protect our judges.

               <greek-l>FBI deg.AGENTS FOR COUNTERRORISM

    Senator Shelby. Director Mueller, the FBI is on pace to 
need an additional 700 or 800 agents for terrorism 
investigations, which are not supported by your budget request. 
Since 9/11, the FBI has relied on agents from other divisions 
to handle its terrorism caseload. While you have permanently 
shifted 480 agents to counterterrorism, I believe back in 2002, 
it does not appear to be nearly enough if you are still 700 to 
800 agents short, if you are, in fact.
    Given the workforce requirements within the terrorism 
program, the continuing threat, and the fact that terrorism is 
your top priority, why haven't you permanently shifted 
additional agents to the counterterrorism program? And where 
are you in this regard?
    Mr. Mueller. Each year I have this discussion, both with 
our people and with the committee, in terms of where we are 
going on this. I expected that there would be a greater drop in 
the number of agents who are working on counterterrorism cases 
over the years since September 11. There has been a 
diminishment of the numbers that are assigned to 
counterterrorism cases, but it still has not closed the gap. At 
the same time, each year I have asked for additional agents 
from Congress and through the administration to help close that 
gap, and I have gotten that. My expectation is that by the end 
of 2006, if trends continue, we will still have a gap of 
approximately 400. And I will be looking at how we can close 
that gap, whether it means additional requests from Congress or 
another reassignment of agents.
    One of the concerns I have about doing it too precipitously 
is that you can assign agents to a particular squad doing 
counterterrorism someplace in the country. But what we have 
found is that terrorism cases that require all our resources 
will pop up all over the place--Lackawanna, New York; Northern 
Virginia; Portland, Oregon. Understanding that our first 
priority is to prevent terrorist attacks and that we have to 
surge the manpower wherever the investigation is, it has 
provided some flexibility in terms of where we surge that 
manpower in order to address a particular investigation. Each 
year I will be looking at it. Each year we will be having a 
discussion, and I would be interested in your views about how 
you think we ought to best close that gap.

      <greek-l>FBI deg.FEDERAL BUREAU OF INVESTIGATION RECRUITMENT

    Senator Shelby. How is your recruiting going on at the FBI?
    Mr. Mueller. Very well. There are a number of people out 
there who want to be FBI agents. There are a tremendous number 
of people out there who want to be FBI analysts. I think we had 
an ad out for 1 week, and we got something like 2,200 
applications from persons who want to be FBI analysts. Our 
recruiting is going very well. We still are recruiting in other 
areas where we need different language capabilities, for 
instance, and scientific capabilities. But we are getting a 
very good response to what we have been doing.

           <greek-l>FBI deg.DIRECTOR OF NATIONAL INTELLIGENCE

    Senator Shelby. Director Mueller, Ambassador Negroponte is 
setting up the Office of the Director of National Intelligence, 
or DNI. The Intelligence Reform and Terrorism Prevention Act of 
2004 gives the DNI more direct authority over the FBI than was 
previously afforded the Director of Central Intelligence. For 
example, it is my understanding that the DNI, the Director of 
National Intelligence, Negroponte, has authority over the 
individual that you choose to serve as the Executive Assistant 
Director, or EAD, for Intelligence.
    What do you see as the role, sir, of the DNI in overseeing 
the intelligence functions of the Bureau? Do you have any 
concerns over the DNI trying to direct FBI operations--you 
know, if they do--as opposed to focusing on intelligence 
collection requirements, coordinating community efforts, and 
setting overall policy? And do you see any potential chain of 
command problems with the DNI in this authority over the EAD 
for Intelligence?
    Mr. Mueller. Let me start by saying the President has made 
it clear that the chain of command in the respective agencies 
is retained. But going to the DNI, I believe that with regard 
to the Executive Assistant Director for Intelligence, it is 
appropriate that any selection put forth by myself and approved 
by the Attorney General should include the input from the DNI 
before we put that person in place because that person will be 
a principal interlocutor with the DNI.
    Senator Shelby. Okay.
    Mr. Mueller. I believe the DNI appropriately should 
establish the requirements for collection, not just outside the 
United States but to the extent that it is a national threat 
nationally and we should be responsive. I believe the DNI 
should have some role in coordinating activities between the 
various agencies on particular threats.
    I do not perceive that, in working with John Negroponte, we 
will have any difficulties in sorting out those relationships. 
We look forward to working with him in order to become much 
more a part of the intelligence community than we have been in 
the past.

             <greek-l>FBI deg.WMD COMMISSION RECOMMENDATION

    Senator Shelby. Director Mueller, the key recommendation 
from the President's WMD Commission was to unify the Bureau's 
intelligence, counterterrorism, and counterintelligence 
programs under a single Executive for National Security who 
would report to you and Ambassador Negroponte. Currently, you 
have separate Executive Assistant Directors for Intelligence 
and for Counterterrorism Counterintelligence. What are the 
advantages and disadvantages of the WMD Commission's 
recommendation? And how do you plan to respond to this 
recommendation?
    Mr. Mueller. We are in the process with the Attorney 
General of making recommendations to the President in response 
to those recommendations that were made by the WMD Commission. 
In terms of the benefits of doing that, you have one person who 
is in a position to sort out whatever disagreements or 
differences of perception there may be between 
counterintelligence, counterterrorism, and the Intelligence 
Directorate. It also is in some sense beneficial because we 
perceive those three entities as being a national security 
service. We are developing career paths for both intelligence 
personnel to come up through the Intelligence Directorate, but 
also career paths for counterintelligence and counterterrorism. 
And that will help to build that national security service.
    The details of how it will be structured within the Bureau 
and the relationship with the DNI are still under discussion 
with the Attorney General and with the White House.
    Senator Shelby. Senator Mikulski, I would just note we have 
a vote on the floor of the Senate.
    Senator Dorgan. Mr. Chairman, I have not yet had a chance 
to ask questions.
    Senator Shelby. I apologize. I know you were in and out. I 
am sorry.
    Senator Dorgan. A vote has just started on the floor, so I 
apologize, but I----
    Senator Shelby. I went ahead of you. I shouldn't have done 
that.
    Senator Dorgan. No problem. But let me again apologize for 
being late. I had three subcommittee hearings this morning, but 
thank you, both of you, for being here.

                            SEXUAL PREDATORS

    Let me ask you, Attorney General Gonzales, about an issue 
that you have been asked about by several people on the 
subcommittee this morning, and that is the issue of sexual 
predators. Martha Stewart was let out of prison and wore an 
electronic ankle bracelet to go bake bread and do gardening, I 
guess. Today, there is perhaps a high-risk type 3 sexual 
predator being let out of prison with not much more than a ``So 
long, see you later.'' And you and I talked in January about 
this issue.
    My interest was stimulated by the murder of a young woman 
in Grand Forks, North Dakota, by a sexual predator who had been 
in prison for 23 years, a high-risk sexual predator, judged to 
be at high risk for reoffending, let out after 23 years; within 
6 months, moved on the Minnesota side of the border, so the 
registry in North Dakota would not have identified that person 
was living nearby; and within 6 months has been arrested for 
the murder of Dru Sjodin.
    When you and I visited in January, I talked about three 
things in a piece of legislation that I have introduced in the 
Senate with Arlen Specter, the chairman of the Judiciary 
Committee:
    One, a national registry of sex offenders. I was delighted 
with what you announced on Friday. Congratulations to you. I 
think it is exactly the right thing to do. I appreciate your 
agency and your leadership in doing it. We need a national 
registry of sex offenders.
    The other two provisions in my legislation are, two, before 
a high-risk sexual predator is let out of prison, the local 
State's attorney in the jurisdiction where that person was 
prosecuted should be notified in the event they wish to seek 
additional civil commitment. In the case of the person arrested 
for Dru Sjodin's murder, he was judged by the experts to be at 
high risk for reoffense and a more violent reoffense. I think 
the local authorities should be notified so that they can seek 
additional civil commitment where they think appropriate.
    And third, and very important, if, in fact, high-risk 
offenders reach the end of their sentence and are not 
recommitted civilly and are released, there needs to be 
monitoring, high-level monitoring for a period of time. As I 
said, if Martha Stewart wears an ankle bracelet, so, too, 
should a violent sexual predator who has finished his or her 
term of incarceration.
    So having said all that, first, congratulations to you. I 
think what you did Friday is wonderful. I am fully supportive 
of it. Second, can you give me your analysis of the other two 
provisions of the bill that Senator Specter and I have? One, as 
I said, is notification of local authorities, and the second is 
required monitoring upon release of a high-risk predator.
    Attorney General Gonzales. Senator, thank you, first of 
all, and thank you for reminding me about our conversation, the 
two points. I did ask my staff to go back and look at that 
specifically. I have not talked with them, but let me just give 
you sort of my gut reaction--which sometimes can be dangerous. 
I understand that. But it seems to me that providing notice to 
local officials seems to make sense. If you have got someone 
who is especially dangerous, notifying the local officials that 
you are about to release a very dangerous sexual predator in 
that community seems to make sense to me.
    In terms of monitoring, I don't know what can be done after 
the fact, after someone has already been sentenced and has 
served their time and is now being released. Clearly, if we are 
talking about people that are being tried today as part of the 
condition of their confinement, it might be possible to include 
supervision, part of the penalty, like under the PROTECT Act, 
under which I understand you can get lifetime supervision of 
dangerous pedophiles. So with respect to people going in, I 
think there are certainly steps that you can do to provide some 
kind of monitoring, but in terms of after the fact, I would 
have to look to see whether or not that is something that could 
be done. We would obviously be happy to look at that.
    Senator Dorgan. Well, I would like--and I am sure speaking 
for Senator Specter, we would really like to work with you on 
that to see if, number one, when we pass this legislation--and 
we will. It was already passed by the Senate last year. I am 
sure this legislation will be embraced by the Congress. Can we 
be helpful in the construct of the national registry, anything 
that we need to do to authorize or to be helpful to you on 
that? And then, second, we would like to work with you on the 
other two pieces as we proceed forward, and I appreciate the 
invitation to do that.
    Attorney General Gonzales. Thank you.
    Senator Dorgan. The last piece would be an unfunded mandate 
to the extent that we can do it, but it should not be a massive 
amount of expenditure by local governments, and it is just a 
thoughtful thing to do.

                            USA PATRIOT ACT

    Let me make one final point. Director Mueller, you both 
have talked about the PATRIOT Act because you have been asked 
questions about it. As you know, there is great controversy 
about that in some circles, and while I think it has been very 
helpful in some areas, it also has some provisions that are 
controversial. It was passed very quickly post-9/11. I don't 
think those of us in the Congress would believe that we ought 
to get rid of the PATRIOT Act wholesale at this point. But 
there may need to be some adjustments in the PATRIOT Act.
    Are there any complaints about the PATRIOT Act that you 
think have some merit? And you no doubt have heard many 
complaints about the PATRIOT Act. Are they all without merit, 
or are there some that have some merit and as we begin looking 
through reauthorization of the PATRIOT Act, what should we look 
to with respect to valid complaints about it?
    Attorney General Gonzales. Well, let me just say that I 
think it is never inappropriate to express concerns about the 
exercise of Government authority that might impact or does 
impact upon civil liberties and the privacy rights of any 
American. That is a good debate to have, and people ought to be 
worried about that.
    However, as we have considered the allegations of abuses, 
we have yet to find one verifiable instance when there has been 
an abuse under the PATRIOT Act. And I think the record reflects 
that the Department has been very judicious in the way it 
exercises its authority. I think the record reflects that the 
Congress did a good job in including within the PATRIOT Act 
appropriate safeguards to protect the civil liberties and the 
private rights of Americans.
    Senator Dorgan. My question was not so much about abuse. My 
question was about the authority itself. And there is some 
controversy about certain areas of authority. But let me submit 
some questions in writing, and undoubtedly the Congress will 
proceed in this area, and not, in my judgment----
    Senator Shelby. The record will stay open for these.
    Senator Dorgan. Let me just submit that to you. And, again, 
let me thank both of you for being here.
    Senator Shelby. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, I note that there is a vote 
on, and this is the vote that shows our willingness to cross a 
divide that was growing in the Senate on judicial nominations. 
I want to be on the floor. The number of Senators who 
participated kind of minimizes my time for a second round, but, 
Mr. Mueller, I hope to be able to continue a conversation with 
you on a couple of issues. One, you are leading a major 
transformation of the FBI, and know that we want to be very 
supportive.

                   <greek-l>FBI deg.HEALTH CARE FRAUD

    I note that there was a scathing article in the New York 
Times about the FBI and health care fraud and the issue of the 
FBI mishandling health care fraud cases. I will give you the 
article. But what it comes down to is that you could not 
account for the data and what agents were doing what, et 
cetera. We cannot enter into a conversation about this as I had 
hoped to, but this then takes me to technology----
    Mr. Mueller. Can I just say, the GAO report takes us to 
task for not adequately showing that the agents were actually 
working health care fraud cases. They were. And so it is our 
ability to account for that that is being----
    Senator Mikulski. That was going to be my next question, 
which then takes us to the whole issue of technology and the 
use of technology, and also the fact that I understand you now 
have a prime time chief information officer that will be 
involved in procurement.
    Again, my time is up. I have to go to the floor to vote. 
But I do hope that we can continue the discussion as well as 
the transformation on counterterrorism. We want to support you. 
We want you to do what you can do.
    Mr. Chairman, thank you for an excellent hearing.
    Senator Shelby. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    First of all, Mr. Attorney General and Director Mueller, we 
want to thank you for your appearance. We do have a number of 
additional questions for the record we will send to you. We 
look forward to working with you. We want to make sure that 
both of you have the resources that you need here to do your 
job.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
               Questions Submitted to Alberto R. Gonzales

            Questions Submitted by Senator Pete V. Domenici

                     IMMIGRATION BACKGROUND CHECKS

    Question. What immigration applications require an FBI background 
check?
    Answer. Federal Bureau of Investigation (FBI) Name Checks are 
provided with respect to six specific applications: Form N-400, 
Application for Naturalization; Form I-192, Application for Advance 
Permission to Enter as Nonimmigrant; Form I-485, Application to 
Register Permanent Residence or Adjust Status; Form I-589, Application 
for Asylum; Form I-601, Application for Waiver of Grounds of 
Excludability; and Form I-687, Application for Status as a Temporary 
Resident Under Section 245A of the Immigration and Nationality Act.
    Further details may be available from U.S. Citizenship and 
Immigration Services (USCIS).
    Question. When was the policy that requires these background checks 
created?
    Answer. The FBI began conducting name checks for naturalization 
applicants after the Immigration and Nationality Act was passed in 
1952.
    Question. Is there another way to safely review these applications 
in a more expedited manner?
    Answer. It is the FBI's understanding that no other source of 
information would contain the extensive biographical and historical 
information found in FBI files (including information concerning 
violations of law and threats to our national security), which is the 
product of the FBI's long history of conducting criminal and 
counterintelligence investigations. The current global situation 
requires diligence in the screening of applicants for entry into the 
United States and for citizenship. Without considering all pertinent 
facts, informed decisions cannot be made regarding the suitability of 
foreign individuals for immigration or for naturalization as United 
States citizens.
    On average, the FBI's National Name Check Program Section (NNCPS) 
returns 68 percent of name check requests to the USCIS within 48 hours. 
An additional 22 percent of these requests are responded to within 30 
days, on average. The remainder of the requests require extensive 
research and processing and often take 120 days or more. Much of this 
work requires analysts to retrieve and review paper documents, which is 
a time consuming but necessary step. To improve the performance of the 
National Name Check Program and reduce the time required to process 
name check requests, the FBI continues to leverage technology and to 
identify management actions that will improve efficiency.
    Question. Could another agency be equipped with the tools to 
conduct these background checks?
    Answer. The FBI is not aware of another source that could provide 
the type and depth of information, including historical information, 
necessary for these checks. The FBI's NNCPS works cooperatively with 
its customer base and continuously seeks to improve the quality of its 
customer service through the innovative application of technology and 
effective resource management.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                       VIRTUAL CASE FILE/SENTINEL

    Question. What were the two cost estimates provided by Mitretek and 
Aerospace, and when does the FBI expect to have a final cost estimate? 
If this information is classified, please make arrangements to provide 
this information to cleared staff.
    Answer. The Federal Bureau of Investigation (FBI) has reconciled 
the cost estimates from Aerospace and Mitretek and has developed a cost 
estimate to be used for budgetary purposes. Although this information 
is not classified, revealing it would alert potential contractors to 
the government's expectations regarding contract price, and would 
compromise the ability of the bid process to identify the lowest 
responsive, responsible bidder. The FBI will provide a final cost 
estimate when the contractor has been selected.
    Question. Based on the two cost estimates you have received so far, 
how much additional funding or reprogrammed funds will the FBI require? 
If reprogramming is required, what programs do you anticipate will lose 
funds?
    Answer. On September 27, 2005, the Department of Justice (DOJ) 
submitted a reprogramming to Congress for Phase 1 of SENTINEL, totaling 
$97 million. Since SENTINEL will support all investigative activities 
across the FBI, all programs were reviewed as potential sources to 
support SENTINEL.
    Question. Please reconcile these statements. Will the FBI utilize 
the interface or any element of the IOC, and on what basis did the 
Bureau reach this conclusion? Please also indicate whether the FBI has 
received any assessment from Mitretek of the IOC pilot, and if so, 
please describe those results.
    Answer. The pilot was intended to test case management concepts as 
well as actual software code developed by the Virtual Case File (VCF) 
contractor. While the user interface code developed for VCF will not be 
re-used in SENTINEL, user interface concepts tested in the pilot proved 
to be essential tools and were incorporated into SENTINEL's 
requirements document. In addition, portions of the VCF interface code 
will be used in an on-going project to make data in the existing case 
management system (the Automated Case Support system) accessible 
through SENTINEL. This on-going effort will support Phase 1 of 
SENTINEL.
    Mitretek Systems' VCF Initial Operating Capability Final Report, 
delivered in April 2005, was consistent with the conclusions described 
above. In addition, its evaluation stressed the importance of waiting 
to deploy an electronic workflow capability until it can be supported 
by an electronic records management capability. The notional phases in 
which SENTINEL will be developed have been structured to reflect this 
conclusion.
    Question. Has the list of requirements been refined and does the 
FBI now have a final requirements list for the SENTINEL project? If 
not, when will the FBI have a final list?
    Answer. Review of the SENTINEL System Requirements Specification 
(SRS) by line-of-business owners and stakeholders has been completed 
and comments from this review have been incorporated into the SRS.
    Question. Has a project manager been appointed for SENTINEL, and if 
so, who is the project manager? If not, when will a project manager be 
appointed?
    Answer. Miodrag Lazarevich was appointed as SENTINEL's Program 
Manager on 6/13/05. Prior to his detail to the FBI, Mr. Lazarevich 
served as the Deputy Director for a joint special program office at the 
Central Intelligence Agency (CIA). During that assignment and numerous 
assignments in the military, diplomatic, and intelligence communities, 
Mr. Lazarevich has managed large programs dealing with the development 
of communications systems, information technology, strategic investment 
plans for future systems, research and development technology 
insertion, and cross-agency policy. Mr. Lazarevich is program manager 
and a Contracting Officer Technical Representative certified at level 
3, and has had extensive field experience and executive management 
training and experience. Mr. Lazarevich is also a former United States 
Army Signal Corps officer, including both active and reserve duty, and 
holds a Bachelor of Science degree in Electronic Engineering from the 
University of Wisconsin at Madison and a Master of Science degree in 
Electronic Engineering from the University of Arizona at Tucson.
    Question. Director Mueller testified on May 24 that the FBI intends 
to complete the SENTINEL project in 4 phases with phase one to be 
completed 12 months after the contract award and an overall timeline of 
39 to 48 months. In light of the time we have already lost on the 
Virtual Case File effort, the prospect of 4 more years before agents 
will have these full capabilities disappoints and concerns me. Please 
describe what functionalities will be available to FBI agents when each 
of these phases is complete, and please also provide the estimated 
completion dates for phases 2 and 3.
    Answer. As indicated in the below chart, Phase 1 will establish a 
single point of entry for legacy case management. The user will be 
presented with the look and feel of a single integrated system instead 
of stove-piped applications. Phase 1 will also expand the search 
capability, allowing searches across multiple case-related systems, and 
subsuming and expanding Automated Case Support capabilities by 
summarizing a user's workload on a dashboard, rather than requiring the 
user to perform a series of queries to obtain it. To simplify the entry 
of data into the Universal Index (UNI), an entity extraction tool will 
be used to automatically index appropriate persons, places, and things. 
Finally, the core infrastructure components will be selected during 
Phase 1.
    Phase 2 will provide case document management and records 
management repositories, beginning the transition to paperless case 
records and implementing the electronic records management capability. 
A workflow tool will support the flow of electronic case documents 
through their review and approval cycles, and a new security framework 
will support role-based access controls, single sign on, externally 
controlled interfaces, and electronic signatures based on Public Key 
Infrastructure. This phase will address the concern expressed by users 
of Virtual Case File's Initial Operating Capability that a paperless 
environment is necessary to leverage the benefits of automated 
workflow.
    Phase 3 will replace and improve the Bureau-wide global index for 
persons, places, and things. In the ``Connect the Dots'' paradigm, the 
``dots'' are represented by UNI, the legacy index that is, in effect, a 
database of entities (i.e., persons, places, and things) that have case 
relevance. Unlike the current UNI index, which supports a limited 
number of attributes, the new global index will improve the richness of 
the attributes associated with the indexed entities, permitting more 
precise searching.
    Phase 4 will implement the new case and task management and 
reporting capabilities and will begin the systematic consolidation of 
case management systems. This phase will consolidate and incorporate 
functions currently performed by stovepipe legacy systems, which will 
be retired at this point.
    The following chart identifies the functionalities that will become 
available through each phase of SENTINEL's development.

----------------------------------------------------------------------------------------------------------------
            Phase                            Description                         Functionality Provided
----------------------------------------------------------------------------------------------------------------
Phase 1.....................  SENTINEL Portal Access to ACS...........  SENTINEL portal access to legacy data
                                                                        Case Management Workbox
                                                                        Entity extraction for the UNI
                                                                         application
                                                                        Expanded search capability, including
                                                                         Electronic Case File (ECF) and
                                                                         IntelPlus
                                                                        Service Oriented Architecture (SOA)
                                                                         framework and foundation services
Phase 2.....................  ECF Replacement.........................  Case Document Management (DM)
                                                                        Records Management Repository (RM)
                                                                        Workflow management
                                                                        Extended security with role-based access
                                                                         controls, Public Key Infrastructure
                                                                         (PKI), and digital signatures
                                                                        Searching and reporting for DM/RM
                                                                        Adjustments to interfaces
Phase 3.....................  UNI Replacement.........................  Improved Global Index with expanded
                                                                         attributes, including Data Extraction
                                                                         and Extension Project (DEEP)
                                                                        Expanded searching and reporting
                                                                        Adjustments to interfaces
Phase 4.....................  Case Management Consolidation, including  Case Management and Reporting
                               Investigative Case Management, Asset     Task Management
                               Database, Criminal Management Informant  Collected Items Management
                               System, Financial Institution Fraud,     Adjustments to interfaces
                               Bank Robbery Statistical Application,
                               Integrated Statistical Reporting and
                               Analysis Application, and Guardian.
----------------------------------------------------------------------------------------------------------------

    Question. Director Mueller testified on May 24 that ``SENTINEL is 
different from the Virtual Case File program in a number of ways'' and 
referenced a ``chart that illustrates the additional capabilities that 
will be available under SENTINEL, capabilities that were not 
contemplated as part of Virtual Case File. . .'' Please provide a copy 
of this chart.
    Answer. The Request for Proposals (RFP) was not made public, but 
was instead published only to those contractors eligible to bid under 
the Government Wide Acquisition Contract. Because the chart comparing 
VCF capabilities with those we will seek in SENTINEL would convey much 
the same information as the RFP (though in far broader terms), we 
cannot provide the chart until the RFP is made public. We will be happy 
to provide the chart when that occurs.
    Question. In response to questions from the Feb. 3, 2005, VCF 
hearing, Director Mueller stated that the FBI ``plans to request 
additional government software and systems engineers in the future to 
bolster its resource pool for dealing with complex and critical 
information technology projects.'' Do the funds requested in this 
budget cycle address the FBI's needs for additional software and 
systems engineers, and how much do you anticipate will be necessary for 
these purposes?
    Answer. The FBI's portion of the President's fiscal year 2006 
budget includes $7 million in nonpersonnel funding for ``Enterprise 
Information Technology Management.'' Of this $7 million, $5.8 million 
would be used to hire 23 contractors in the Office of the Chief 
Information Officer, 5 of whom would focus on systems engineering. 
Future budget requests for additional contractors or full-time FBI 
software engineers will be based on an assessment of personnel and 
operational needs related to the evolving technologies that support the 
FBI's mission.
    Question. When do you expect that the FICMS framework will be 
finalized?
    Answer. A draft white paper describing the Federal Investigative 
Case Management System (FICMS) framework has been forwarded to DOJ for 
its use in assisting other law enforcement agencies' case management 
projects.
    Question. What will the FBI's role be in the FICMS project?
    Answer. FICMS serves as the framework that will guide the 
development of DOJ and Department of Homeland Security investigative 
case management systems. The FICMS framework complies with the Federal 
Enterprise Architecture (FEA), uses FEA reference models, and will 
contribute to our national security by strengthening the sharing of 
terrorist information as required by Executive Order 13356. Each agency 
participating in FICMS has unique needs and will employ its own 
mechanisms to manage investigative workflow, manage records, and 
analyze data. These individual systems will, however, follow the FICMS 
blueprint, permitting data to flow easily and securely between 
agencies. As the FICMS Executive Agent, the FBI is moving forward with 
the development and deployment of the SENTINEL system, which will 
follow the FICMS framework and establish key architectural components 
for the FICMS infrastructure.
                                 ______
                                 
             Questions Submitted to Robert S. Mueller, III
            Questions Submitted by Senator Patrick J. Leahy

                         OKLAHOMA CITY BOMBING

    Question. You indicated at the hearing that the FBI failed to find 
all the evidence when it searched Nichols' home ten years ago because 
the evidence was buried under the earth. Are you considering any 
changes to the Bureau's search protocols as a result of this incident?
    Answer. The Federal Bureau of Investigation (FBI) used all 
appropriate investigative techniques when searching Terry Nichols' home 
in April 1995, and it does not appear that, short of dismantling the 
residence, the explosives buried under the crawl space could have been 
located given the technology available at that time. Among other 
investigative techniques, the FBI used an Ion Mobility Spectrometer 
(IMS), which is an instrument designed to detect explosives. It is 
likely the IMS did not detect the presence of explosives, which were 
later found based upon information provided by Nichols, because these 
explosives were in their original packaging, then wrapped in paper, 
then further shrink-wrapped with several layers of plastic, and finally 
buried beneath rocks and dirt. The 1995 search revealed only normal 
construction debris and stones left from the construction of the stone 
foundation, and no anomalies or indicia of recent disturbance were 
identified.
    While the FBI constantly seeks advancements in technology that can 
aid in our investigative mission, and the capabilities of the FBI's 
Evidence Response Team have increased significantly in the past decade, 
the FBI forensic personnel deployed to the site in 1995 were both 
appropriate for the circumstances and highly qualified. The team of 
personnel included a Supervisory Special Agent from the FBI's 
Explosives Unit, a chemist, a latent fingerprint supervisor, and a 
fingerprint examiner, as well as a team of United States Army Explosive 
Ordnance Disposal personnel and bomb technicians from the Bureau of 
Alcohol, Tobacco, and Firearms. This group was highly effective, 
locating numerous items of incriminating evidence, including weapons, 
explosives, blasting caps, chemicals, United States currency, and 
documents. While the forensic tools available to the FBI improve as 
technology advances, the FBI does not believe that a different search 
protocol would have yielded a different result.
    Question. Is there anything about the recent discovery that changes 
the Bureau's understanding of who did what in the conspiracy to bomb 
the Murrah building--and if not, why not?
    Answer. The information derived from the recent discovery does not 
change the FBI's determination of who was responsible for or involved 
in the conspiracy to bomb the Murrah Building. An extensive and 
exhaustive investigation determined that the two subjects responsible 
for the bombing of the Murrah Building were Timothy McVeigh and Terry 
Nichols. The FBI thoroughly investigated the allegation that Roger 
Edwin Moore was involved in that bombing, but the investigation yielded 
no credible evidence supporting the allegation.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The subcommittee will now stand in recess 
until Thursday, May 26, at 2 p.m., when we will hear testimony 
from the Secretary of Commerce on the Department's budget for 
2006.
    The subcommittee is recessed.
    [Whereupon, at 12:12 p.m., Tuesday, May 24, the 
subcommittee was recessed, to reconvene at 2 p.m., Thursday, 
May 26.]

</pre></body></html>
